<html>
<title> - FIREFIGHTING PREPAREDNESS</title>
<body><pre>[Senate Hearing 109-86]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-86

                       FIREFIGHTING PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                       FIREFIGHTING PREPAREDNESS

                               __________

                             APRIL 26, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-739                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Burns, Hon. Conrad, U.S. Senator From Montana....................     5
Caswell, James, Office of Species Conservation, State of Idaho, 
  accompanied by Kirk Rowdabaugh, State Forester of Idaho........    32
Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Nazarro, Robin M., Director, Natural Resources and Environment, 
  Government Accountability Office...............................    17
Rey, Mark, Under Secretary for Natural Resources and Environment, 
  Department of Agriculture, accompanied by Lynn Scarlett, 
  Assistant Secretary, Policy, Management and Budget, Department 
  of the Interior................................................     7

                                APPENDIX
                               Appendix I

Responses to additional questions................................    59

                              Appendix II

Additional material submitted for the record.....................    69

 
                       FIREFIGHTING PREPAREDNESS

                              ----------                              


                             APRIL 26, 2005

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone. the Subcommittee 
on Public Lands and Forests will convene.
    I want to welcome all of our witnesses. Assistant Secretary 
of Policy, Management and Budget for the Department of the 
Interior, Lynn Scarlett. Lynn, welcome.
    Under Secretary of Natural Resources and the Environment 
for the Department of Agriculture, Mark Rey. Mark, welcome.
    Robin M. Nazzaro, Director of Natural Resources and 
Environment at the U.S. Government Accountability Office. 
Robin, welcome.
    Jim Caswell--I have had the privilege of working with Jim 
over the years out in the State of Idaho, Office of Species 
Conservation for the State of Idaho--who is here today to 
testify on the Western Fire Leadership Council blue ribbon 
report on large fire suppression costs. Jim was a co-chair, 
along with Kirk Rowdabaugh, State Forester of Arizona, who is 
the other co-chair of that council.
    So we welcome all of you for being with us today.
    I am going to ask that all of you come to the witness table 
as you have. Together we will take testimony from all of the 
agencies and then from the Government Accountability Office and 
finally from the blue ribbon panel. I am doing this so that we 
can gain the benefit of give and take between our witnesses 
during the question and answer period. I am interested in some 
give and take between you as it relates to the question of fire 
costs and what can be done to control these costs.
    As we have done in past years, we are very interested in 
your projection of the upcoming fire season. I have to say the 
outlook for my State of Idaho and the Pacific Northwest is not 
very good at this moment.
    In 6 out of the last 8 years, we have expended more funding 
on fire suppression than was appropriated. While over eight 
million acres burned last year, over 80 percent of those acres 
were in the State of Alaska.
    I am concerned what the costs might be. If those six-to-
seven million acres burned were in the Intermountain West or in 
the Cascades, I think those projections would have been 
dramatically different, or the realities would have been.
    We are also going to hear from Robin Nazzaro on two reports 
that the Government Accountability Office has recently 
completed: one on progress on cohesive strategy, and one on 
assessing technology to better protect structures and improve 
communications during these wildfires. Both have implications 
on the long-term costs of firefighting.
    We all understand that the decision to ground the heavy 
fixed wing retardant aircraft had both monetary and operational 
impacts. It also forced the agencies to re-examine the 
contracts they use to ensure needed aerial assets are 
available.
    I am afraid, given the number of calls, letters, and visits 
that I have received, that this transition is not going 
smoothly, and I will be asking questions on these issues.
    I know that Senators Wyden and, of course, the ranking 
member of the full committee, Senator Bingaman, and others have 
issues that they want to hear about and are most interested in 
the projections you all see for the upcoming fire season.
    We will follow a 5-minute testimony rule today to allow 
maximum time for questions from all of you. Before I ask for 
you to start, Lynn, I will turn to Senator Bingaman for any 
opening comments he would like to make.
    Senator.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much. Thanks to all the 
witnesses for being here. Chief Domback, in a recent article, 
observed we spend half the year talking about the need to 
reintroduce fire into fire-adaptive ecosystems, and the other 
half of the year suppressing wildfire at substantial economic 
costs. I thought that was an insightful comment.
    We have several reports that I gather--a couple of reports 
that we are going to hear something about today, and let me 
just highlight a couple of issues that I think are covered in 
those reports.
    There is a cost management report, as I understand it. The 
Western Governors have endorsed the report as highly 
persuasive. Agencies have agreed to implement the 
recommendations of that report.
    I guess my question would be what are we waiting on? Is 
there some reason we are not going ahead? There have been 
several months that have passed since the report was issued, 
and I have not seen indications that we are going ahead and 
implementing the recommendations.
    One other issue, Mr. Chairman, I wanted to flag for the 
panel is that we had this tragic air crash in California last 
week, and I am very unclear in my own mind about what the plan 
is with regard to the airtanker situation, both short term and 
long term.
    I hope the witnesses can address that. That is a subject 
that we have heard about now for several years, and I had sort 
of thought we were on the way to getting that fixed, but I 
guess my information was erroneous in that regard. But I would 
be interested in hearing anything I could on that subject. 
Thank you very much.
    Senator Craig. Senator, thank you.
    Senator Murkowski, do you have any opening comments?

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Well, thank you, Mr. Chairman. I will 
put the full comments of my statement in the record, but I do 
want to follow up on Senator Bingaman's comment about the loss 
of the three fire aviators last Wednesday. We join with their 
families and their co-workers in grieving their loss.
    For those of us in Alaska, we recognize that wildfires are 
part of our summer, part of the landscape out there, but last 
year was tough for us. 2004 was our worst fire season in our 
State's history.
    We had 148,000 lightning strikes. On one afternoon that I 
was there, they had had 11 just minutes before. We had 737 
wildfires, 6.72 million acres burned. That is one of the 
estimates, incredible in terms of our numbers.
    Hundreds were evacuated from their homes. Some were 
evacuated, returned to their homes, and then had to be 
evacuated again.
    On the positive side for us in Alaska, there was no loss of 
life and very little loss to private property. But it bears 
noting that that 2004 fire season did not end because the 
firefighters were successful in extinguishing the fires; it 
ended basically because winter came. The fires continued 
literally all summer. And it wasn't just the fire itself, but 
the smoke, and the effect on the quality of life.
    We had 40 days, a full month plus, of extreme smoke 
conditions in Fairbanks. Forty days of toil on economic and 
recreational opportunities. Forty days of really very difficult 
breathing in interior Alaska.
    I was up there on several occasions, and your eyes burned, 
your lungs burned. And I was inside, in the buildings.
    We saw the smoke migrating all across the State, so thick 
actually, down in Anchorage, that we had air-quality warnings. 
So, again, Mr. Chairman, we hope that in Alaska we are not 
faced with another fire season like we had in 2004.
    I am going to be listening with great interest as we 
discuss how we deal with the assets that are available to us 
and assets available in a timely manner.
    We were very concerned about whether or not we would be 
able to get the aircraft that we needed. There were issues that 
crossed jurisdictional bounds, let us say, that complicated the 
scene for us, and my constituents were very concerned.
    They did not care whether it was Federal property or State 
property. They wanted to know that somebody was going to be 
coming to aid and assist.
    So, Mr. Chairman, I am pleased that we are having this 
hearing today and look forward to the comments from all those 
that have joined us here this afternoon. Thank you.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Good afternoon, Mr. Chairman. Last Wednesday, the lives of three 
fire aviators were lost when the P-3 Orion aircraft they were training 
on went down in the Lassen National Forest in California. We join with 
their families and their co-workers in grieving their loss.
    Wildland firefighting is dangerous work and when one of our brave 
wildland firefighters is lost, the people in my State of Alaska grieve. 
The nation grieves. Our wildland firefighters and wildland aviators are 
the people who protect our homes, our property and our lives.
    In 2004, nobody knew this better than Alaskans. During the summer 
of 2004, Alaska experienced the worst fire season in our State's young 
history.
    The statistics are staggering:

  <bullet> 148,000 lightning strikes
  <bullet> 737 wildfires
  <bullet> 6.72 million acres burned--that's one of the estimates
  <bullet> Hundreds were evacuated from their homes--some evacuated, 
        returned to their homes and evacuated again.
  <bullet> On the positive side, no loss of life and little loss of 
        private property.

    Yet it bears noting that the 2004 fire season did not end because 
firefighters extinguished the fires--it ended because winter 
extinguished the fires.
    The 2004 fires caused Alaskans to fully appreciate the impact that 
smoke can have on the quality of life. 40 days of extreme smoke 
conditions in Fairbanks. 40 days of toll on economic and recreational 
opportunities. 40 days of hard breathing for the residents of Interior 
Alaska.
    Worse yet, the smoke migrated. The people who live in South Central 
Alaska will not soon forget the week of August 16th. Smoke poured into 
the Anchorage Bowl and the Mat-Su Valley without warning. Smoke so 
thick you could cut it with a knife. The smoke was so thick that people 
in downtown Anchorage began to fear that the fire was burning in their 
own backyards.
    It is important that we dwell on the words ``without warning.'' But 
it is also significant to ask why the management agencies could not 
tell the people of Anchorage where it was coming from.
    There were initial reports that the smoke was coming from a 
prescribed fire set by the Bureau of Land Management in the Glennallen 
area, 185 miles to the east of Anchorage. Anchorage officials expressed 
outrage that a prescribed fire would be set during the extreme fire 
season and without any warning to our State's most populous community.
    The Bureau of Land Management insists and has presented evidence to 
support that the smoke did not come from Glennallen but from Interior 
Alaska, having traveled more than 250 miles.
    Whatever the cause, the people of South Central Alaska were rudely 
awakened by the persistent smoke conditions that had been plaguing the 
people of Interior Alaska on a daily basis since late June.
    It is customary after each fire season to focus on the lessons 
learned. Ordinarily this after-action review is conducted within the 
Fire Service. However, 2004 was no ordinary year for Alaska.
    Following the 2004 season, Mayor Jim Whittaker and the Fairbanks 
North Star Borough Assembly appointed a commission of three outstanding 
citizens to conduct their own independent review of the wildfire 
response.
    In Alaska, wildfires are fought on an interagency basis with the 
State and the federal government sharing responsibility and resources. 
So many of the recommendations contained in the report are directed to 
the federal government as well as the State.
    There are 22 recommendations in the report and I will not go into 
each of them. I would ask that the Department of the Interior and the 
Forest Service respond to each of the recommendations for the record.
    I would like to highlight a few recommendations of national 
significance:

  <bullet> The wildfire commissioners were gravely concerned that fire 
        managers did not consider the effects of smoke on populated 
        areas in determining the intensity of their initial attack. 
        Their attention was focused solely on the risk that the fire 
        posed to structures, particularly inhabited structures. They 
        did not consider the public health effects of smoke. As a 
        result, Fairbanks experienced 40 days of extreme smoke 
        conditions that seriously violated air quality standards.
  <bullet> The availability of heavy fixed wing retardant tankers is 
        diminishing and is insufficient. The commissioners recommended 
        that the nation should immediately address the need for a 
        modern and technologically advanced tanker fleet and agencies 
        should insure that sufficient aircraft are available at the 
        start of the 2005 season.
  <bullet> More helicopters need to be available for fire suppression.
  <bullet> The transition between Type III, Type II and Type I Incident 
        Management Teams and back again occurred suddenly. Moreover, 
        concern was expressed that the national teams could not access 
        local expertise.
  <bullet> And, of course, there is a continued need to educate the 
        public about Firewise behavior.
  <bullet> The quality of public information and the need for early 
        implementation of joint information centers to control rumors 
        and resolve differences of interpretation between agencies was 
        also noted by the Commissioners. I should point out that even 
        though a joint information center was up and running in 
        Fairbanks on August 16, the people of Anchorage, 260 air miles 
        to the south, felt that they were ``in the dark'' where the 
        smoke was coming from. Municipal leaders were receiving 
        conflicting information from the agencies. This should not be 
        happening.

    I commend the members of the Wildland Fire Commission for a very 
thoughtful analysis and I will look forward to hearing how the fire 
management agencies will implement the recommendations.
    The federal government responded to the 2004 fire season in Alaska 
with a vast array of resources. Wildland firefighters were dispatched 
from across the country to supplement our own very able Alaska crews.
    We were blessed to benefit from the expertise of experienced 
Incident Commanders and their interagency wildland fire teams. Much of 
the Nation's top fire talent was in Alaska last summer.
    I was privileged to watch these dedicated people in action on July 
5th when I visited the Type I team managing the Boundary Fire, north of 
Fairbanks.
    My State Forester, Jeff Jahnke, has asked me to express two words 
to the dedicated fire managers, wildland firefighters and fire aviators 
who came to Alaska last summer. Those two words are ``Thank you.'' You 
are our heroes and we thank you.
    And let me add my personal thanks to Interior Secretary Gale Norton 
and to Mark Rey, the Undersecretary of Agriculture, who were always 
there when I needed them.
    Thank you, Mr. Chairman for convening this hearing. You have 
assembled a distinguished panel and I look forward to their testimony.

    Senator Craig. Thank you very much, Senator.
    Senator Burns.

         STATEMENT OF HON. CONRAD BURNS, U.S. SENATOR 
                          FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. I will be brief. I 
give up. I just give up. Up in Montana, we got a snow pack. It 
is about 60, 65 percent of normal. We are getting rain now, and 
maybe that will not be so darn wet up there. Who knows. We got 
lucky last year, and I would hope that we could probably be 
fortunate enough, because I have given up.
    I believe in prevention, and we are not getting it done. We 
are not cutting it. I lost another mill, got logs laying on the 
ground, cannot get to them, and I just give up.
    So I have this to put on the record, and I will hear what 
they have got to say, but it has got to be pretty darn good. 
Thank you very much.
    [The prepared statement of Senator Burns follows:]
 Prepared Statement of Hon. Conrad R. Burns, U.S. Senator From Montana
    In 2004, nearly 7 million acres of forest and rangeland were burned 
including 6 million acres in Alaska, which experienced its largest 
wildfire season on record.
    Wildfire suppression costs were $900 million which I understand 
includes the additional $60 million of replacing the large airtanker 
fleet with helicopters and single engine airtankers.
    In Montana, we've been fortunate to have some spring moisture, but 
with the snow pack at 60 percent of average in Montana, Idaho, Oregon, 
and Washington, combined with the continuing drought, we could 
experience another severe fire season in these states. The good news is 
we do have a decent snow pack for the southwest, California, Colorado, 
and Utah.
    In 2004 an independent panel of federal, state, and county experts 
completed a fire-suppression cost-management report. Another cost 
management report issued by the National Academy of Public 
Administration stated the Forest Service and the Department of the 
Interior could substantially reduce wildfire suppression costs by 
changing its purchasing activities.
    I would be interested in the Department of Agriculture and the 
Department of the Interior progress in implementing the reports' 
recommendations. I would specifically like to hear the progress made to 
ensure initial responses are guided by the closest appropriate forces, 
especially those of local and Tribal governments.
    I have some concerns with the National Fire Plan funding. The 
continued funding for wildland fire preparedness and hazardous fuel 
reduction is important and I strongly support increasing the funding 
for both of them.
    What I am concerned about is the reduced funding for community 
assistance and restoration. I find it difficult to accept that the FY 
2006 Budget proposes an $88 million reduction in State and Private 
Forestry, which includes $32 million in cooperative fire assistance, 
$32 million in forest health management, and $23 million in cooperative 
forestry, and the elimination of the economic action program. Other 
reductions include State Fire Assistance $23 million and cooperative 
land management $31 million.
    This strikes me as a poor way to meet the recommendations of both 
the Wildlands Fire Leadership Council and the National Fire Plan which 
emphasize the federal agency need to work closely with Tribal, State, 
and local governments on fire suppression.
    I am also concerned with the reduction in restoration funding. This 
funding is critical to controlling erosion and reducing fish and 
wildlife habitat losses. This includes noxious weed treatment. If we 
don't keep up with the weed treatments, we will continue to lose more 
and more habitat to non-native vegetation which in turn affects the 
watershed and wildlife.
    In 2004, the Forest Service limited its use of large fixed wing 
airtankers due to concerns raised by the FAA and NTSB. The agency did 
clear 7 P-3's for use in 2004 and is completing a review of aircraft 
service life for P-2V aircraft owned by Neptune Aviation and Minden 
Aircraft. I realize a P-3 aircraft crashed during a training flight 
last Wednesday, April 20th. I believe we should withhold judgment on 
whether large airtankers are safe until we see the P-3 investigation 
report and the aircraft service life contracts are completed.
    I would like to hear from our witnesses what the 2005 fire season 
plans are for retardant aircraft, and the long-term strategy for 
replacing the existing large airtanker fleet.
    Finally, I consider the Healthy Forests Restoration Act an 
important part of reducing the catastrophic wildfire risk. The act 
authorized increased funding to the Forest Service and Bureau of Land 
Management to reduce hazardous fuels and I hope you can take a few 
minutes to discuss the successes of how the act is reducing hazardous 
fuels.
    I want to welcome our witnesses, Mark Rey, the Department of 
Agriculture's Undersecretary for Natural Resources and the Environment, 
Lynn Scarlet, Assistant Secretary for Policy, Management, and Budget, 
Robin Nazarro, GAO's Director for Natural Resources and Environment, 
and Jim Caswell, Co-chair of the Strategic Issues Panel on Fire 
Suppression Costs. I appreciate hearing from all of you and look 
forward to your testimony.

    Senator Craig. Senator, thank you. I think you can all 
judge by the opening comments, there is a growing high level of 
frustration here in the Congress about a variety of issues, in 
part centered around the core issue of today's hearing.
    With that, Lynn, would you please begin. Assistant 
Secretary, Policy Management and Budget, Department of the 
Interior, Lynn Scarlett.
    Ms. Scarlett. Senator Craig, if I might, I would like to 
ask Mark Rey to begin. We have a joint statement, and we have 
divided up the duties with his going first, if that is all 
right with you. Will that work okay?
    Senator Craig. We would certainly allow the Under Secretary 
for Natural Resources and the Environment of the Department of 
Agriculture to proceed. I was kind of looking at the total 
landscapes involved here, trying to determine who was on first 
and who was on second. You have done that by process.
    Ms. Scarlett. Thank you very much. I apologize.
    Senator Craig. Mark, please proceed.
    Mr. Rey. We cooperated to write a joint statement as an 
indication that we can cooperate to fight fires effectively as 
well.
    Senator Craig. All right.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY LYNN 
 SCARLETT, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND BUDGET, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Rey. Thank you for the opportunity to meet with the 
subcommittee today. The three themes that characterize our 
efforts for wildland fire management and hazardous fuels 
reduction are better management to assure efficient use of 
resources, the application of science to inform our decisions, 
and collaboration with other levels of government and non-
government entities to leverage resources and ensure 
coordinated action.
    I want to start at the outset by assuring you that the 
Forest Service and the Department of the Interior continue to 
have available the resources, including firefighters, 
equipment, and aircraft necessary to continue to achieve a high 
rate of success in suppressing fires on initial attack. Our 
plans, as discussed below, ensure successful initial attack 
capability, with public and firefighter health and safety 
continuing to be our highest priority.
    Now with respect to the 2005 fire season outlook, the 
Predictive Services office at our National Interagency Fire 
Center in Boise provides an ongoing outlook for the fire season 
by monitoring weather conditions and other factors and 
reporting changing conditions. These reports increase in 
frequency as the fire season progresses. The preliminary 
outlook for the 2005 fire season shows normal fire potential in 
the Southern and Eastern States. Significant fire activity in 
the Southwest is expected to occur mostly in the southern parts 
of Arizona and New Mexico and at lower elevations over a 
relatively narrow band of time. That is a sharp contrast to the 
previous fire seasons in the Southwest, where we had extended 
high risk areas at higher elevations and heavier fuels.
    The potential for an above-average fire activity exists in 
the Northwest and in the northern Rocky Mountain States later 
this summer. Alaska is not expected to have another severe fire 
season like that of last year.
    We expect to have firefighting resources, comparable to 
those that were available to us last year. The number of 
firefighters usually peaks in late June, as students become 
available following firefighter training. More than 18,000 
Federal firefighters will be available, including permanent and 
seasonal employees, crews from tribal and local governments, 
contract crews, and emergency and temporary hires.
    Training and qualification systems for personnel are 
standardized nationally. There will be 16 Type 1 national 
interagency incident management teams available for complex 
fires or incidents. Thirty-eight Type 2 incident management 
teams will be available for regional or national incidents.
    If local areas experience severe fire risk, we will 
increase firefighting ability by staging or deploying 
firefighters, equipment, and teams as needed.
    During 2005, the Department of Defense has indicated that 
they will make available two battalions of 500 personnel each 
to serve as firefighting crews if needed in extreme conditions 
as was the case in 2000, when our needs exceed the available 
regularly mustered firefighters.
    Additionally, if needed, additional firefighting resources 
are also available from other countries, using established 
agreements and protocols, particularly with southern hemisphere 
countries like Australia and New Zealand, where we have 
cooperative agreements to trade experienced management and 
oversight personnel, as our seasons are reverse from one 
another.
    Going to aviation, as mentioned earlier, in May 2004, the 
Forest Service and the Bureau of Land Management terminated 
contracts for the 33 heavy airtankers, due to the National 
Transportation Safety Board recommendations about the 
airworthiness of the aircraft. An ongoing effort was commenced 
at that time to assure the airworthiness of the large tankers 
in July 2004. The airworthiness of eight P-3 Orions was 
determined and these planes were returned to service. When we 
stood down the airtankers in 2004, we reconfigured the fleet of 
firefighting aircraft and increased the use of single-engine 
tankers, large helitankers, and medium helicopters.
    We also pre-positioned eight military C-130 aircraft, 
equipped with modular airborne firefighting systems, to areas 
of high fire danger, thereby reducing initial attack response 
times.
    In calendar year 2004, the results of that reconfigured 
fleet were actually quite good and in fact superior to the 
results that we achieved in 2003 with all of the heavy 
airtankers available to us.
    In 2003 we extinguished 98.3 percent of fires on initial 
attack, which is where the tankers are the most valuable. In 
2004 we extinguished 99.1 percent of the fires on initial 
attack. That meant 70 fewer fires escaped initial attack, 
thereby decreasing firefighting costs significantly.
    As the fire season in 2005 develops, we will continue to 
monitor the needs and reconfigure the fleet of firefighting 
aircraft as needed, with the goal of continuing to successfully 
suppress fires on initial attack.
    To date, our 2005 aviation plan includes six heavy 
airtankers, six large helitankers and helicopters and more than 
70 small and medium helicopters.
    Through cooperative agreements with State and interagency 
partners, there are two exclusive use CL-215 airtankers, 28 
exclusive use single-engine tankers, and approximately seven 
call-when-needed single-engine tankers. We expect that two to 
three call-when-needed CL-215s will also be available, and 
eight military C-130s will be available as well.
    During the course of the year, we will continue to assess 
the safety of the airtankers that are currently grounded, the 
P-2Vs and the Douglas three, four, sixes and sevens. We have 
assessments underway which will be completed with the P-2Vs by 
the beginning of June and with the Douglas products at some 
time later in the summer.
    If those aircraft are deemed safe to fly, we will add them 
to the fleet and decommission some of the helicopters or 
alternative aircraft, since they are more expensive to operate.
    If they are not deemed safe to fly, we will continue with 
the fleet as reconfigured in 2004, with the expectation that we 
will continue to achieve the level of success that we achieved 
in 2004, relative to previous years.
    We did suffer a crash of a P-3 Orion, one of the ones that 
we deemed to be safe to fly, this past week. The NTSB Team is 
on-site now investigating the crash along with Forest Service 
personnel. It is far too early to indicate what the cause of 
the crash was. There is no indication at this time that the 
plane suffered structural failure in flight. But that does not 
mean that it did not happen, it just means we have not found 
evidence of that initially.
    Here again, if we find no reason to ground the P-3s, we 
will continue to use them. If we have to ground the P-3s, then 
we will add on additional assets among helicopters and single-
engine, fixed-wing airtankers.
    The Forest Service and the Department of the Interior, 
together with our interagency partners, have initiated a long-
term plan for reconfiguring our aviation resources, and I will 
be happy to talk with you during the question-and-answer period 
on that.
    Last, situational awareness is the centerpiece of 
firefighter safety and for managing the unexpected on 
wildfires. Both Departments have significantly increased 
training programs, and we are continually evaluating the 
results. After the investigations of fatal fires in the last 
decade, we have implemented a number of changes. Classroom 
training, review of qualifications, on-the-job training, drills 
and after-action reports and reviews are part of the expanded 
safety program. Firefighters today must complete more 
comprehensive coursework that includes multiple training 
assignments and simulations before they are certified for 
critical fireline positions.
    I will now turn to Assistant Secretary Scarlett to continue 
the balance of our statement.
    Senator Craig. Lynn, please proceed.
    Ms. Scarlett. Thank you, Senator. Mr. Chairman, and members 
of the subcommittee, thank you for the opportunity to meet with 
you today.
    I first want to join Mark in expressing my deep sense of 
sadness and our condolences at Interior for the loss of life 
that occurred as a result of last week's tragic airtanker 
crash.
    As Mark noted, as we look ahead to the 2005 fire season, 
three themes characterize our efforts in wildland fire 
management. I am going to turn to those themes briefly and 
begin with management.
    Our first effort under our management improvements pertains 
to planning. The Forest Service has completed fire management 
plans for all of the national forests and national grasslands. 
Interior has completed plans for the vast majority of lands it 
manages and plans to complete all of them in the remainder of 
this year. These new plans will enable us to increase the use 
of wildland fire to accomplish land management objectives in 
pre-defined geographic areas. These plans will also ensure the 
appropriate response in each area.
    A second management focus is firefighter safety. Both 
Departments have significantly increased training programs. We 
have improved classroom training, review of qualifications, on-
the-job training, drills and situational awareness.
    But perhaps the centerpiece of our management efforts has 
been a focus on the high costs of fire suppression, the third 
management focus. In 2003 we began interagency large fire cost 
reviews. In 2004 the Wildland Fire Leadership Council convened 
a strategic cost panel comprising senior State, local, tribal, 
and Federal representatives and incident team members, co-
chaired by Mr. Caswell and Mr. Rowdabaugh. We very much 
appreciate their work on that effort.
    The panel examined cost containment, including methods to 
better integrate suppression activities and considerations and 
vegetation management in a broader landscape context.
    The panel issued a report in July 2004, with seven sets of 
recommendations. The Wildland Fire Leadership Council approved 
implementation of the majority of these recommendations, and we 
would be happy to discuss, in the question period, the status 
of those efforts. In 2005, for those incidents that meet 
certain size, cost and duration criteria, we will continue 
interagency large fire cost containment oversight.
    Beyond management, another key to improving fire program 
management is access to relevant scientific information. I am 
pleased to say that our LANDFIRE project is proceeding on 
schedule. It is a multi-partner ecosystem and fuel assessment 
mapping project. It is designed to map and model vegetation, 
fire and fuels characteristics for the entire United States. It 
will provide us with consistent nationwide spatial data and 
predictive models needed by land and fire managers to better 
evaluate, prioritize, plan, complete and monitor fuels 
treatment and restoration projects. Two prototypes, one in 
Montana and one in Utah, are complete. We expect national 
delivery of LANDFIRE products to occur over the next 5 years, 
with the Western United States scheduled for completion in 
2006. These data will help agencies focus their effort where 
the risk is greatest.
    Let me conclude by focusing for a moment on the importance 
of collaboration in our fire program efforts. Collaboration 
lies at the heart of the Healthy Forests Restoration Act and 
the President's Healthy Forests Initiative.
    To enhance collaboration, the National Association of State 
Foresters, National Association of Counties, Society of 
American Foresters, and the Western Governors' Association 
prepared a handbook to assist communities in identifying 
values, risks, mitigation measures and priorities for wildland 
fire projects.
    The Forest Service is utilizing its State fire assistance 
program to work with States, local and tribal governments, and 
non-governmental organizations to enhance wildland fire 
prevention, hazard mitigation and fire suppression response. 
The Forest Service provides funding to State foresters for many 
of these activities. In 2005 the Forest Service will provide 
$73 million of this funding for those purposes. State and 
Federal land management agencies and local communities are also 
using Community Wildland Fire Protection Plans to generate 
local solutions to hazardous fuels problems in the Wildland 
Urban Interface areas. Interior agencies have completed over 
7,000 fuel reduction projects associated with risk assessments 
and mitigation plans or Community Wildland Fire Protection 
Plans in Wildland Urban Interface areas. These collaborative 
efforts are helping us achieve our fuels reduction goals. The 
Forest Service and the Department of the Interior agencies 
accomplished 4.2 million acres of hazardous fuel reduction in 
2004, exceeding our targets by 13 percent. Thus far in 2005, 
about 1.6 million acres have been treated with hazardous fuels 
dollars. We are on target to meet all of our agency goals or 
exceed them. The Wildland Fire Leadership Council is working 
with the Western Governors' Association and others to develop 
monitoring protocols for fuels projects. Citizens will play a 
key role in helping us in these efforts.
    I want to end by underscoring the importance of the 
Firewise program in which homeowners can protect their homes by 
creating cleared space and building their houses and 
landscaping their yard with fire resistant materials.
    In conclusion, Mr. Chairman and members of the 
subcommittee, we are prepared for the 2005 fire season. We are 
happy to answer any questions you might have.
    [The prepared statement of Mr. Rey and Ms. Scarlett 
follows:]

 Prepared Statement of Mark Rey, Under Secretary for Natural Resources 
    and Environment, Department of Agriculture, and Lynn Scarlett, 
 Assistant Secretary, Policy, Management and Budget, Department of the 
                                Interior

                              INTRODUCTION

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to meet with you today. Since the Department of the 
Interior (DOI) and the Department of Agriculture work closely together 
in fire management, the two agencies are providing a joint statement. 
We are pleased to be here today to review the Forest Service's and the 
Department of the Interior's (DOI) preparedness for the upcoming fire 
season. Three themes characterize our efforts in wildland fire 
management and hazardous fuels reduction--better management to ensure 
efficient use of resources; application of science to inform our 
decisions; and collaboration to leverage resources and ensure 
coordinated action.
    The Forest Service and DOI continue to have available the 
resources, including firefighters, equipment, and aircraft, necessary 
to achieve a high rate of success in suppressing fires on initial 
attack. Our plans, as discussed below, ensure successful initial attack 
capability, with public and firefighter health and safety continuing to 
be our highest priority.
    Though many areas across the United States have fire-adapted 
ecosystems, decades of vegetation build-up have resulted in overly 
dense tree stands and hazardous levels of underbrush. As a result, we 
face the challenging tasks of reducing fuels, restoring the health of 
our forests and rangelands, and reducing the vulnerability of our 
communities. These challenges are national and long term in scope. 
Meeting these challenges requires unprecedented levels of interagency 
cooperation among federal agencies and with state, tribal and local 
governments. To strengthen this cooperation, we continue to work 
through the Wildland Fire Leadership Council as a policy and 
implementation forum.
    Of the three factors that most influence wildland fire behavior--
weather, topography, and fuel--land managers can effectively influence 
only fuel. For much of the twentieth century, wildland fires were 
generally thought to be bad for the environment. As a consequence, 
fires were suppressed as soon as possible. Over time and across large 
areas, fire-adapted ecosystems changed as the amount and structure of 
shrubs and trees increased. The build up of vegetation, coupled with 
other factors such as long-term drought and the development of homes 
and communities next to public lands, has led to increasing concerns 
about the both the health of our forests and rangelands and the risks 
to communities near these lands. Both the President's Healthy Forests 
Initiative and the bipartisan Healthy Forests Restoration Act recognize 
and help us address these challenges.

                  2005 SEASONAL WILDLAND FIRE OUTLOOK

    The Predictive Services office at the National Interagency Fire 
Center (NIFC) provides an ongoing outlook for the fire season by 
monitoring weather conditions and other factors and reporting changing 
conditions. The reports increase in frequency as the fire season 
progresses. The preliminary outlook for the 2005 fire season shows 
normal fire potential in the southern and eastern states. Significant 
fire activity in the southwest is expected to occur mostly in the 
southern parts of Arizona and New Mexico at lower elevations. The 
potential for above-average fire activity exists in the northwest and 
northern Rocky Mountain States later this summer. Alaska is not 
expected to have another severe fire season like that of last year. 
Currently, the main threat for high fire potential is in the western 
Kenai Peninsula due to large areas of bug-killed spruce.

                              PREPAREDNESS

    Predictive Services units located in each geographic area and at 
the national level provide integrated analysis and assessment of 
weather, climate and fuel conditions. This information supports local, 
geographic and national decisions about resource allocation based on 
anticipated fire starts, fire spread and severity. Local units identify 
required personnel, equipment, and supplies based on computer models 
that include local fire frequency and the resources at risk, such as 
homes or unique areas.
    The closest local responders provide the initial fire attack. The 
closest available resource responds regardless of agency. Usually this 
is the agency with management jurisdiction and protection 
responsibility for the location of the fire, such as a national forest 
or national park. However, interagency agreements allow for response by 
the closest fire fighting entity.
    In initial fire attacks, agencies use a variety of firefighting 
resources, including firefighters, engines, or a mixture of fixed-wing 
aircraft and helicopters. In recent years, agencies have succeeded in 
controlling 98 percent of fires through initial attack. If the fire 
continues to grow and locally available resources are inadequate, fire 
managers request additional resources.
    Critical firefighting needs are coordinated through the National 
Interagency Coordination Center, located at the National Interagency 
Fire Center (NIFC) in Boise, Idaho. If fire-fighting resources are 
strained as a result of multiple simultaneous fires, resources are 
prioritized and allocated by the National Multi-Agency Coordinating 
group at NIFC. The National Multi-Agency Coordinating group consists of 
the national fire directors of all the Federal firefighting agencies 
and state representatives. These efforts ensure assets are 
appropriately positioned based on the most up to date information.
    Firefighting resources include:

  <bullet> Fulltime professional fire program leaders;
  <bullet> Firefighters hired based on geographic area fire seasons;
  <bullet> Federal agency personnel qualified and mobilized to perform 
        incident management duties in addition to their normal 
        responsibilities, often called the ``militia'';
  <bullet> State and local personnel (including volunteer fire 
        departments) through mutual aid agreements;
  <bullet> Agency-owned equipment;
  <bullet> Contract equipment, aircraft, and crews; and
  <bullet> Firefighting personnel from other countries.

    We expect to have firefighting resources comparable to those 
available last year. The number of firefighters usually peaks in late 
June as students become available following firefighter training.
    More than 18,000 firefighters will be available, including 
permanent and seasonal Federal and State employees, crews from Tribal 
and local governments, contract crews, and emergency/temporary hires. 
Training and qualification systems for personnel are standardized 
nationally. There are 16 Type 1 (500 individuals or greater) national 
interagency incident management teams available for complex fires or 
incidents. Thirty-eight Type 2 (200 individuals or less) incident 
management teams are available for regional or national incidents. If 
local areas experience severe fire risk, we will increase firefighting 
ability by staging or deploying firefighters, equipment, and teams as 
needed.
    In 2005, the Department of Defense will make available two 
battalions (500 personnel each) to serve as firefighting crews if 
needed in extreme conditions (where requests exceed the available 
firefighters). If needed, additional firefighting resources are also 
available through other countries using established agreements and 
protocols.
    Personnel, equipment, aircraft, vehicles, and supplies are 
dispatched and tracked through a nationally integrated system. 
Supplemental personnel, equipment, and aircraft will be pre-positioned 
in specific locations when increased threats for fire starts are 
determined.

                             FIRE AVIATION

    In May 2004, the Forest Service and Bureau of Land Management 
terminated the contracts for 33 heavy airtankers due to the National 
Transportation Safety Board recommendations about the airworthiness of 
the aircraft. In July 2004, airworthiness of eight P-3s was determined 
and these planes were returned to service. Tragically, one of these 
aircraft, a P-3 Orion, crashed on April 20 during a training flight, 
killing three crew members. The incident is under investigation by the 
National Transportation Safety Board. While this aircraft was not 
operating at that time under contract to the government, we are deeply 
saddened by this loss and wish to underscore the imperative of 
maintaining safety for all firefighting activities.
    Heavy airtankers are one of the many tools that we use to suppress 
wildland fires. The primary role of heavy airtankers is to deliver a 
large amount of retardant rapidly, in the initial attack of a wildfire. 
We have increased our fleet of other firefighting aircraft to assist 
ground firefighters, particularly during extended attack. We also note 
that during any year, thousands of wildland fires are suppressed 
without the benefit of air support.
    In 2004, we reconfigured the fleet of firefighting aircraft. We 
increased the use of Single Engine Airtankers (SEATs), large 
helitankers, and medium helicopters, and we pre-positioned the military 
C-130 aircraft equipped with Modular Airborne Firefighting Systems 
(MAFFS) to areas of high fire danger, thereby reducing initial attack 
response times. As fire season 2005 develops, we will continue to 
monitor needs and reconfigure the fleet of firefighting aircraft as 
needed with the goal of successfully suppressing fires upon initial 
attack.
    To date, our 2005 aviation plan includes 6 heavy airtankers, 6 
large helitankers and helicopters, and more than 70 small and medium 
helicopters. Through cooperative agreements with State and interagency 
partners, there are 2 exclusive use CL-215 airtankers, 28 Exclusive Use 
SEATS, and approximately 70 Call-When-Needed SEATS. We expect that two 
to three Call-When-Needed CL-215s will be available. Eight military C-
130 aircraft equipped with the Modular Airborne Firefighting System 
(MAFFS) are also available.
    The heavy airtankers will continue to be downloaded by 15% by 
weight of retardant as an extra precaution. All of the airtankers have 
been configured with traffic collision avoidance systems. In addition, 
three heavy airtankers will be returned to limited service to collect 
operational loads data to be used in determining the mechanical 
stresses of aerial firefighting. Operational loads monitoring equipment 
will be installed in all activated airtankers as additional safety and 
data gathering tools.
    The Forest Service and DOI, together with interagency partners, 
have initiated a long-term plan for aviation resources.

                        MANAGEMENT IMPROVEMENTS

    Recognizing that the fire program is both complex and uses 
significant resources, the agencies and Wildland Fire Leadership 
Council have taken and continue to take steps to implement 
recommendations of the Administration's Program Assessment Rating Tool 
(PART) evaluation to improve the effectiveness and efficiency with 
which we use resources.

Fire Management Plans
    Consistent with the 2001 National Fire Policy, Fire Management 
Plans have been completed for all of the National Forests and National 
Grasslands and the vast majority of lands managed by DOI, with the 
exception of BLM-managed lands in Alaska which will be completed by the 
end of September 2005. These new plans will enable us to increase 
substantially the use of wildland fire to accomplish land management 
objectives in pre-defined geographic areas.
    Post-fire activities are determined by an assessment of damage 
caused by the fire and suppression activities as soon as safely 
possible. Plans are created and implemented for immediate repair of 
damage caused by firefighting activities. Erosion control and 
replanting activities are also conducted based on the assessment of the 
risk for erosion and invasive species.

Fire Safety
    Situational awareness is the centerpiece of firefighter safety and 
for managing the unexpected on wildfires. Both Departments have 
significantly increased training programs, and we are continually 
evaluating the results. After the investigations of fatal fires in the 
last decade, we have implemented a number of changes. Classroom 
training, review of qualifications, on-the-job training, drills, 
discussions, and after-action reports and reviews are part of the 
expanded safety program. Firefighters today must complete more 
comprehensive coursework that includes multiple training assignments 
and simulations before they are certified for critical fireline 
positions.
    Type 3 Incident Commanders (ICs) manage fires that have escaped 
initial attack using multiple resources. In reviewing the similarities 
among the incidents that led to fatalities over the last ten years, the 
Forest Service realized Type 3 ICs required a higher level of 
competency to oversee and manage more complex transitional fire 
operations. The Forest Service now requires Type 3 ICs to undergo real-
time simulations to test their decision making skills under changing 
wildfire conditions. In 2004, every Forest Service Type 3 IC was 
required to be tested for proficiency in leadership and decision making 
skills. Every new Forest Service Type 3 IC must pass this proficiency 
test. In areas where Interior personnel work in close proximity to the 
Forest Service, many Interior Type 3 ICs took advantage of the Forest 
Service training and testing as well.
    In fall 2004, the USDA Office of Inspector General (OIG) completed 
a review of the Forest Service Firefighting Safety Program. The report 
noted the Forest Service has made significant improvements in the 
safety of firefighting operations and had excellent written 
firefighting safety policies and procedures. The report identified four 
areas in which the agency can strengthen efforts to promote firefighter 
safety. The four areas that the OIG identified were: (1) monitoring the 
agency's response to fire safety recommendations, (2) maintaining 
centralized records to support firefighting qualifications, (3) 
conducting administrative investigations on serious fire accidents, and 
(4) incorporating firefighting safety standards as critical elements in 
firefighter performance evaluations.
    Reviews such as the OIG report help us in our evaluations of 
firefighter safety. In cooperation with the Occupational Safety and 
Health Administration and other interagency partners through the 
National Wildfire Coordinating Group, we agree on areas of safety that 
need focus. For example, we improved our fire complexity analysis; 
enhanced training of agency administrators involved in fire 
suppression; emphasized fatigue awareness; and improved work/rest 
guidelines. We also clarified driving guidelines for both our employees 
and our contractors. We recently began the use of the Incident 
Qualifications Certification System which enhances our ability to track 
the formal training and on-the-job training of each federal firefighter 
and fire manager. With this system, fire managers and supervisors can 
better measure previous training and experience to help determine 
future training needs.
    In addition, both Departments are concentrating on human factors 
such as experience, leadership, and performance. One major initiatives 
is our interagency Wildland Fire Leadership Development Program. The 
program comprises three major components that affect both firefighters 
and fire managers. The first is a set of leadership values and 
principles that define good leadership and provide a framework for 
evaluating the performance of firefighters in leadership roles. The 
second component is a curriculum of formal leadership development 
courses that are designed to span the career of wildland firefighters 
from entry levels to management. The third component is an on-line 
resource (www.fireleadership.gov) that assists individual firefighters 
seeking to improve their leadership skills through self-directed 
continuing education efforts. We emphasize preparing leaders to be 
capable decision-makers in the complex and intense situations found in 
firefighting.
    On an interagency basis, the Fireline Safety Refresher Training is 
updated annually and is a required course for all fire personnel. The 
annual updates focus on key safety principles and key issues that 
surfaced in the preceding fire season. These updates are distributed 
nationwide to all agencies for use in required pre-season safety 
refresher courses.
    Also, a Safety Summit and Human Factors Workshop is being held this 
week in Missoula, Montana. This summit, which has drawn hundreds of 
fire personnel from across the Nation, is focusing on leadership and 
human factors issues and training that we, as a group, believe 
contribute significantly to improved fire line safety and operational 
performance.
    Contracted firefighting resources are additional assets for the 
agencies. We recognize our responsibilities for these resources and are 
working with the National Wildfire Coordinating Group to improve our 
interagency oversight to ensure safe, reliable performance.

Cost Containment
    Interagency large-fire cost reviews, which began in 2003, continued 
in 2004. In 2004, the Wildland Fire Leadership Council convened a 
strategic cost panel comprising senior State, local, Tribal and Federal 
representatives and incident team members. The panel examined cost 
containment, including methods to better integrate suppression 
activities and vegetation management in a broader landscape context. 
The report, ``Large Fire Suppression Costs, Strategies for Cost 
Management'', was issued in July 2004. The report contains a variety of 
recommendations, many of which have the support of the Wildland Fire 
Leadership Council. A team assigned to design implementation actions 
will be reporting to the Wildland Fire Leadership Council in May.
    Every year, the agencies prepare a Fire and Aviation Management 
Operations Action Plan. The Plan provides direction for suppression and 
includes direction for efficient coordination and cost containment.
    In 2005, for those incidents that meet certain size, cost, and 
duration criteria, we will continue interagency large fire cost-
containment oversight. In addition, the Forest Service asked the USDA 
Office of the Inspector General to conduct a large fire cost review in 
2005. This review will look at decision making and cost containment 
practices. The Forest Service is assembling the internal and external 
review recommendations made over the past two years and will prioritize 
them based on their potential to improve efficiency and reduce costs. 
The Service will develop an implementation plan and track these 
recommendations.

Program Effectiveness
    Finally, the Departments are continually working to improve program 
efficiency through a variety of means, including developing cost 
containment strategies, using data from established performance 
measures, integrating systems that implement cost reporting, 
prioritizing hazardous fuels projects, standardizing cost-sharing 
agreements, and reviewing recommendations made by an independent cost 
control review panel.

                             USE OF SCIENCE

    Land managers are increasingly challenged by the need to justify 
decisions and apply scientifically sound solutions to firefighting as 
well as to on-the-ground land management. This need for science-
informed decision making has always existed, but the demand is 
increasing as management agencies strive actively to address fuels 
problems and restore fire-adapted ecosystems. The need for new 
information and tools also is increasing as firefighting and treatments 
are applied in visible wildland urban interface areas and across larger 
areas of the landscape. As researchers develop information and tools to 
address these and other emerging issues, we are working to transfer 
rapidly and effectively these advances to managers so that work can be 
based on the best available information.
    For example, the LANDFIRE project is a multi-partner ecosystem and 
fuel assessment mapping project. It is designed to map and model 
vegetation, fire, and fuels characteristics for the United States. The 
objective is to provide consistent, nationwide spatial data and 
predictive models needed by land and fire managers to evaluate, 
prioritize, plan, complete, and monitor fuel treatment and restoration 
projects. Two prototypes, in Montana and Utah, are complete. We expect 
to complete this year a rapid assessment of fire regime condition class 
at the mid-scale. We expect national delivery of LANDFIRE products to 
occur over the next five years, with the western United States 
scheduled in 2006. These data will help agencies focus their effort 
where the risk is the greatest.

               COLLABORATION: WHAT OUR PARTNERS ARE DOING

    Collaboration lies at the heart of the Healthy Forests Restoration 
Act and President's Healthy Forests Initiative. A centerpiece of 
collaboration is in project selection and design. To enhance 
collaboration, the National Association of State Foresters, National 
Association of Counties (NACO), Society of American Foresters, and the 
Western Governors' Association (WGA) prepared a handbook--``Preparing a 
Community Wildfire Protection Plan''--in March 2004 to assist 
communities in identifying values, risks, mitigation measures, and 
priorities for wildland fire projects.
    State and Federal land management agencies and local communities 
can use Community Wildfire Protection Plans (CWPPs) to bring about 
comprehensive and locally-supported solutions to the hazardous fuels 
problem in the wildland urban interface (WUI). As described in the 
Healthy Forests Restoration Act, these community plans provide local 
communities the opportunity to become involved in planning for 
hazardous fuels treatment on Federal lands.
    Interior agencies have completed over 7,000 fuel reduction projects 
associated with risk assessments and mitigation plans or Community 
Wildfire Protection Plans in WUI areas. The Bureau of Land Management 
places a high priority on assisting communities to complete Community 
Wildfire Protection Plans. Each state has a different approach. Some 
undertake their plans at the county level; others--like California--use 
a Fire Safe Council approach on a smaller geographic scale. Enough 
communities in Utah now have plans such that BLM is requiring all BLM 
wildland-urban interface projects to be identified in a completed 
Community Wildfire Protection Plan.
    The Forest Service utilizes the State Fire Assistance (SFA) program 
to work with states, local and tribal governments and non-governmental 
organizations to enhance wildland fire prevention, hazard mitigation, 
and wildland fire suppression response. The Forest Service provides SFA 
funding to State Foresters to allocate for such tasks as coordinating 
wildland fire response, developing Community Wildfire Protection Plans, 
conducting hazardous fuel treatments in the wildland urban interface, 
and coordinating cross-boundary fuel treatment efforts. The Forest 
Service will provide $73,099,000 of SFA funding in 2005.
    Collaboration goes beyond priority-setting to include project 
implementation. The Wildland Fire Leadership Council is working with 
the WGA and others on developing a monitoring protocol, including ways 
to monitor the extent of collaboration and cooperation.
    Citizens can take action through the FIREWISE program, which helps 
people who live or vacation in fire-prone areas educate themselves 
about wildland fire protection. Homeowners can learn how to protect 
their homes with a survivable, cleared space and how to build their 
houses and landscape their yard with fire resistant materials. A 
consortium of wildland fire agencies sponsors the program; the 
consortium includes the Forest Service, the Department of the Interior, 
the National Fire Protection Association, and the National Association 
of State Foresters.
    We also continue working to enhance collaboration in firefighting 
with rural and volunteer firefighters. In 2004, Interior bureaus 
invested over $9 million with nearly 1,500 rural fire departments. We 
invested another $10 million with local communities doing risk 
assessments, mitigation planning, and implementation actions like fuels 
treatments. So far in 2005, Interior has issued 40 awards totaling 
$332,000 in the rural fire assistance program, while dispensing another 
$1.3 million in community assistance. We again expect to help about 
1,500 rural fire departments with equipment purchases and training 
using some $10 million in appropriated funds.
    The Forest Service assists volunteer rural fire departments with 
funding for training, equipment and organization through the Volunteer 
Fire Assistance (VFA) program. In 2004, the Forest Service provided 
$13,445,000 in VFA funding to over 2,600 volunteer fire departments to 
assist in the establishment of new fire departments, train 
firefighters, and fund the purchase, repair and maintenance of 
equipment. In 2005, another $13,917,000 in funding is available to 
support volunteer fire departments through VFA, and the Forest Service 
expects to support a similar number of fire departments.
    Some have expressed concerns about capacity for rural fire 
assistance going forward. We want to underscore that our commitment 
remains strong. Interior and the Forest Service expect to work closely 
with FEMA and its local fire assistance program to ensure that we are 
able to assist rural firefighting communities who contribute 
significantly to the wildland fire effort.

                     THE HEALTHY FORESTS INITIATIVE

    We would also like to discuss briefly our progress in implementing 
the Healthy Forests Initiative. The President's Healthy Forests 
Initiative (HFI) includes both the Healthy Forest Restoration Act 
(HFRA) and administrative reforms that give federal agencies tools to 
reduce the risk of severe wildland fires and restore forest and 
rangeland health.
    The HFRA complements administrative reforms put into place 
previously. These reforms help expedite hazardous fuel treatments and 
ecological restoration projects on federal land and are being 
successfully implemented. For example, hundreds of projects have 
proceeded using Categorical Exclusions, Guidance for Environmental 
Assessment of Healthy Forest Projects and Forest Stewardship 
Contracting.
    The Forest Service and the Department of the Interior (DOI) 
agencies accomplished 4.2 million acres of hazardous fuel reduction in 
2004. This includes 3.1 million acres treated under the hazardous fuels 
program and another 1.1 million acres from other DOI and USDA 
vegetative management activities that also result in fuels reduction. 
Overall, we exceeded our acreage targets by 13%. Thus far in FY 2005, 
about 1.6 million acres have been treated with hazardous fuels dollars. 
About 1.0 million of those acres located in the Wildland-Urban 
Interface (WUI).
    At the Interior Department, WUI acres now account for over 60 
percent of dollars spent and, we expect, nearly half of all acres in 
2006. This contrasts to 20 percent of fuels reduction efforts in 2001. 
In total, DOI and Forest Service will have completed nearly 9 million 
acres of fuels treatments in WUI areas between 2001 and 2006.
    A more complete list of our accomplishments in 2005 can be found in 
the Healthy Forests Report located on the internet at 
www.HealthyForests.gov. The FY 2006 President's Budget proposes more 
than $867 million to continue our efforts.
    The FY 2006 President's Budget proposes more than $867 million to 
continue our efforts.

                                SUMMARY

    In conclusion, Mr. Chairman and members of the Subcommittee, we are 
prepared for the 2005 fire season. We are happy to answer any questions 
you might have.

    Senator Craig. Lynn, thank you very much. I was sitting 
here thinking as you were talking about the fire mitigation. 
You do one million in a year and Mother Nature does six or 
eight million a year. She is ahead of you by a substantial 
factor.
    Let us now turn to Robin Nazzaro, Director, Natural 
Resources and Environment, Government Accountability Office. 
Robin, you have two reports you wish to report on, so we will 
give you a little more time to do so. Please proceed.

STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to discuss two 
recent GAO reports that address wildland fire issues.
    The first report, issued in January of this year, discusses 
the progress the Federal Government has made over the past 5 
years and key challenges it faces in developing and 
implementing a long-term response to wildland fire problems.
    The second report, being released today, discusses ways to 
help protect homes and improve communications during such 
fires.
    As has been noted, wildland fires are increasingly 
threatening communities and ecosystems. When a large, high 
intensity fire burns near inhabited areas, it can threaten 
hundreds of homes at the same time and overwhelm firefighting 
resources. Also, communications among Federal, State and local 
firefighters during wildland fires can be hampered by 
incompatible equipment.
    First, let me summarize the findings of the January 2005 
report. In the past 5 years, the Forest Service and the land 
management agencies in the Department of the Interior, working 
with the Congress, have made important progress in putting into 
place the basic components for a framework for managing and 
responding to the Nation's wildland fire problems.
    Specifically, we noted that they have established a 
priority to protect communities near wildlands. They have 
increased the amount of effort and funds available for 
addressing wildland fire problems, improved data and research 
on wildland fire, local fire management plans, interagency 
coordination, and collaboration with non-Federal partners, and 
refined performance measures and results monitoring for 
wildland fire management.
    While this progress has been important, many challenges 
remain for addressing wildland fire problems in a timely and 
effective manner. Most notably, GAO believes that the land 
management agencies need to complete a cohesive strategy that 
identifies the long-term options and related funding needed for 
reducing fuels and responding to wildland fires. As the 
Government Accountability Office noted in 1999, the agencies 
and the Congress need such a strategy to make decisions about 
an effective and affordable long-term approach for addressing 
problems that have been decades in the making and will take 
decades more to resolve. Completing and implementing such a 
strategy will require that the agencies complete several 
challenging tasks, including finishing their data systems 
needed to identify the extent, severity and location of 
wildland fire threats to the Nation's communities and 
ecosystems; updating local fire management plans to better 
specify actions needed to effectively address these threats; 
and assessing the cost-effectiveness and affordability of 
options for reducing fuels.
    In our January report, we recommended that the Secretaries 
of Agriculture and the Interior provide the Congress, in time 
for its consideration of the agencies' fiscal year 2006 
wildland fire management budgets, with a joint tactical plan 
outlining the critical steps the agencies will take, together 
with related timeframes, to complete a cohesive strategy that 
identifies long-term options and needed funding for reducing 
and maintaining fuels at acceptable levels and responding to 
the Nation's wildland fire problems. The Departments of 
Agriculture and the Interior have said that they will produce 
such a joint tactical plan by August of this year.
    Next, I will summarize the findings of our report being 
released today that discusses measures to help protect homes 
and the role that technology plays in improving firefighting 
agencies' abilities to communicate during wildland fires. Our 
findings are based on the views of a panel of experts that we 
convened with the help of the National Academies of Science and 
in discussions with Federal, State and local fire officials.
    In summary, we found that the two most effective measures 
for protecting structures from wildland fires are: One, 
creating and maintaining a buffer around a structure by 
eliminating or reducing trees, shrubs and other flammable 
objects within an area from 30 to 100 feet around the 
structure, and, two, using fire resistant roofs and vents. 
Experts we spoke with said that if these measures were 
correctly and consistently used by homeowners, the risk posed 
by wildland fires would be significantly reduced. Other 
technologies can help to protect structures, but to a lesser 
degree. These include fire resistant windows and building 
materials, sprinkler systems, and chemical agents in the form 
of gels and foams that coat structures with a temporary 
protective layer. Although protective measures are effective 
and available, many homeowners do not use them because of the 
time or expense involved, competing values or concerns, 
misperceptions about wildland fires, and lack of awareness of 
homeowners shared responsibility for home protection.
    Federal, State, and local government agencies and non-
governmental organizations are attempting to increase the use 
of protective measures through education, financial or direct 
assistance, and adoption and enforcement of laws requiring 
defensible space around structures and the use of fire 
resistant building materials.
    Regarding the role that technology plays in improving 
firefighting agencies' ability to communicate during wildland 
fires, we found that a variety of technologies exist and others 
are being developed. But technology alone will not solve this 
problem. In the short term, patchwork interoperability 
technologies, such as audio switches, can be used to link 
communications using different radio frequencies or equipment. 
In the long term, technologies are available or under 
development to upgrade communication systems to provide 
increased interoperability. Effective adoption of any of these 
technologies, however, requires planning and coordination among 
Federal, State and local agencies. The Department of Homeland 
Security, as well as several State and local jurisdictions, are 
pursuing initiatives to improve communications.
    Catastrophic damages from wildland fires will probably 
continue to increase until an adequate long-term Federal 
response, coordinated with other levels of government, is 
implemented, and individuals living in at-risk areas take 
preventive measures to protect their homes from wildland fires.
    Effective communication among the many agencies that assist 
in the management or suppression of wildland fires is also 
essential to fighting these fires successfully and ensuring 
both firefighter and public safety.
    Mr. Chairman, this concludes my statement. I would be happy 
to respond to any questions you or members of the subcommittee 
may have.
    [The prepared statement of Ms. Nazzaro follows:]

Prepared Statement of Robin M. Nazzaro, Director, Natural Resources and 
             Environment, Government Accountability Office

                         WHY GAO DID THIS STUDY

    Wildland fires are increasingly threatening communities and 
ecosystems. In recent years, they have become more intense due to 
excess vegetation that has accumulated, partly as a result of past 
suppression efforts. The cost to suppress these fires is increasing 
and, as more people move into fire-prone areas near wildlands, the 
number of homes at risk is growing. During these wildland fires, 
effective communications among the public safety agencies responding 
from various areas is critical, but can be hampered by incompatible 
radio equipment.
    This testimony discusses (1) progress made and future challenges to 
managing wildland fire, (2) measures to help protect structures, and 
(3) the role of technology in improving responder communications during 
fires. It is based on two GAO reports: Wildland Fire Management: 
Important Progress Has Been Made, but Challenges Remain to Completing a 
Cohesive Strategy (GAO-05-147, Jan. 14, 2005) and Technology 
Assessment: Protecting Structures and Improving Communications during 
Wildland Fires (GAO-05-380, Apr. 26, 2005).

                          WHAT GAO RECOMMENDS

    In its report, GAO recommended that the Departments of Agriculture 
and the Interior develop a plan for completing a cohesive strategy that 
identifies options and funding needed to address wildland fire 
problems. The departments agreed.

                             WHAT GAO FOUND

    Over the last 5 years, the Forest Service in the Department of 
Agriculture and land management agencies in the Department of the 
Interior, working with the Congress, have made important progress in 
responding to wildland fires. Most notably, the agencies have adopted 
various national strategy documents addressing the need to reduce 
wildland fire risks, established a priority to protect communities in 
the wildland-urban interface, and increased efforts and amounts of 
funding committed to addressing wildland fire problems. However, 
despite producing numerous planning and strategy documents, the 
agencies have yet to develop a cohesive strategy that identifies the 
long-term options and related funding needed to reduce excess 
vegetation that fuels fires in national forests and rangelands. 
Reducing these fuels lowers risks to communities and ecosystems and 
helps contain suppression costs. As GAO noted in 1999, such a strategy 
would help the agencies and the Congress to determine the most 
effective and affordable long-term approach for addressing wildland 
fire problems. Completing this strategy will require finishing several 
efforts now under way to improve a key wildland fire data and modeling 
system, local fire management planning, and a new system designed to 
identify the most cost-effective means for allocating fire management 
budget resources, each of which has its own challenges. Without 
completing these tasks, the agencies will have difficulty determining 
the extent and location of wildland fire threats, targeting and 
coordinating their efforts and resources, and resolving wildland fire 
problems in the most timely and cost-effective manner over the long 
term.
    The two most effective measures for protecting structures from 
wildland fires are (1) creating and maintaining a buffer around a 
structure by eliminating or reducing trees, shrubs, and other flammable 
objects within an area from 30 to 100 feet around the structure and (2) 
using fire-resistant roofs and vents. Other technologies--such as fire-
resistant building materials, chemical agents, and geographic 
information system mapping tools--can help in protecting structures and 
communities, but they play a secondary role. Many homeowners, however, 
are not using the protective measures because of the time or expense 
involved, competing values or concerns, misperceptions about wildland 
fires, or lack of awareness of their shared responsibility for home 
protection. Federal, state, and local governments and others are 
attempting to address this problem through a variety of educational, 
financial assistance, and regulatory efforts.
    Technologies exist and others are being developed to address 
communications problems among emergency responders using different 
radio frequencies or equipment. However, technology alone cannot solve 
this problem. Effective adoption of these technologies requires 
planning and coordination among federal, state, and local agencies 
involved. The Department of Homeland Security, as well as several 
states and local jurisdictions, are pursuing initiatives to improve 
communications.
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss two GAO reports that 
reviewed several wildland fire issues--one issued in January 2005 that 
reviews the status of the federal government's efforts to address our 
nation's wildland fire problems and another, being released today, that 
discusses ways to help protect homes and improve communications during 
such fires. Each report is presented separately below.
    Wildland fire is a natural process that plays an important role in 
the health of many fire-adapted ecosystems, but it also can cause 
catastrophic damages to communities and ecosystems. The trend of 
increasing wildland fire threats to communities and ecosystems that we 
reported on 5 years ago has been continuing. The average acreage of 
lands burned by wildland fires annually from 2000 through 2003 was 56 
percent greater than the average amount burned annually during the 
1990s. Also, since 2000, wildland fires have burned an average of 1,100 
homes each year in the United States, according to the National Fire 
Protection Association. In 2003 alone, more than 3,600 homes were 
destroyed by wildland fires in Southern California and resulted in more 
than $2 billion in insured losses. Experts believe that catastrophic 
damages from wildland fires probably will continue to increase until an 
adequate long-term federal response, coordinated with other levels of 
government, is implemented and individuals living in at-risk areas take 
preventive measures to protect their homes from wildland fires.
 wildland fire management: forest service and interior need to specify 
 steps and a schedule for identifying long-term options and their costs
    First, let me summarize the findings of GAO's January 2005 report 
that discusses the progress the federal government has made over the 
last 5 years and key challenges it faces in developing and implementing 
a long-term response to wildland fire problems.\1\ This report is based 
primarily on over 25 reviews we conducted in recent years of federal 
wildland fire management that focused largely on the activities of the 
Forest Service in the Department of Agriculture and the land management 
agencies in the Department of the Interior, which together manage about 
95 percent of all federal lands.
---------------------------------------------------------------------------
    \1\ GAO, Wildland Fire Management: Important Progress Has Been 
Made, but Challenges Remain to Completing a Cohesive Strategy, GAO-05-
147 (Washington, D.C.: Jan. 14, 2005).
---------------------------------------------------------------------------
    In the past 5 years, the federal government has made important 
progress in putting into place the basic components of a framework for 
managing and responding to the nation's wildland fire problems, 
including:

  <bullet> establishing a priority to protect communities near 
        wildlands--called the wildland-urban interface;
  <bullet> increasing the amount of effort and funds available for 
        addressing fire-related concerns, such as fuel reduction on 
        federal lands;
  <bullet> improving data and research on wildland fire, local fire 
        management plans, interagency coordination, and collaboration 
        with nonfederal partners; and
  <bullet> refining performance measures and results monitoring for 
        wildland fire management.

    While this progress has been important, many challenges remain for 
addressing wildland fire problems in a timely and effective manner. 
Most notably, the land management agencies need to complete a cohesive 
strategy that identifies the long-term options and related funding 
needed for reducing fuels and responding to wildland fires when they 
occur. A recent Western Governors' Association report also called for 
completing such a cohesive federal strategy. The agencies and the 
Congress need such a strategy to make decisions about an effective and 
affordable long-term approach for addressing problems that have been 
decades in the making and will take decades more to resolve. However, 
completing and implementing such a strategy will require that the 
agencies complete several challenging tasks, including:

  <bullet> developing data systems needed to identify the extent, 
        severity, and location of wildland fire threats to the nation's 
        communities and ecosystems;
  <bullet> updating local fire management plans to better specify the 
        actions needed to effectively address these threats; and
  <bullet> assessing the cost-effectiveness and affordability of 
        options for reducing fuels.

    In our January 2005 report, we recommended that the Secretaries of 
Agriculture and the Interior provide the Congress, in time for its 
consideration of the agencies' fiscal year 2006 wildland fire 
management budgets, with a joint tactical plan outlining the critical 
steps the agencies will take, together with related time frames, to 
complete a cohesive strategy that identifies long-term options and 
needed funding for reducing and maintaining fuels at acceptable levels 
and responding to the nation's wildland fire problems. The Departments 
of Agriculture and the Interior have said that they will produce such a 
joint tactical plan by August 2005.

                               BACKGROUND

    Wildland fire triggered by lightning is a normal, inevitable, and 
necessary ecological process that nature uses to periodically remove 
excess undergrowth, small trees, and vegetation to renew ecosystem 
productivity. However, various human land use and management practices, 
including several decades of fire suppression activities, have reduced 
the normal frequency of wildland fires in many forest and rangeland 
ecosystems and have resulted in abnormally dense and continuous 
accumulations of vegetation that can fuel uncharacteristically large 
and intense wildland fires. Such large intense fires increasingly 
threaten catastrophic ecosystem damage and also increasingly threaten 
human lives, health, property, and infrastructure in the wildland-urban 
interface. Federal researchers estimate that vegetative conditions that 
can fuel such fires exist on approximately 190 million acres--or more 
than 40 percent--of federal lands in the contiguous United States but 
could vary from 90 million to 200 million acres, and that these 
conditions also exist on many nonfederal lands.
    Our reviews over the last 5 years identified several weaknesses in 
the federal government's management response to wildland fire issues. 
These weaknesses included the lack of a national strategy that 
addressed the likely high costs of needed fuel reduction efforts and 
the need to prioritize these efforts. Our reviews also found 
shortcomings in federal implementation at the local level, where over 
half of all federal land management units' fire management plans did 
not meet agency requirements designed to restore fire's natural role in 
ecosystems consistent with human health and safety. These plans are 
intended to identify needed local fuel reduction, preparedness, 
suppression, and rehabilitation actions. The agencies also lacked basic 
data, such as the amount and location of lands needing fuel reduction, 
and research on the effectiveness of different fuel reduction methods 
on which to base their fire management plans and specific project 
decisions. Furthermore, coordination among federal agencies and 
collaboration between these agencies and nonfederal entities were 
ineffective. This kind of cooperation is needed because wildland fire 
is a shared problem that transcends land ownership and administrative 
boundaries. Finally, we found that better accountability for federal 
expenditures and performance in wildland fire management was needed. 
Agencies were unable to assess the extent to which they were reducing 
wildland fire risks or to establish meaningful fuel reduction 
performance measures, as well as to determine the cost-effectiveness of 
these efforts, because they lacked both monitoring data and sufficient 
data on the location of lands at high risk of catastrophic fires to 
know the effects of their actions. As a result, their performance 
measures created incentives to reduce fuels on all acres, as opposed to 
focusing on high-risk acres.
    Because of these weaknesses, and because experts said that wildland 
fire problems could take decades to resolve, we said that a cohesive, 
long-term, federal wildland fire management strategy was needed.\2\ We 
said that this cohesive strategy needed to focus on identifying options 
for reducing fuels over the long term in order to decrease future 
wildland fire risks and related costs. We also said that the strategy 
should identify the costs associated with those different fuel 
reduction options over time, so that the Congress could make cost-
effective, strategic funding decisions.
---------------------------------------------------------------------------
    \2\ GAO, Western National Forests: A Cohesive Strategy Is Needed to 
Address Catastrophic Wildfire Threats. GAO/RCED-99-65. Washington, 
D.C.: Apr. 2, 1999.
---------------------------------------------------------------------------
 IMPORTANT PROGRESS HAS BEEN MADE IN ADDRESSING FEDERAL WILDLAND FIRE 
               MANAGEMENT PROBLEMS OVER THE LAST 5 YEARS

    The federal government has made important progress over the last 5 
years in improving its management of wildland fire. Nationally it has 
established strategic priorities and increased resources for 
implementing these priorities. Locally, it has enhanced data and 
research, planning, coordination, and collaboration with other parties. 
With regard to accountability, it has improved performance measures and 
established a monitoring framework.

Progress in National Strategy: Priorities Have Been Clarified and 
        Funding Has Been Increased for Identified Needs
    Over the last 5 years, the federal government has been formulating 
a national strategy known as the National Fire Plan, composed of 
several strategic documents that set forth a priority to reduce 
wildland fire risks to communities. Similarly, the recently enacted 
Healthy Forests Restoration Act of 2003 directs that at least 50 
percent of funding for fuel reduction projects authorized under the act 
be allocated to wildland-urban interface areas. While we have raised 
concerns about the way the agencies have defined these areas and the 
specificity of their prioritization guidance, we believe that the act's 
clarification of the community protection priority provides a good 
starting point for identifying and prioritizing funding needs. 
Similarly, in contrast to fiscal year 1999, when we reported that the 
Forest Service had not requested increased funding to meet the growing 
fuel reduction needs it had identified, fuel reduction funding for both 
the Forest Service and Interior quadrupled by fiscal year 2004. The 
Congress, in the Healthy Forests Restoration Act, also authorized $760 
million per year to be appropriated for hazardous fuels reduction 
activities, including projects for reducing fuels on up to 20 million 
acres of land. Moreover, appropriations for both agencies' overall 
wildland fire management activities, including preparedness, 
suppression, and rehabilitation, have nearly tripled, from about $1 
billion in fiscal year 1999 to over $2.7 billion in fiscal year 2004.

Progress in Local Implementation: Data and Research, Fire Management 
        Planning, and Coordination and Collaboration Have Been 
        Strengthened
    The agencies have strengthened local wildland fire management 
Implementation: Data and implementation by making significant 
improvements in federal data and research on wildland fire over the 
past 5 years, including an initial Management Planning, and mapping of 
fuel hazards nationwide. Additionally, in 2003, the agencies approved 
funding for development of a geospatial data and modeling system, 
called LANDFIRE, to map wildland fire hazards with greater precision 
and uniformity. LANDFIRE--estimated to cost $40 million and scheduled 
for nationwide implementation in 2009--will enable comparisons of 
conditions between different field locations nationwide, thus 
permitting better identification of the nature and magnitude of 
wildland fire risks confronting different community and ecosystem 
resources, such as residential and commercial structures, species 
habitat, air and water quality, and soils.
    The agencies also have improved local fire management planning by 
adopting and executing an expedited schedule to complete plans for all 
land units that had not been in compliance with agency requirements. 
The agencies also adopted a common interagency template for preparing 
plans to ensure greater consistency in their contents.
    Coordination among federal agencies and their collaboration with 
nonfederal partners, critical to effective implementation at the local 
level, also has been improved. In 2001, as a result of congressional 
direction, the agencies jointly formulated a 10-Year Comprehensive 
Strategy with the Western Governors' Association to involve the states 
as full partners in their efforts. An implementation plan adopted by 
the agencies in 2002 details goals, time lines, and responsibilities of 
the different parties for a wide range of activities, including 
collaboration at the local level to identify fuel reduction priorities 
in different areas. Also in 2002, the agencies established an 
interagency body, the Wildland Fire Leadership Council, composed of 
senior Agriculture and Interior officials and nonfederal 
representatives, to improve coordination of their activities with each 
other and nonfederal parties.

Progress in Accountability: Better Performance Measures and a Results 
        Monitoring Framework Have Been Developed
    Accountability for the results the federal government achieves from 
its investments in wildland fire management activities also has been 
strengthened. The agencies have adopted a performance measure that 
identifies the amount of acres moved from high-hazard to low-hazard 
fuel conditions, replacing a performance measure for fuel reductions 
that measured only the total acres of fuel reductions and created an 
incentive to treat less costly acres rather than the acres that 
presented the greatest hazards. Additionally, in 2004, to have a better 
baseline for measuring progress, the Wildland Fire Leadership Council 
approved a nationwide framework for monitoring the effects of wildland 
fire. While an implementation plan is still needed for this framework, 
it nonetheless represents a critical step toward enhancing wildland 
fire management accountability.

 AGENCIES FACE SEVERAL CHALLENGES TO COMPLETING A LONG-NEEDED COHESIVE 
  STRATEGY FOR REDUCING FUELS AND RESPONDING TO WILDLAND FIRE PROBLEMS

    While the federal government has made important progress over the 
past 5 years in addressing wildland fire, a number of challenges still 
must be met to complete development of a cohesive strategy that 
explicitly identifies available long-term options and funding needed to 
reduce fuels on the nation's forests and rangelands. Without such a 
strategy, the Congress will not have an informed understanding of when, 
how, and at what cost wildland fire problems can be brought under 
control. None of the strategic documents adopted by the agencies to 
date have identified these options and related funding needs, and the 
agencies have yet to delineate a plan or schedule for doing so. To 
identify these options and funding needs, the agencies will have to 
address several challenging tasks related to their data systems, fire 
management plans, and assessing the cost-effectiveness and 
affordability of different options for reducing fuels.

Completing and Implementing the LANDFIRE System Is Essential to 
        Identifying and Addressing Wildland Fire Threats
    The agencies face several challenges to completing and implementing 
LANDFIRE, so that they can more precisely identify the extent and 
location of wildland fire threats and better target fuel reduction 
efforts. These challenges include using LANDFIRE to better reconcile 
the effects of fuel reduction activities with the agencies' other 
stewardship responsibilities for protecting ecosystem resources, such 
as air, water, soils, and species habitat, which fuel reduction efforts 
can adversely affect. The agencies also need LANDFIRE to help them 
better measure and assess their performance. For example, the data 
produced by LANDFIRE will help them devise a separate performance 
measure for maintaining conditions on low-hazard lands to ensure that 
their conditions do not deteriorate to more hazardous conditions while 
funding is being focused on lands with high-hazard conditions.
    In implementing LANDFIRE, however, the agencies will have to 
overcome the challenges presented by the current lack of a consistent 
approach to assessing the risks of wildland fires to ecosystem 
resources as well as the lack of an integrated, strategic, and unified 
approach to managing and using information systems and data, including 
those such as LANDFIRE, in wildland fire decision making. Currently, 
software, data standards, equipment, and training vary among the 
agencies and field units in ways that hamper needed sharing and 
consistent application of the data. Also, LANDFIRE data and models may 
need to be revised to take into account recent research findings that 
suggest part of the increase in wildland fire in recent years has been 
caused by a shift in climate patterns. This research also suggests that 
these new climate patterns may continue for decades, resulting in 
further increases in the amount of wildland fire. Thus, the nature, 
extent, and geographical distribution of hazards initially identified 
in LANDFIRE, as well as the costs for addressing them, may have to be 
reassessed.

Fire Management Plans Will Need to Be Updated with Latest Data and Will 
        Need to Be Updated with Latest Data and Research on Wildland 
        Fires
    The agencies will need to update their local fire management plans 
when more detailed, nationally consistent LANDFIRE data become 
available. The plans also will have to be updated to incorporate recent 
agency fire Research on Wildland Fire research on approaches to more 
effectively address wildland fire threats. For example, a 2002 
interagency analysis found that protecting wildland-urban interface 
communities more effectively--as well as more costeffectively--might 
require locating a higher proportion of fuel reduction projects outside 
of the wildland-urban interface than currently envisioned, so that 
fires originating in the wildlands do not become too large to suppress 
by the time they arrive at the interface. Moreover, other agency 
research suggests that placing fuel reduction treatments in specific 
geometric patterns may, for the same cost, provide protection for up to 
three times as many community and ecosystem resources as do other 
approaches, such as placing fuel breaks around communities and 
ecosystems resources. Timely updating of fire management plans with the 
latest research findings on optimal design and location of treatments 
also will be critical to the effectiveness and cost-effectiveness of 
these plans. The Forest Service indicated that this updating could 
occur during annual reviews of fire management plans to determine 
whether any changes to them may be needed.

Ongoing Efforts to Assess the Cost-Effectiveness and Affordability of 
        Fuel Reduction Options Need to Be Completed
    Completing the LANDFIRE data and modeling system and updating fire 
management plans should enable the agencies to formulate a range of 
options for reducing fuels. However, to identify optimal and affordable 
choices among these options, the agencies will have to complete certain 
cost-effectiveness analysis efforts they currently have under way. 
These efforts include an initial 2002 interagency analysis of options 
and costs for reducing fuels, congressionally-directed improvements to 
their budget allocation systems, and a new strategic analysis framework 
that considers affordability.
    The Interagency Analysis of Options and Costs: In 2002, a team of 
Forest Service and Interior experts produced an estimate of the funds 
needed to implement eight different fuel reduction options for 
protecting communities and ecosystems across the nation over the next 
century. Their analysis also considered the impacts of fuels reduction 
activities on future costs for other principal wildland fire management 
activities, such as preparedness, suppression, and rehabilitation, if 
fuels were not reduced. The team concluded that the option that would 
result in reducing the risks to communities and ecosystems across the 
nation could require an approximate tripling of current fuel reduction 
funding to about $1.4 billion for an initial period of a few years. 
These initially higher costs would decline after fuels had been reduced 
enough to use less expensive controlled burning methods in many areas 
and more fires could be suppressed at lower cost, with total wildland 
fire management costs, as well as risks, being reduced after 15 years. 
Alternatively, the team said that not making a substantial short-term 
investment using a landscape focus could increase both costs and risks 
to communities and ecosystems in the long term. More recently, however, 
Interior has said that the costs and time required to reverse current 
increasing risks may be less when other vegetation management 
activities--such as timber harvesting and habitat improvements--are 
considered that were not included in the interagency team's original 
assessment but also can influence wildland fire.
    The cost of the 2002 interagency team's option that reduced risks 
to communities and ecosystems over the long term is consistent with a 
June 2002 National Association of State Foresters' projection of the 
funding needed to implement the 10-Year Comprehensive Strategy 
developed by the agencies and the Western Governors' Association the 
previous year. The state foresters projected a need for steady 
increases in fuel reduction funding up to a level of about $1.1 billion 
by fiscal year 2011. This is somewhat less than that of the interagency 
team's estimate, but still about 2\1/2\ times current levels.
    The interagency team of experts who prepared the 2002 analysis of 
options and associated costs said their estimates of long-term costs 
could only be considered an approximation because the data used for 
their national-level analysis were not sufficiently detailed. They said 
a more accurate estimate of the long-term federal costs and 
consequences of different options nationwide would require applying 
this national analysis framework in smaller geographic areas using more 
detailed data, such as that produced by LANDFIRE, and then aggregating 
these smaller-scale results.
    The New Budget Allocation System: Agency officials told us that a 
tool for applying this interagency analysis at a smaller geographic 
scale for aggregation nationally may be another management system under 
development--the Fire Program Analysis system. This system, being 
developed in response to congressional committee direction to improve 
budget allocation tools, is designed to identify the most cost-
effective allocations of annual preparedness funding for implementing 
agency field units' local fire management plans. Eventually, the Fire 
Program Analysis system, being initially implemented in 2005, will use 
LANDFIRE data and provide a smaller geographical scale for analyses of 
fuel reduction options and thus, like LANDFIRE, will be critical for 
updating fire management plans. Officials said that this preparedness 
budget allocation system--when integrated with an additional component 
now being considered for allocating annual fuel reduction funding--
could be instrumental in identifying the most cost-effective long-term 
levels, mixes, and scheduling of these two wildland fire management 
activities. Completely developing the Fire Program Analysis system, 
including the fuel reduction funding component, is expected to cost 
about $40 million and take until at least 2007 and perhaps until 2009.
    The New Strategic Analysis Effort: In May 2004, Agriculture and 
Interior began the initial phase of a wildland fire strategic planning 
effort that also might contribute to identifying long-term options and 
needed funding for reducing fuels and responding to the nation's 
wildland fire problems. This effort--the Quadrennial Fire and Fuels 
Review--is intended to result in an overall federal interagency 
strategic planning document for wildland fire management and risk 
reduction and to provide a blueprint for developing affordable and 
integrated fire preparedness, fuels reduction, and fire suppression 
programs. Because of this effort's consideration of affordability, it 
may provide a useful framework for developing a cohesive strategy that 
includes identifying long-term options and related funding needs. The 
preliminary planning, analysis, and internal review phases of this 
effort are currently being completed and an initial report is expected 
in 2005.
    The improvements in data, modeling, and fire behavior research that 
the agencies have under way, together with the new cost-effectiveness 
focus of the Fire Program Analysis system to support local fire 
management plans, represent important tools that the agencies can begin 
to use now to provide the Congress with initial and successively more 
accurate assessments of long-term fuel reduction options and related 
funding needs. Moreover, a more transparent process of interagency 
analysis in framing these options and their costs will permit better 
identification and resolution of differing assumptions, approaches, and 
values. This transparency provides the best assurance of accuracy and 
consensus among differing estimates, such as those of the interagency 
team and the National Association of State Foresters.

A RECENT WESTERN GOVERNORS' ASSOCIATION REPORT IS CONSISTENT WITH GAO'S 
                      FINDINGS AND RECOMMENDATION

    In November 2004, the Western Governors' Association issued a 
report prepared by its Forest Health Advisory Committee that assessed 
implementation of the 10-Year Comprehensive Strategy, which the 
association had jointly devised with the agencies in 2001.\3\ Although 
the association's report had a different scope than our review, its 
findings and recommendations are, nonetheless, generally consistent 
with ours about the progress made by the federal government and the 
challenges it faces over the next 5 years. In particular, it 
recommends, as we do, completion of a long-term federal cohesive 
strategy for reducing fuels. It also cites the need for continued 
efforts to improve, among other things, data on hazardous fuels, fire 
management plans, the Fire Program Analysis system, and cost-
effectiveness in fuel reductions--all challenges we have emphasized 
today.
---------------------------------------------------------------------------
    \3\ Report to the Western Governors on the Implementation of the 
10-Year Comprehensive Strategy, Western Governors' Association Forest 
Health Advisory Committee (Denver, Colo.: 2004).
---------------------------------------------------------------------------
                              CONCLUSIONS

    The progress made by the federal government over the last 5 years 
has provided a sound foundation for addressing the problems that 
wildland fire will increasingly present to communities, ecosystems, and 
federal budgetary resources over the next few years and decades. But, 
as yet, there is no clear single answer about how best to address these 
problems in either the short or long term. Instead, there are different 
options, each needing further development to understand the trade-offs 
among the risks and funding involved. The Congress needs to understand 
these options and trade-offs in order to make informed policy and 
appropriations decisions on this 21st century challenge.
    This is the same message we provided in 1999 when we first called 
for development of a cohesive strategy identifying options and funding 
needs. But it still has not been completed. While the agencies are now 
in a better position to do so, they must build on the progress made to 
date by completing data and modeling efforts underway, updating their 
fire management plans with the results of these data efforts and 
ongoing research, and following through on recent cost-effectiveness 
and affordability initiatives. However, time is running out. Further 
delay in completing a strategy that cohesively integrates these 
activities to identify options and related funding needs will only 
result in increased long-term risks to communities, ecosystems, and 
federal budgetary resources.
    Because there is an increasingly urgent need for a cohesive federal 
strategy that identifies long-term options and related funding needs 
for reducing fuels, we have recommended that the Secretaries of 
Agriculture and the Interior provide the Congress, in time for its 
consideration of the agencies' fiscal year 2006 wildland fire 
management budgets, with a joint tactical plan outlining the critical 
steps the agencies will take, together with related time frames, to 
complete such a cohesive strategy.
    In an April 2005 letter, Agriculture and Interior said that they 
will produce by August 2005, for the Wildland Fire Leadership Council's 
review and approval, a .joint tactical plan that will identify the 
steps and time frames for developing a cohesive strategy.
   wildland fire: protecting structures and improving communications
    Next, I would like to summarize the findings of our second report, 
being released today, that discusses ways to help protect homes and 
improve communications during wildland fires. Although wildland fire is 
a natural process that plays an important role in the health of many 
fire-adapted ecosystems, it has the potential to damage or destroy 
homes located in or near these wildlands, in the area commonly called 
the wildland-urban interface. Since 1984, wildland fires have burned an 
average of 850 homes each year in the United States, according to the 
National Fire Protection Association. However, losses since 2000 have 
risen to an average of 1,100 homes annually. In 2003, more than 3,600 
homes were destroyed by wildland fires in Southern California and 
resulted in more than $2 billion in insured losses.
    Many homes are located in the wildland-urban interface nationwide, 
and the number is growing, although the risk to these homes from 
wildland fire varies widely. In California, for example, an estimated 
4.9 million of the state's 12 million housing units are located in or 
near the wildlands, and 3.2 million of these are at significant risk 
from wildland fire.\4\ As people continue to move to areas in or near 
fire-prone wildlands, the number of homes at risk from wildland fire is 
likely to grow. When a large high-intensity wildland fire occurs near 
inhabited areas, it can threaten hundreds of homes at the same time and 
overwhelm available firefighting resources. Homeowners can play an 
important role in protecting their homes from a wildland fire, however, 
by taking preventive steps to reduce their home's ignition potential. 
These preventive measures can significantly improve a home's chance of 
surviving a wildland fire, even without intervention by firefighting 
agencies.
---------------------------------------------------------------------------
    \4\ California Department of Forestry and Fire Protection, The 
Changing California: Forest and Range 2003 Assessment (Sacramento, 
Calif.: 2003).
---------------------------------------------------------------------------
    Once a wildland fire starts, many different agencies may assist in 
the efforts to manage or suppress it, including the Forest Service 
(within the Department of Agriculture); land management agencies in the 
Department of the Interior; state forestry agencies; local fire 
departments; private contract firefighting crews; and, in some cases, 
the military. Effective communications among responders commonly called 
communications interoperability--is essential to fighting wildland 
fires successfully and ensuring both firefighter and public safety. 
Communications interoperability can be hampered because the various 
agencies responding to a fire may communicate over different radio 
frequency bands or with incompatible communications equipment.
    My testimony today summarizes key findings from our report released 
today\5\ and addresses: (1) measures that can help protect structures 
from wildland fires, (2) factors affecting the use of these protective 
measures, and (3) the role that technology plays in improving 
firefighting agencies' ability to communicate during wildland fires.\6\
---------------------------------------------------------------------------
    \5\ GAO, Technology Assessment: Protecting Structures and Improving 
Communications during Wildland Fires, GAO-05-380 (Washington, D.C.: 
Apr. 26, 2005).
    \6\ Our report also includes information on the use of military 
resources for wildland firefighting.
---------------------------------------------------------------------------
                                SUMMARY

    In summary, we found the following:

  <bullet> The two most effective measures for protecting structures 
        from wildland fires are: (1) creating and maintaining a buffer 
        around a structure--often called defensible space--by 
        eliminating or reducing trees, shrubs, and other flammable 
        objects within an area from 30 to 100 feet around the structure 
        and (2) using fire-resistant roofs and vents. Other 
        technologies, such as fire-resistant windows and building 
        materials, sprinkler systems, and chemical agents (gels and 
        foams) that coat structures with a temporary protective layer 
        can also help protect structures, but they play a secondary 
        role. In addition, technologies, such as geographic information 
        systems (GIS) are available or under development to assist in 
        fire protection at the community level.
  <bullet> Although protective measures are effective and available, 
        many homeowners do not use them for four main reasons: time or 
        expense involved, competing values or concerns, misperceptions 
        about wildland fires, and lack of awareness of homeowners' 
        shared responsibility for home protection. Federal, state, and 
        local government agencies and nongovernmental organizations are 
        taking steps to increase the use of protective measures through 
        education, financial or direct assistance, and adoption and 
        enforcement of laws requiring defensible space around 
        structures and the use of fire-resistant building materials.
  <bullet> A variety of technologies exist, and others are being 
        developed, to aid communications interoperability between 
        emergency responders, including firefighters, but technology 
        alone cannot solve this problem. In the short-term, patchwork 
        interoperability technologies, such as audio switches, can be 
        used to link communication systems using different radio 
        frequencies or equipment. In the long-term, technologies are 
        available or under development to upgrade communications 
        systems to provide increased interoperability. Effective 
        adoption of any of these technologies, however, requires 
        planning and coordination among federal, state, and local 
        agencies that work together to respond to wildland fires and 
        other emergencies.

                               BACKGROUND

    To understand how preventive steps can help protect homes from 
wildland fire requires an understanding of what wildland fire is, how 
it spreads, and how it can threaten homes. Fire requires three 
elements--oxygen, heat, and fuel--to ignite and continue burning. Once 
a fire has begun, a number of factors--including weather conditions and 
the type of nearby vegetation or other fuels--influence how fast and 
how intensely the fire spreads. Any combustible object in a fire's 
path, including homes, can fuel a wildland fire. In fact, homes can 
sometimes be more flammable than the trees, shrubs, or other vegetation 
surrounding them. If any one of the three required elements are 
removed, however, such as when firefighters remove vegetation and other 
fuels from a strip of land near a fire--called a fire break--a fire 
will normally become less intense and eventually die out.
    Wildland fire can threaten homes or other structures in the 
following ways:

  <bullet> Surface fires burn vegetation or other fuels near the 
        surface of the ground, such as shrubs, fallen leaves, small 
        branches, and roots. These fires can ignite a home by burning 
        nearby vegetation and eventually igniting flammable portions of 
        the home, including exterior walls or siding; attached 
        structures, such as a fence or deck; or other flammable 
        materials, such as firewood or patio furniture.
  <bullet> Crown fires burn the tops, or crowns, of trees. Crown fires 
        normally begin as surface fires and move up the trees by 
        burning ``ladder fuel,'' such as nearby shrubs or low tree 
        branches. Crown fires create intense heat and if close enough--
        within approximately 100 feet--can ignite portions of 
        structures even without direct contact from flames.
  <bullet> Spot fires are started by embers, or ``firebrands,'' that 
        can be carried a mile or more away from the main fire, 
        depending on wind conditions. Firebrands can ignite a structure 
        by landing on the roof or by entering a vent or other opening 
        and may accumulate on or near homes. Firebrands can start many 
        new spot fires or ignite many homes simultaneously, increasing 
        the complexity of firefighting efforts.

    Recognizing that during severe wildland fires, suppression efforts 
alone cannot protect all homes threatened by wildland fire, 
firefighting and community officials are increasing their emphasis on 
preventive approaches that help reduce the chance that wildland fires 
will ignite homes and other structures. Because the vast majority of 
structures damaged or destroyed by wildland fires are located on 
private property, the primary responsibility for taking adequate steps 
to minimize or prevent damage from a wildland fire rests with the 
property owner and with state and local governments that can establish 
building requirements and land-use restrictions.
    When a wildland fire occurs, personnel from firefighting and other 
emergency agencies responding to it primarily use land mobile radio 
systems for communications. These systems include mobile radios in 
vehicles and hand-held portable radios and operate using radio signals, 
which travel through space in the form of waves. These waves vary in 
length, and each wavelength is associated with a particular radio 
frequency.\7\ Radio frequencies are grouped into bands. Of the more 
than 450 frequency bands in the radio spectrum, 10, scattered across 
the spectrum, are allocated to public safety agencies. A firefighting 
or public safety agency typically uses a radio frequency band 
appropriate for its locale, either rural or urban. Bands at the lower 
end of the radio spectrum, such as VHF (very high frequency), work well 
in rural areas where radio signals can travel long distances without 
obstruction from buildings or other structures. Federal firefighting 
agencies, such as the Forest Service, and many state firefighting 
agencies operate radios in the VHF band. In urban areas, firefighting 
and other public safety agencies may operate radios on higher 
frequencies, such as those in the UHF (ultrahigh frequency) or 800 MHz 
bands, because these frequencies can provide better communications 
capabilities for an urban setting. When federal, state, and local 
emergency response agencies work together, for example to fight a fire 
in the wildland-urban interface, they may not be able to communicate 
with one another because they operate in different bands along the 
radio frequency spectrum.
---------------------------------------------------------------------------
    \7\ Radio frequencies are measured in Hertz (Hz); the term 
kilohertz (kHz) refers to thousands of Hertz, megahertz (MHz) to 
millions of Hertz, and gigahertz (GHz) to billions of Hertz.
---------------------------------------------------------------------------
    DEFENSIBLE SPACE AND FIRE-RESISTANT ROOFS AND VENTS ARE KEY TO 
        PROTECTING STRUCTURES; OTHER TECHNOLOGIES CAN ALSO HELP

    Managing vegetation and reducing or eliminating flammable objects--
often called defensible space--within 30 to 100 feet of a structure is 
a key protective measure. Creating such defensible space offers 
protection by breaking up continuous fuels that could otherwise allow a 
surface fire to contact and ignite a structure. Defensible space also 
offers protection against crown fires. Reducing the density of large 
trees around structures decreases the intensity of heat from a fire, 
thus preventing or reducing the chance of ignition and damage to 
structures. Analysis of homes burned during wildland fires has shown 
defensible space to be a key determinant of whether a home survives. 
For instance, the 1981 Atlas Peak Fire in California damaged or 
destroyed 91 out of 111 structures that lacked adequate defensible 
space but only 5 structures out of 111 that had it.
    The use of fire-resistant roofs and vents is also important in 
protecting structures from wildland fires. Many structures are damaged 
or destroyed by firebrands that can travel a mile or more from the main 
fire. Firebrands can land on a roof or enter a home through an opening, 
such as an attic vent and ignite a home hours after the fire has 
passed. Fire-resistant roofing materials can reduce the risk that these 
firebrands will ignite a roof, and vents can be screened with mesh to 
prevent firebrands from entering and igniting attics. Combining fire-
resistant roofs and vents with the creation of defensible space is 
particularly effective, because together these measures reduce the risk 
from surface fires, crown fires, and firebrands.
    Other technologies can also help protect individual structures from 
wildland fires.

  <bullet> Fire-resistant windows constructed of double-paned glass, 
        tempered glass, or glass block help protect a structure from 
        wildland fire by reducing the risk of the window breaking and 
        allowing fire to enter the structure.
  <bullet> Fire-resistant building materials--such as fiber-cement, 
        brick, stone, metal, and stucco--can be used for walls, siding, 
        decks, and doors to help prevent ignition and subsequent damage 
        from wildland fire.
  <bullet> Chemical agents, such as foams and gels, are temporary 
        protective measures that can be applied as an exterior coating 
        shortly before a wildland fire reaches a structure. Although 
        these agents have successfully been used to protect homes, such 
        as during the Southern California fires in 2003, they require 
        that someone be available to apply them and, possibly, reapply 
        or rewet them to ensure they remain effective. They can also be 
        difficult to clean up.
  <bullet> Sprinkler systems, which can be installed inside or outside 
        a structure, lower the risk of ignition or damage from wildland 
        fires. Sprinklers, however, require reliable sources of water 
        and, in some cases, electricity to be effective. According to 
        firefighting officials, adequate water and electricity may not 
        be available during a wildland fire.

    In addition to technologies aimed at protecting individual 
structures, technologies also exist or are being developed which can 
help reduce the risk of wildland fire damage to an entire community.

  <bullet> GIS is a computer-based information system that can be used 
        to efficiently store, analyze, and display multiple forms of 
        information on a single map.\8\ GIS technologies allow fire 
        officials and local and regional land managers to combine 
        vegetation, fuel, and topography data into separate layers of a 
        single GIS map to identify and prioritize areas needing 
        vegetation management. State and county officials we met with 
        emphasized the value of GIS in community-planning efforts to 
        protect structures and communities from wildland fire damage 
        within their jurisdictions.
---------------------------------------------------------------------------
    \8\ For additional information on how GIS can assist wildland fire 
management, see: GAO, Geospatial Information: Technologies Hold Promise 
for Wildland Fire Management, but Challenges Remain, GAO-03-1047 
(Washington, D.C.: Sept. 23, 2003).
---------------------------------------------------------------------------
  <bullet> Fire behavior modeling has been used to predict wildland 
        fire behavior, but these models do not accurately predict fire 
        behavior in the wildland-urban interface. Existing models can 
        help identify areas likely to experience intense wildland 
        fires, identify suitable locations for vegetation management, 
        predict the effect of vegetation treatments on fire behavior, 
        and aid suppression by predicting the overall behavior of a 
        given fire. These models do not, however, consider the effect 
        that structures and landscaping have on wildland fire behavior.
  <bullet> Automated detection systems use infrared, ultraviolet, or 
        temperature-sensitive sensors\9\ placed around a community, or 
        an individual home, to detect the presence of a wildland fire. 
        On detecting a fire, a sensor could set off an audible alarm or 
        could be connected via radio or satellite to a device that 
        would notify homeowners or emergency personnel. Several such 
        sensors could be networked together to provide broad coverage 
        of the area surrounding a community. According to fire 
        officials, sensor systems may prove particularly helpful in 
        protecting communities in areas of rugged terrain or poor 
        access where wildland fires might be difficult to locate. These 
        systems are still in development, however, and false alarms are 
        a concern.
---------------------------------------------------------------------------
    \9\ lnfrared and ultraviolet technologies sense the electromagnetic 
radiation from a fire outside the visible band that humans can see. 
Temperature sensitive devices, such as heat sensitive resistant wires, 
do not sense radiation but react to temperature differentials.
---------------------------------------------------------------------------
TIME, EXPENSE, AND OTHER COMPETING CONCERNS LIMIT THE USE OF PROTECTIVE 
 MEASURES FOR STRUCTURES, BUT EFFORTS TO INCREASE THEIR USE ARE UNDER 
                                  WAY

    Many homeowners have not used protective measures--such as creating 
and maintaining defensible space--for four primary reasons:

  <bullet> Time or expense. State and local fire officials estimate 
        that the price of creating defensible space can range from 
        negligible, in cases where homeowners perform the work 
        themselves, to $2,000 or more. Moreover, defensible space needs 
        to be maintained, resulting in additional effort or expense in 
        the future. Further, while fire-resistant roofing materials are 
        available that are comparable in cost to more flammable options 
        and, for a home under construction may result in no additional 
        expense, replacing a roof on an existing home can cost 
        thousands of dollars.
  <bullet> Competing concerns. Although modifying landscaping to create 
        defensible space has proven to be a key element in protecting 
        structures from wildland fire, officials and researchers have 
        reported that some homeowners are more concerned about the 
        effect landscaping has on the appearance and privacy of their 
        property, as well as on habitat for wildlife.
  <bullet> Misconceptions about wildland fire behavior. Fire officials 
        and researchers told us that some homeowners do not recognize 
        that a structure and its surroundings constitute fuel that 
        contributes to the spread of wildland fire or understand 
        exactly how a wildland fire ignites structures. Further, they 
        may not know that they can take effective steps to reduce their 
        risk.
  <bullet> Lack of awareness of homeowners' responsibility. Fire 
        officials told us that some homeowners in the wildland urban 
        interface may expect the same level of service they received in 
        more urban areas and do not understand that rural areas may 
        have less firefighting personnel and equipment and longer 
        response times. Also, when a wildland fire burns near 
        communities, so many houses may be threatened simultaneously 
        that firefighters may be unable to protect all of them.

    Federal, state, and local agencies and other organizations are 
taking steps in three main areas to help increase the use of protective 
measures.\10\ First, government agencies and other organizations are 
educating people about the effectiveness of simple steps they can take 
to reduce the risk to homes and communities. The primary national 
education effort is the Firewise Communities program,\11\ which both 
educates homeowners about available protective measures and also 
promotes additional steps that state and local officials can take to 
educate homeowners. Education efforts help demonstrate that defensible 
space can be attractive, provide privacy, and improve wildlife habitat.
---------------------------------------------------------------------------
    \10\ In addition, some insurance companies also direct homeowners 
in high-risk areas to create defensible space. Historically, the 
insurance industry has not placed a high priority on wildland fire 
issues because of relatively low losses compared with other hazards, 
such as hurricanes or earthquakes.
    \11\ Firewise Communities is jointly sponsored by the International 
Association of Fire Chiefs, National Emergency Management Association, 
National Association of State Fire Marshals, National Association of 
State Foresters, National Fire Protection Association, Federal 
Emergency Management Agency, U.S. Fire Administration, Forest Service, 
Bureau of Indian Affairs, Bureau of Land Management, Fish and Wildlife 
Service, and the National Park Service. Numerous state and local fire 
and forestry officials also participate in Firewise program activities.
---------------------------------------------------------------------------
    Second, some federal, state, and local agencies are directly 
assisting homeowners in creating defensible space by providing 
equipment or financial assistance to reduce fuels near structures. 
Under the National Fire Plan,\12\ for instance, federal firefighting 
agencies provide grants or otherwise assist in reducing fuels on 
private land. State and local governments have provided similar 
assistance.
---------------------------------------------------------------------------
    \12\ The National Fire Plan was developed by the Department of 
Agriculture and the Department of the Interior after severe wildland 
fires in 2000. In fiscal year 2001, Congress almost doubled funding for 
federal firefighting agencies to help meet the plan's objectives to (1) 
increase fire suppression preparedness; (2) rehabilitate and restore 
lands and communities damaged by wildland fire; (3) reduce hazardous 
fuels; and (4) assist communities through education, hazard mitigation, 
and training and equipment for rural and volunteer fire departments.
---------------------------------------------------------------------------
    Third, some state and local governments have adopted laws that 
require maintaining defensible space around structures or the use of 
fire-resistant building materials. For example, California requires the 
creation and maintenance of defensible space around homes and the use 
of fire-resistant roofing materials in certain at-risk areas. Officials 
of one county we visited attributed the relatively few houses damaged 
by the 2003 Southern California fires in the county, in part, to its 
adoption and enforcement of laws requiring defensible space and the use 
of fire-resistant building materials. Not all states or localities at 
risk of wildland fire, however, have required such steps. Some state 
and local officials told us that laws had not been adopted because 
homeowners and developers resisted them. Furthermore, to be effective, 
laws that have been adopted must be enforced, and this does not always 
happen.

     EFFECTIVE ADOPTION OF TECHNOLOGIES TO ACHIEVE COMMUNICATIONS 
       INTEROPERABILITY REQUIRES BETTER PLANNING AND COORDINATION

    Technologies are available or under development to help improve 
communications interoperability so that personnel from different public 
safety agencies responding to an emergency, such as a wildland fire, 
can communicate effectively with one another. Short-term, or patchwork, 
interoperability solutions use technology to interconnect two or more 
disparate radio systems so that voice or data from one system can be 
made available to all systems. The principal advantage of this solution 
is that agencies can continue to use existing communications systems, 
an important consideration when funds to buy new equipment are limited. 
Patchwork solutions include the following:

  <bullet> Audio switches that provide interoperability by connecting 
        radio and other communications systems to a device that sends 
        the audio signal from one agency's radio to all other connected 
        radio systems. Audio switches can interconnect several 
        different radio systems, regardless of the frequency bands or 
        type of equipment used.
  <bullet> Crossband repeaters that provide interoperability between 
        systems operating on different radio frequency bands by 
        changing frequencies between the two radio systems.
  <bullet> Console-to-console patches that are not ``on-the-scene'' 
        devices but instead connect consoles located at the dispatch 
        centers where calls for assistance are received. The device 
        links the dispatch consoles of two radio systems so that the 
        radios connected to each system can communicate with one 
        another.

    Other interoperability solutions involve developing and adopting 
more sophisticated radio or communications systems that follow common 
standards or can be programmed to work on any frequency and to use any 
desired modulation type, such as AM or FM. These include:

  <bullet> Project 25 radios, which must meet a set of standards for 
        digital two-way radio systems that allow for interoperability 
        between all jurisdictions using these systems. These radios are 
        beginning to be adopted by a variety of federal, state, and 
        local agencies.
  <bullet> Software-defined radios that will allow interoperability 
        among agencies using different frequency bands, proprietary 
        systems from different manufacturers, or different modulation 
        types (such as AM or FM). Software-defined radios, however, are 
        still being developed and are not yet available for use by 
        public safety agencies.
  <bullet> Voice over Internet Protocol that treats both voice and data 
        as digital information and enables their movement over any 
        existing Internet Protocol data network.\13\ No standards exist 
        for radio communications using Voice over Internet Protocol, 
        and, as a result, manufacturers have produced proprietary 
        systems that may not be interoperable.
---------------------------------------------------------------------------
    \13\ In some cases, this is the Internet; and in others, it is a 
private data network.

    Whether the solution is a short-term patchwork approach or a long-
term communications upgrade, officials we spoke with explained that 
planning and coordination among agencies are critical for successfully 
determining which technology to adopt and for agreeing on funding 
sources, timing, training, maintenance, and other key operational and 
management issues. State and local governments play an important role 
in developing and implementing plans for interoperable communications 
because they own most of the physical infrastructure for public safety 
systems, such as radios, base stations, repeaters, and other equipment. 
In the past, public safety agencies have depended on their own stand-
alone communications systems, without considering interoperability with 
other agencies. Yet as firefighting and other public safety agencies 
increasingly work together to respond to emergencies, including 
wildland fires, personnel from different agencies need to be able to 
communicate with one another. Reports by GAO,\14\ the National Task 
Force on Interoperability, and others have identified lack of planning 
and coordination as key reasons hampering communications 
interoperability among responding agencies. According to these reports, 
federal, state, and local government agencies have not worked together 
to identify their communications needs and develop a coordinated plan 
to meet them. Without such planning and coordination, new investments 
in communications equipment or infrastructure may not improve the 
effectiveness of communications among agencies.
---------------------------------------------------------------------------
    \14\ See GAO, Homeland Security: Challenges in Achieving 
Interoperable Communications for First Responders, GAO-04-231T 
(Washington, D.C.: Nov. 6, 2003).
---------------------------------------------------------------------------
    In recent years, the federal government, as well as several states 
and local jurisdictions, have focused increased attention on improving 
planning and coordination to achieve communications interoperability. 
The Wireless Public Safety Interoperable Communications Program 
(SAFECOM), within the Department of Homeland Security's Office of 
Interoperability and Compatibility,\15\ was established to address 
public safety communications issues within the federal government and 
to help state, local, and tribal public safety agencies improve their 
responses through more effective and efficient interoperable wireless 
communications. SAFECOM has undertaken a number of initiatives to 
enhance communications interoperability. For example, in a joint 
project with the commonwealth of Virginia, SAFECOM developed a 
methodology that could be used by states to assist them in developing a 
locally driven statewide strategic plan for enhancing communications 
interoperability. Several states have established statewide groups to 
address communications interoperability. For example, in Washington, 
the communications committee has developed a statewide public safety 
communication plan and an inventory of state government-operated public 
safety communications systems. Finally, some local jurisdictions are 
working together to identify and address communications 
interoperability issues.
---------------------------------------------------------------------------
    \15\ The Wireless Public Safety Interoperable Communications 
Program, otherwise known as SAFECOM, was first established as an Office 
of Management and Budget e-initiative in 2001.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or other Members of the 
Subcommittee may have at this time.

    Senator Craig. Robin, thank you very much. Now let me turn 
to Jim Caswell, co-chair of the Western Fire Leadership 
Council's blue ribbon report on large fire suppression costs.
    Jim.
    Mr. Caswell. Can I thank----
    Senator Craig. I was going to say, Jim, and also Kirk 
Rowdabaugh. Why don't you proceed, both of you, as co-chairs, 
the order for your determination. Thank you.
    Mr. Caswell. Thank you, Mr. Chairman.

  STATEMENT OF JAMES CASWELL, OFFICE OF SPECIES CONSERVATION, 
STATE OF IDAHO, ACCOMPANIED BY KIRK ROWDABAUGH, STATE FORESTER 
                           OF ARIZONA

    Mr. Caswell. Both Kirk and I thank you and Senator Wyden 
and the distinguished members of the subcommittee for the 
opportunity to appear and present testimony on the findings of 
the strategic issues panel on fire suppression costs.
    This testimony is presented on behalf of the Western 
Governors' Association, and the lead Governors for fire-
enforced health issues at the Western Governors' Association 
are Governor Napolitano of Arizona, and my Governor, and your 
former colleague, Governor Kempthorne of Idaho.
    Kirk and I will share the testimony this afternoon, and the 
full text of our testimony has been provided to the 
subcommittee for the record. So, Kirk--I will let Kirk talk a 
little bit about the beginnings of our collaboration and how we 
developed the report.
    Kirk.
    Mr. Rowdabaugh. Thank you, Chairman Craig, Senator Wyden, 
members of the subcommittee. The Western Governors' 
Association's interest in cost containment is to prevent 
escalating fire suppression costs from overwhelming the goals 
of the 10-year comprehensive strategy for reducing wildland 
fire risks to communities and the environment. The goals of 
that congressionally-requested report and the 10-year 
comprehensive strategy are to improve fire prevention and 
suppression, reduce hazardous fuels, restore fire-adapted 
ecosystems, and to promote community assistance.
    High suppression costs drain funding from other proactive 
forest health and community protection efforts. The need to 
focus on large fire costs is clear. However, wildland fire 
suppression costs do not appear to be spiraling out of control, 
but instead seem to be increasing at roughly the same rate as 
overall government spending for the last two decades. Total 
suppression expenditures are strongly correlated with total 
acres burned and are overwhelmingly centered in large fire 
costs. Since 1980, large fires--those fires that are greater 
than 300 acres in size--represent less than 2 percent of all 
wildland fires reported, yet account for a whopping 94 percent 
of the total suppression expenditures.
    The suite of indicators for future fire occurrence, that is 
the 35 million acres of unhealthy forests and hazardous fuels 
on Federal lands, the climate predictions for decades of 
continuing drought, the growth of rural communities in Western 
States and the expansion of the wildland urban interface and 
the societal expectations for those of us in emergency response 
agencies to protect our natural resources and our communities 
at risk, all of these point to more and large fires and 
expensive fires for the foreseeable future.
    In short, there is no relief in sight for the primary 
drivers of large fire costs. Thus, cost management and the full 
implementation of the recommendations contained in this cost-
containment report are imperative for meeting future land 
management goals.
    The recommendations that Jim will review with you in just a 
second are strategic in nature. They are not designed to be 
tactical or operational, but they are designed to be 
complementary of each other and to reduce expected suppression 
expenditures in the future.
    Mr. Caswell. We had seven recommendations. Recommendation 1 
deals with increasing the level of accountability and the 
interest for large fire costs and their impacts by allocation 
of suppression funds at a regional or equivalent level, 
depending on the agency.
    Recommendation 2 dealt with land management planning, 
resource management planning, and directed that policy and 
direction incorporate cost management on large fires as these 
plans are developed.
    No. 3 really talks about draw-down and how we pre-position 
forces around the country to deal with our upcoming fire 
season.
    No. 4 was about training and using local resources in both 
initial response and development of Type 3 teams to have more 
resources available, both from local and tribal resources.
    No. 5 dealt with the fuels management issue, future fire 
management cost considerations when planning all resource 
management projects. It is about the notion of points of 
control as opposed to perimeter control. It is about using 
fires that burn today and capitalize on that and create 
additional areas where we ought to do work so we can build on 
what nature has given us to deal with. It is about maintaining 
acres once they are in a proper state.
    No. 6 deals with cost, data infrastructure and the fact 
that we have very poor cost accounting and the ability to 
determine what really are the principal drivers for large 
fires.
    And the last one deals with losses averted and how we count 
or do a cost-effective measure for how suppression funds are 
spent, a benefit/cost sort of an approach, losses averted sort 
of an approach, as opposed to acres burned.
    As far as where the status is right now, Assistant 
Secretary Lynn Scarlett addressed this a little bit. The report 
has been submitted to the two Secretaries by the Governors, and 
Western Governors' Association has adopted, with some caveats, 
the bulk of the recommendations.
    Implementation plans are being developed, and next month 
when the Wildland Fire Leadership Council meets in the spring 
meeting, there will be a report on our progress since those 
decisions were made in December.
    Thank you.
    [The prepared statement of Mr. Caswell and Mr. Rowdabaugh 
follows:]

 Prepared Statement of James Caswell, Office of Species Conservation, 
  State of Idaho, and Kirk Rowdabaugh, State Forester of Arizona, Co-
 Chairmen, Strategic Issues Panel on Fire Suppression Costs, on behalf 
                 of the Western Governors' Association

    Thank you, Chairman Craig, Senator Wyden and other distinguished 
members of this Subcommittee for the opportunity to appear and present 
testimony for today's hearing on wildfire and forest health issues. 
This testimony is presented on behalf of the Western Governors' 
Association. Lead governors for forest health issues at WGA are 
Governor Janet Napolitano of Arizona, and Governor Dirk Kempthorne of 
Idaho. WGA is an independent, non-partisan organization of Governors 
from 18 Western states and three U.S.-Flag Islands in the Pacific. We 
appreciate this opportunity to present the views of the WGA on the 
topic of large-fire suppression costs management.

                     THE NEED FOR COST CONTAINMENT

    WGA has long-standing policy that it has pursed with the 
Administration and the Congress to prevent fire suppression costs from 
overwhelming the other proactive goals of the Congressionally requested 
``A Collaborative Approach for Reducing Wildland Fire Risks to 
Communities and the Environment, 10-Year Comprehensive Strategy.'' \1\ 
The goals of the Strategy, adopted by the Secretaries of the Interior 
and Agriculture along with many others in 2001 and 2002, is to:
---------------------------------------------------------------------------
    \1\ WGA Policy Resolution 03-18 ``Improving Forest and Rangeland 
Ecosystem Health in the West,'' section B2. ``The active management and 
restoration treatments called for in the 10-Year Strategy will require 
substantial investment by all levels of government and private citizens 
if the agreed-to goals are to be achieved. While the Western Governors 
fully support the cost containment efforts the federal agencies have 
undertaken to control wildfire suppression costs, the Administration 
should request and the Congress should provide funding to fully 
implement the 10-Year Strategy while ensuring that proactive fuels 
reduction funds are not sacrificed in years of high suppression costs. 
By using proactive approaches called for in the 10-Year Strategy to 
reduce hazardous fuel, to restore ecosystems and to increase the 
capacity of our communities to assist, this nation can eventually 
reduce loss of life and property from wildfire catastrophes while 
lowering the tremendous suppression costs that are incurred.'' http://
www.westgov.org/wga/policy/O3/foresthealth3-18.pdf

  <bullet> Improve Fire Prevention and Suppression
  <bullet> Reduce Hazardous Fuels
  <bullet> Restore Fire-Adapted Ecosystems
  <bullet> Promote Community Assistance\2\
---------------------------------------------------------------------------
    \2\ See ``A Collaborative Approach for Reducing Wildland Fire Risks 
to Communities and the Environment, 10 Year Comprehensive Strategy 
Implementation Plan,'' May 2002 at http://www.westgov.org/wga/
initiatives/fire/implem_plan.pdf and ``A Collaborative Approach for 
Reducing Wildland Fire Risks to Communities and the Environment, 10-
Year Comprehensive Strategy,'' August 2001 at http://www.westcov.org/
wga/initiatives/fire/final_fire_rpt.pdf.

    For the nation to truly address the risk of catastrophic wildfires, 
all four of these goals must be pursued simultaneously and with equal 
fervor. This approach is, however, at particular risk of failure 
because of rising fire suppression costs that overwhelm the other goals 
of the Strategy.
    Progress has been made since the 10-Year Strategy was approved, 
particularly in the areas of suppression and hazardous fuels. These 
successful efforts were recently reported to the governors by WGA's 
Forest Health Advisory Committee.\3\ Despite this important progress, 
after five years of concerted effort, there are still hurdles facing 
our pursuit of the 10-Year Strategy goals.
---------------------------------------------------------------------------
    \3\ See ``WGA Forest Health Advisory Committee Report to the 
Western Governors on the Implementation of the 10-Year Strategy,'' 
November 2004 at http://www.westgov.org/wga/initiatives/fire/tempe-
report04.pdf.
---------------------------------------------------------------------------
    In particular, wildland fire suppression expenditures have been 
increasing over the past two decades and have exceeded the $1 billion 
mark in three of the last five years. The states' share of spending on 
suppression has increased commensurately. These increasing costs for 
wildland fire suppression threaten to topple all the efforts of the 
National Fire Plan, 10-Year Strategy, Healthy Forests Initiative and 
Healthy Forests Restoration Act. Pervasive droughts, over-stocked 
forests, and an expanding wildland-urban interface will only exacerbate 
the societal, economic and natural impacts and costs of wildfire will 
continue to worsen.
    High suppression costs drain funding for other proactive forest 
health management efforts called for by the forest health policies and 
programs mentioned above. Austere federal budget estimates make it more 
important than ever to pursue strategic containment of suppression 
costs. With forests, as with people, preventive medicine is the most 
cost efficient approach. For example, a recent Colorado State 
University study put direct and indirect loses to people and the 
environment from Colorado's 2003 Hayman Fire at $230 million, or 
alternatively nearly $1,700/acre. In contrast, fuel reduction costs 
range from $200-$1500/acre, depending on proximity to homes in the 
wildland-urban interface.\4\
---------------------------------------------------------------------------
    \4\ See, Journal of Forestry, September 2004, vol. 102, no. 6, pp. 
42-49.
---------------------------------------------------------------------------
    By using the proactive approaches called for in the 10-Year 
Strategy to reduce hazardous fuel, to restore ecosystems and to 
increase the capacity of our communities to assist, this nation can 
eventually reduce loss of life and property from wildfire catastrophes 
while lowering the tremendous suppression costs that are incurred.

          THE STRATEGIC ISSUES PANEL ON FIRE SUPPRESSION COSTS

    The Wildland Fire Leadership Council (WFLC), led by the Departments 
of the Interior and Agriculture, chartered the ``Strategic Issues Panel 
on Fire Suppression Costs'' (the ``Panel'') in early 2004 to ``explore 
specific strategic issues associated with large fire costs, including 
the relationship of fire to vegetation management and land and resource 
management plans.'' \5\ The need for focus on large fire costs is 
clear. Fire suppression expenditures are overwhelmingly centered in 
larger fires. ``From 1980 through 2002 small fires (less than 300 
acres) managed by the Forest Service totaled 98.6 % of the fires 
reported but represented only 6.2% of the total suppression 
expenditures. Larger fires (greater than 300 acres) represented 1.4% of 
the fires reported and a whopping 93.8% of the suppression 
expenditures.'' \6\
---------------------------------------------------------------------------
    \5\ Large Fire Suppression Costs: Strategies for Cost Management, A 
Report to the Wildland Fire Leadership Council From the Strategic 
Issues Panel on Fire Suppression Costs at 2 (August 2004). http://
www.fireplan.gov/reports/2004/costmanagement.pdf.
    \6\ Id. at 6.
---------------------------------------------------------------------------
    ``Unwillingness to take greater risks [in operational fire 
suppression decision-making], unwillingness to recognize that 
suppression techniques are sometimes futile, the `free' nature of 
wildland fire suppression funding, and public and political 
expectations are all potential contributors to the underlying causes 
for the high cost of large fires.'' \7\
---------------------------------------------------------------------------
    \7\ Id.
---------------------------------------------------------------------------
    The WFLC charter for the Panel explicitly identified five areas for 
examination:

    1. Barriers and obstacles to cost containment;
    2. Strategies for cost containment success;
    3. Impediments to equitable sharing of suppression and cost 
apportionment among jurisdictions;
    4. Criteria to measure cost containment success; and,
    5. Relationships of fire management plans and resource management 
plans to suppression costs.

    Governor Kempthorne of Idaho serves on the WFLC on behalf of WGA. 
WFLC asked WGA to chair the Panel upon its chartering, and Governors 
Kempthorne and Napolitano agreed. James Caswell, retired Forest Service 
and Director of the Idaho Governor's Office of Species Conservation, 
along with Kirk Rowdabaugh, State Forester for the State of Arizona, 
were asked by their respective Governors to serve as the co-chairmen of 
the Panel.
    Fourteen individuals representing a wide variety of fire fighting 
interests, including the federal government, worked collaboratively 
over a four-month period and met multiple times face-to-face to 
construct the final Panel report. The Panel examined the last five 
years' reports related to suppression costs; interviewed a wide variety 
of people and groups, including researchers, special interests, fire 
managers, and other government officials; and analyzed more than 300 
past recommendations to better understand the issues and to develop 
strategic actions that meet the intent of the Panel's charter. The 
Panel's report was first presented to the WFLC in July 2004.
    While there have been many past reports on this topic that have led 
to efficiencies in managing the costs of large fires, those efforts 
have, at best, provided marginal cost reductions. The Panel's report, 
however, seeks to substantively address the underlying causes of large 
fire suppression costs. It is this important distinction that WGA 
believes makes the Panel's report with extremely valuable. As a result, 
the Governors have commended the report to the Secretaries of the 
Interior and Agriculture\8\ and do so today to this Subcommittee and 
the Congress.
---------------------------------------------------------------------------
    \8\ Western Governors' Association letter of November 8, 2004 to 
Secretary of the Interior Gale Norton and Secretary of Agriculture Ann 
M. Veneman. http:/www.westgov.org/wga/initiatives/fire/cost-ltr11-8-
04.pdf.
---------------------------------------------------------------------------
    The strategic and interdependent recommendations set forth in the 
Panel's report are as follows:

    A. Increase the level of accountability and interest for large fire 
costs and their impacts by allocating suppression funds on a regional 
or equivalent basis.
    B. Set policy and direction on agency land/resource management 
planning to incorporate cost management on large wildfires.
    C. Plan, budget, and manage resources effectively for large fire 
suppression, such that resources for effective initial response and 
extended attack are not compromised.
    D. Ensure initial responses are always aggressive and driven by the 
principle of utilizing the closest appropriate resources, including 
those of local and tribal governments.
    E. Incorporate fuels management and future fire management cost 
considerations when planning all resource management projects for 
public and private lands.
    F. Commit to improving the fire cost data infrastructure as a 
prerequisite step toward improving accountability and strengthening 
fire management performance.
    G. Develop and use a benefit cost measure as the core measure of 
suppression cost effectiveness.

    The following are the recommendations as taken from the Panel's 
report including the necessary components of each recommendation as 
well as the goals each recommendation seeks to achieve.

A. Leadership, Commitment and Accountability
    Increase the level of accountability and interest for large fire 
costs and their impacts by allocating suppression funds on a regional 
or equivalent basis. Create a dedicated group of agency administrators 
representing local and regional levels, and at least one member of the 
Panel, to develop operational rules and oversight procedures. 
Components of this recommendation include:

  <bullet> Allocate suppression funds to regions or logical 
        geographical divisions.
  <bullet> Use predictive-based budgeting, as opposed to the current 
        system of 10-year moving averages, as the basis for allocation. 
        The 10-year average will not provide sufficient funds to 
        implement this recommendation.
  <bullet> Establish special relief provisions for ``mega'' or 
        ``extreme'' large wildfires, i.e., establish reasoned estimates 
        for reasonably anticipated levels of funding.
  <bullet> Create and manage a national suppression reserve from 
        allocated suppression funds. Eliminate ``severity funding,'' as 
        it is known today.
  <bullet> Provide incentives for staying within allocated amounts by 
        allowing up to 51% of ``savings'' to be used for other fire-
        related projects. Set provisions for the remaining 49% of 
        savings to be returned to the national suppression reserve.
  <bullet> Require each region or logical geographic division to 
        contribute a co-payment to the wildland fire suppression 
        expenditure before granting access to the national suppression 
        reserve.
  <bullet> Improve adjacent agency partnerships to co-manage the funds. 
        Combine allocations where practical and feasible.
  <bullet> Increase regional tracking and reporting of suppression 
        expenditures. Establish a headquarters comptroller, who reports 
        directly to the agency administrator (not the fire 
        organization) explicitly for suppression cost allocations, 
        monitoring, and suppression reserve management.

    Generally, cost considerations take a back seat to firefighter and 
public safety and environmental concerns. While this hierarchy of 
concern is appropriate, cost considerations are never brought to the 
forefront. Costs and cost effectiveness have rarely been regarded as a 
priority for the federal wildland fire suppression organizations, and 
most agency administrators have operated under the current system of 
essentially having a blank check. The lack of accountability for costs 
allows for increasing costs of wildland fire suppression. The goal of 
this recommendation, therefore, is to create the accountability that is 
missing and the incentives for land managers to consider costs.
    WGA believes that Recommendation A will provide the greatest amount 
of cost saving if fully implemented.

B. Resource/Land Management Planning (R/LMPs) and their Relationships 
        to Fire Management Planning (FMPs)
    Set policy and direction on agency land/resource management 
planning to incorporate cost management on large wildfires. Components 
of this recommendation include:

    a. Display the anticipated wildland fire suppression costs in R/
LMPs for each alternative proposed, including the no-action 
alternative.
    b. Establish the expectations in R/LMPs and FMPs for costs of 
implementing the plans by recognizing the probability of large fire 
occurrence and specifying acceptable losses, given the land management 
direction established.
    c. Where state, local, and tribal governments have established 
effective cost management guidance, consider it in the agency planning 
process.

    Without the consideration of cost in the planning process, costs 
are simply a result of the incident and nothing else should be expected 
since nothing else was planned. The goal is the establishment of a 
``line of sight'' from land management planning through Fire Management 
Plan preparation and on into the Wildland Fire Situation Analyses that 
incorporates cost management as a priority. Land management planning 
must recognize the wildland fire behavior conditions its decisions 
create.

C. Sustaining Initial and Extended Attack Capability
    Plan, budget and manage resources effectively for large fire 
suppression such that resources for effective initial response and 
extended attack are not compromised. Components of this recommendation 
include:

    a. Develop standard procedures to determine minimum resource levels 
that need to be maintained for effective initial and extended attack in 
each geographic area using predictive services capabilities based on 
Energy Release Component, or other applicable fire danger index.
    b. For those resources not needed to meet the requirements noted 
above, develop and establish protocols for national control and 
positioning of those resources.

    Creating a sustained program means emphasizing both a strong 
initial attack and extended attack capability. It must also provide for 
increasing state and local capability for efficient support of federal 
programs. This entails optimizing funds provided to field units by 
ensuring support costs are appropriate for services received. With 
maximum financial flexibility to pre-position resources, it is possible 
to increase initial attack success with the benefit of containing or 
possibly lowering costs.\9\ It is also critical to sustain initial and 
extended attack resource capability at the local level by ensuring 
consistent budgeting for preparedness resources. This element would 
involve a cohesive, long-term budget strategy that includes 
preparedness, emergency suppression, fuels management, and state and 
local fire assistance in order to implement an effective, cost-
efficient fire management program.
---------------------------------------------------------------------------
    \9\ Title II of the National Drought Preparedness Act of 2005 
(S.802) seeks to address an inherent flaw in wildfire suppression 
funding administered by the Federal Emergency Management Agency (FEMA) 
regarding pre-positioning. Currently, FEMA has authority to reimburse 
states for pre-positioning equipment to combat wildfires. This 
reimbursement is available only for a two-week period following a FEMA 
declaration. However, this current authority actually acts as a 
disincentive to states to provide pre-positioned resources. When states 
proactively and effectively extinguish a fire before it becomes an 
emergency, they do not qualify for reimbursement as FEMA has no need to 
make an emergency declaration because there is no emergency. 
Conversely, when state efforts fail at initial containment and a large 
fire ensues, they are reimbursed by FEMA. Title II of the National 
Drought Preparedness Act contains language that would ameliorate this 
disincentive by amending existing FEMA authority under the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (42 U.S.C. 5131 
et seq.).
---------------------------------------------------------------------------
D. Initial Attack and Extended Attack Response
    Ensure initial responses are always aggressive and driven by the 
principle of utilizing the closest appropriate resources, including 
those of local and tribal governments. Components of this 
recommendation include:

    a. Use all available local resources in wildfire suppression 
strategy to create an integrated and coordinated response to wildland 
fire.
    b. Form local Type 3 Incident Management Teams (IMTs) to manage 
initial and extended attack operations locally rather than rely on 
mobilization of Type 1 and Type 2 teams. Develop agreements with local, 
state and federal agencies that establish local Type 3 IMTs.
    c. Focus meaningful federal and state agencies' financial support 
and provide appropriate technical assistance to strengthen local 
resources and assure their availability on a wildfire incident.

    Enhanced firefighting preparedness and increased interagency 
coordination at the local level will improve the cost effectiveness of 
federal and local wildland firefighting efforts. An effective local 
department that is prepared to act immediately or in cooperation with 
other agencies to suppress wildfires can attack and contain wildfires 
on adjacent state and federal land, often before state and federal 
forces arrive. They can also provide much-needed assistance to large 
state and federal wildfires, reducing national mobilization costs for 
federal agencies and lowering overall suppression expenditures.
    Increasing the skills and availability of locally based Type 3 
teams will lead to effective extended attack. When successful, the need 
for mobilization of higher cost Type 1 or 2 teams is negated. 
Additionally, the development of Type 3 teams that use local 
firefighters and support (regardless of agency) extensively will reduce 
costs in a variety of ways: the teams could take command, coordinate an 
effective extended attack, order necessary resources, and provide for 
safety through increased supervision, command and control. Most 
importantly, these teams will have knowledge of the local conditions 
and landscapes that will help them make good informed decisions. Within 
the first few hours of a fire-start, they can be very effective in 
controlling the fire quickly by establishing a competent management 
organization.\10\
---------------------------------------------------------------------------
    \10\ See, The Changing Role and Needs of Local, Rural, and 
Volunteer Fire Departments in the Wildland-Urban Interface: Recommended 
Actions for Implementing the 10-Year Comprehensive Strategy, An 
Assessment and Report to Congress (June 2003). http://
www.stateforesters.org/pubs/Final%20Rural%20Fire%20Report.pdf.
---------------------------------------------------------------------------
E. Landscape Fuels Management for Public, Tribal and Private Lands
    Incorporate fuels management and future fire management cost 
considerations when planning all resource management projects for 
public and private lands. Components of this recommendation include:
            For Public and Tribal Lands
    a. Develop interagency protocols that identify and report acres of 
hazardous fuels reduction from wildland fire.
    b. Require analysis of burned-over areas and adopt active 
management strategies to ensure that excessive fuels do not accumulate 
again.
    c. After large wildfires, re-evaluate the impacts and feasibility 
of adopting strategies that use the recently burned areas as boundaries 
for less costly wildland fire use. Incorporate the opportunity 
presented by the wildfire into the unit fuels strategy.
            For Private Lands
    a. Engage communities and property owners in creating defensible 
space around structures, and appropriate land use, zoning and 
construction methods/standards for structures situated in fire hazard 
areas.
    b. Strive to make R/LMPs and FMPs into national, comprehensive 
interagency and intergovernmental wildland vegetation defensive 
management plans.

    We want to put particular emphasis on the fact that the Panel also 
found that a paradigm shift in thinking about hazardous fuels reduction 
effectiveness is required and can be started by ceasing to use acres 
treated as a ``results'' measurement for program accomplishments.
    Despite recent increases in funding and fuels treatments, it is 
apparent that current fuels reduction strategies are not able to 
address the full magnitude and scope of the fuels problem. 
Collectively, the integration of wildland fire risk mitigation measures 
into all resource management activities, a shift in suppression tactics 
and greater emphasis on post-fire fuel characteristics may reduce the 
overall costs of suppression, while ensuring the protection of high 
values-at-risk.
    Solutions must address how to create a politically viable, 
collaborative effort to manage the landscape and mitigate fire risks 
within and around the wildland/urban interface.
F. Fire Cost Management Data Needs
    Commit to improving the fire cost data infrastructure as a 
prerequisite step toward improving accountability and strengthening 
fire management performance. Necessary components of this 
recommendation include:

    a. Wildland fire management agencies should begin the development 
of a more complete fire database and management information system.
    b. Forest Service Research and Development, in partnership with the 
fire agencies, should be charged with developing and maintaining this 
database and with developing a regular series of peer-reviewed reports 
and analyses that track cost patterns and influences over time.
    c. Establish an effective national fire-related information 
technology/information management framework under the guidance of the 
WFLC.
    d. Develop an integrated database for all federal, state, and local 
agencies involved in the collection of wildland fire data that allows 
for sharing information across agencies and provides for a 
consolidation report on wildland fire response.

    The absence of information inhibits the ability to improve program 
management and to contain costs. Not knowing fully what wildfires 
cost--and why--retards credibility and accountability at all levels 
throughout the organization and with external stakeholders. Before cost 
management can become an integral part of the fire culture, similar to 
safety and stewardship, data and meaningful information on costs and 
cost management performance will have to be made readily available.
    Data problems are not confined to suppression expenditures. Data on 
actual fuels treatment expenditures and treatment characteristics are 
also absent. Information maintained in the National Fire Plan 
Operations and Reporting System (NFPORS) contains planned--not actual--
costs, and data are collected to report progress rather than evaluate 
and analyze actual results. Without better data on actual costs and 
their drivers, the agencies cannot assess their firefighting 
effectiveness or the efficiency with which they are managing costs.
G. Cost Management Metrics
    Develop and use a benefit cost measure as the core measure of 
suppression cost effectiveness. Necessary components of this 
recommendation include:

    a. Measure should be supported by a comprehensive analysis of 
wildland fire suppression expenditures and losses averted.
    b. Analysis should be supported with a comprehensive knowledge base 
of fire management costs, suppression cost drivers, and values-at-risk.
    c. Losses averted and suppression costs should be estimated and 
compared on every fire greater than 300 acres, using defensible 
methodology for estimation of values-at-risk and scientific fire 
behavior predictions for estimating the extent of fire involvement in 
the absence of control.
    d. Benefit/cost ratios should be tracked over time and across 
regions and forests to assess trends.

    Performance measures need to encourage managers to balance costs 
and protection objectives and to inform the public and government 
officials with a more complete picture for public debate. Without 
reliable and clear performance measures and cost information, land and 
fire managers may be compelled to select suppression alternatives to 
reduce potential negative impacts regardless of the cost.
    Needed is a measure that helps evaluate the benefits and costs of 
suppression alternatives. Cost management involves not only minimizing 
the cost of suppression inputs and assuring their productive 
deployment, but also making sure that the total value of the cost and 
losses averted is in line with the direct and indirect costs of 
protecting those values. To bring the costs and benefits of an activity 
into an acceptable balance, managers of the activity can either 
increase the benefits or decrease the costs.

           NEXT STEPS: IMPLEMENTATION OF THE RECOMMENDATIONS 
                       AND CONGRESSIONAL ACTIONS

    The WFLC discussed implementation of the Panel's recommendations at 
their December 2004 meeting in Emmitsburg, Maryland. An overall review 
of the recommendations by WFLC staff concluded that most of the report 
would be feasible to implement, if agency leadership is committed to 
making implementation of the Panel's recommendations a priority for 
accomplishment. However, resources at the agencies are stretched thin. 
Staff noted that most of the people who should be assigned to an 
implementation are also involved in other high priority interagency 
assignments.
    In Maryland, WFLC went forward, and with some caveats and 
amendments, adopted the bulk of the recommendations of the Panel, and 
we commend them for doing so.\11\ However, on Recommendation A: 
``Leadership, Commitment and Accountability,'' where we believe there 
is the greatest opportunity for suppression cost savings, WFLC was not 
able to move forward in full. In part, WFLC had concern that certain 
components of the recommendations would require Congressional action to 
implement. It was noted that to create a national suppression reserve 
and thereby eliminate severity funds, Congressional approval might be 
required to allow reprogramming from suppression to preparedness and to 
create the national-level fund. To provide incentives to regional 
managers to stay within allocated suppression costs by allowing them to 
use part of any savings on other fire-related projects, Congressional 
approval was also noted as necessary, given the prohibition against 
moving appropriated funds from one budget line-item to another (e.g., 
from suppression to forest restoration) without prior approval. 
Finally, Congressional approval was also noted as necessary to allow a 
co-payment from a federal land manager to the wildland fire suppression 
expenditure before granting access to the national suppression reserve. 
Appropriations law prohibits augmentation of one account with funds 
appropriated for a different purpose.
---------------------------------------------------------------------------
    \11\ See Wildland Fire Leadership Council, Summary Decisions and 
Action Items, Emmitsburg, Maryland, December 2004 at http://
www.fireplan.gov/leadership/120704.html.
---------------------------------------------------------------------------
    We urge appropriate Congressional leadership to sit down with the 
Administration and determine how the impediments to full implementation 
of Recommendation A may be overcome. If Congress and the Administration 
want to make a serious and concerted effort to contain large-fire 
costs, we urge you to strongly consider making the legal changes 
necessary for suppression cost savings to become a reality. Moreover, 
given the interrelated nature of all the recommendations, we urge the 
Congress to closely track and review progress made by the 
Administration in implementing each and all of the Panel's 
recommendations.

                               CONCLUSION

    Real savings in the suppression budget will not happen overnight. 
Only with strong and sustained leadership from the Congress and the 
Secretaries of Agriculture and the Interior can significant reductions 
in the costs of suppression of large fires be achieved. The Panel 
believes those savings can be achieved if the recommendations they have 
put forward are fully implemented. As the Panel states, true 
suppression expenditure savings will only be achieved by focusing on 
strategic cost considerations as set forth in their recommendations, 
not on tactical cost considerations, such as the apportionment of 
suppression costs between all involved jurisdictions. The 
recommendations may require certain legal changes, and they most 
definitely require a change in the status quo of the agencies fire-
fighting operations and mind set. The Panel and the WGA believe the 
time for these changes has come, and we hope the Congress and the 
Administration agree.

    Senator Craig. Jim, Kirk, thank you both very much. It is 
tremendously helpful to get someone in your position and with 
the Governors of the Western States, who are really kind of in 
the core of that drought zone at the moment, looking at the 
realities of our forests and firefighting. We appreciate your 
thoughts at the moment, and we will take a very close look at 
the study in its completion.
    Mark, let me start with you. It has been almost 2 years 
since the blue ribbon report on aviation safety was released 
and a year since the cancellation of 33 contracts for the heavy 
retardant multi-engine aircraft.
    We have heard from people pushing everything from A-10 
Warthogs to S-3 Vikings to Boeing 747s fitted with slip-in 
retardant tanks. We understand the process for certification of 
the B-200 amphibious aircraft, and the British Aerospace BA-146 
is progressing.
    What is the Department's long-term strategy for replacing 
these fire assets, and when will you be making your proposal on 
this and how much are the alternatives that you are considering 
likely to cost?
    Mr. Rey. First, I will submit for the record a summary of 
our progress in implementing the recommendations of the blue 
ribbon commission 2 years ago. Many of those recommendations 
which went beyond just the integrity of the airtanker fleet 
have been implemented.
    I will also submit for the record an April 5 letter, this 
year, April 5, 2005, from Secretary Johanns and Secretary 
Norton, responding to the National Transportation Safety 
Board's recommendations.*
---------------------------------------------------------------------------
    * The letter can be found in the appendix.
---------------------------------------------------------------------------
    It is our judgment that we either have or are implementing 
all of the National Transportation Safety Board's 
recommendations. Both of those go to the integrity of the 
existing aviation assets and the existing airtanker fleet.
    Now all of that having been given, we know that the 
existing fleet is not infinite, that there needs to be a going-
forward strategy to bring online the next fleet, the next 
generation of tankers, and we are working on that, both between 
the Department of the Interior, the Department of Agriculture 
and the White House.
    In broad terms, I think we can summarize what we are 
leaning toward is a fleet that is newer, but with fewer large 
fixed-wing airtankers, in favor of a larger number of more 
mobile assets, particularly helicopters, because our experience 
over the last couple of years has shown pretty good results 
with helicopters. There still is a need to maintain some number 
of large fixed-wing airtankers in the mix, because they are a 
particularly cost-effective asset.
    Over the last year, as we have had the opportunity to look 
at the existing fleet, as well as look at the options for a 
future fleet, as well as talk to virtually everybody who has 
one of those planes you mentioned, I have met with all of them, 
and you have probably met with all of the ones who have 
operations in Idaho, and there are at least 14 of them that are 
out there with what they think is the next best thing. 
Unfortunately, none of those aircraft are ready to put online 
at the present time, and some of them probably never will be 
ready to put online. They are interesting experiments, but they 
probably will not get beyond that.
    So as we looked at where to go, going forward, we were 
leaning--and may still yet lean--toward acquiring additional P-
3s, because the military has a number of low-hour P-3s that can 
be retrofitted at a reasonable cost and used as the backbone of 
a large airtanker fleet in conjunction with all of the aviation 
assets. We would still maintain room if one or another of those 
14 entrepreneurs is able to bring an alternative aircraft 
online at a comparable cost of operation to fly those as well.
    Now in light of the crash this past week, we are going to 
have to take some time to evaluate why that occurred and what 
implications it has, if any, for where we were headed. So it is 
going to be a couple more, probably a couple more months, 
before we close on a going-forward strategy.
    We are confident that our existing fleet, augmented by the 
assets that we can make available, either if the P-2Vs or the 
McDonnell Douglas products can come back online, or additional 
helicopters or helitankers or fixed-wing, single-engine tankers 
is going to be adequate to meet our needs for the foreseeable 
future. At the same time, we would like to get on with 
reconfiguring this fleet with more modern aircraft to take us 
not to next year or the year after, but to 10 years and 15 
years down the road.
    Senator Craig. Mark, thank you.
    Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman, for 
having the hearing.
    Mr. Caswell, let me ask you about one of the conclusions 
that your report reached as I understand it. This is on the 
whole issue of predictive-based budgeting. We have had this 
discussion here in the committee before. I believe we had a 
discussion about it with Under Secretary Rey here last year.
    You say in your report you use predictive-based budgeting 
as opposed to the current system of 10-year floating averages. 
This is for purposes of allocating suppression funds to 
different regions.
    I essentially made that same suggestion, and the answer 
that I understood I got was that it was impossible to predict 
the relative severity of a fire season a year or more in 
advance when the agency budgets are being developed, so 
predictive-based budgeting was not possible, at least for those 
purposes when those budgets are put together.
    I guess I would be interested in any response you have as 
to what you were intending to convey with this recommendation.
    Mr. Caswell. Mr. Chairman, Senator Bingaman, our view of 
this--this is one of the more critical recommendations in the 
seven--of the seven recommendations, and it is the one we felt 
really gives us the most opportunity to make a difference. And 
it was based on the notion that we need to have both incentives 
and disincentives, and we need to change behavior throughout 
the levels of the organization if we are going to turn the 
corner on how important it is to really seriously consider the 
costs in the future and to try to at least control those and 
not allow sort of just exponential growth to continue. So the 
idea here is really quite simple, and we think it is quite 
feasible to do this.
    Now it is not without risks and there are complications. 
There are some legal complications and there is a bunch of 
stuff that would have to be worked through. However, having 
said that, it is quite simple. We know pretty much where, from 
history, these fires occur--the mega-fires is one of the ones I 
am talking about, this 2 percent--and in what areas.
    So if we were to allocate our suppression funding, which in 
the 2006 budget I think right now stands at a recommendation 
level of about $700 million, to the areas of the country where 
we expect the most activity to occur, and then hold those, in 
the case of the Forest Service, regional foresters, and in the 
case of the Bureau of Land Management, State directors, 
responsible to manage their suppression budget. When they get 
to the point where it is exceeding the money they were 
allocated, they then have to dip into their regular resource 
funds--it is just like a deductible in insurance--until they 
have exceeded that level. We suggested 20 percent. Then they 
can come back to the national level to tap into the national 
level fund that is available.
    There are a whole lot of things in terms of spreading risk, 
leadership, accountability, coordination, communications, 
decision-making, throughout the year about how I manage my 
region. And, yes, we may get it wrong some years in terms of 
our ability to predict, but built into that ought to be the 
ability to move some money around, too. We think this is a 
doable thing.
    Senator Bingaman. Let me ask one other question here. Thank 
you very much for that answer. I am concerned about priority 
setting for fuels reduction treatments where the emphasis is on 
the number of acres treated. I hear complaints in my State that 
this, as a performance measure, is almost the exclusive driver 
behind the priority setting. The result is, instead of treating 
the highest priority areas, rangers are pushing to treat those 
acres that can be treated most cheaply and thereby get more 
acres treated. So the cost containment report, as I read it, is 
very critical of using acres treated as a performance measure. 
Am I reading this right, and would someone like to comment on 
that?
    Mr. Rowdabaugh. Mr. Chairman, Senator Bingaman.
    Senator Bingaman. Yes.
    Mr. Rowdabaugh. You got that exactly right. This report and 
the panel's recommendation is that we de-emphasize acres 
treated as the measure of program efficiency and emphasize 
resources protected: natural resources protected, human 
development, structures protected, lives protected.
    The emphasis needs to change and to put our scarce resource 
dollars, our fuel-treatment dollars, on the ground in those 
areas where we can make the greatest difference to protecting 
our highest priorities.
    Senator Bingaman. My time is up, Mr. Chairman. Thank you 
very much.
    Senator Craig. Thank you very much, Senator. The last 
question I think was very probative and relevant to our current 
circumstance. It is a concern of mine also.
    Let me turn to Senator Murkowski. Lisa.
    Senator Murkowski. Mr. Chairman, this is the third hearing 
I have attended where we have talked about the upcoming fire 
season, and with each hearing, we talk about those assets that 
are available to get out and combat these fires, and continuing 
problems with the retardant tanker fleet.
    After our big fires last summer, the Fairbanks North Star 
Borough kind of did their own analysis of what went right, what 
went wrong. It was their own independent commission, looking at 
the Federal, State, local cooperation and some of the 
jurisdictional issues. One of the things that, of course, they 
pointed to, which is no surprise to anybody, is again we do not 
care whether it is Federal property or State property, but give 
us something that can assist us with the fires.
    And, Mr. Rey, you mentioned the possibility of bringing 
more helicopters online as, again, an additional asset or an 
asset that can be more responsive than perhaps the retardant 
tankers. But it seems that there has been this issue of not 
having enough of the tankers. We had the concern last year with 
the ambiguity as it related to these three--the Canadian 
retardant tankers that we had contracted with--the State of 
Alaska had contracted with--and there was ambiguity as to 
whether or not these tankers could fight the fires in Federal 
protection areas.
    And what we were faced with, as I mentioned in my opening 
statement, was not so much the threat of the fire to property 
and person, but what the smoke was doing to our urban centers, 
literally shutting down the interior to traffic, whether it be 
road or air traffic for tourism.
    What can we expect this year in terms of what will be 
available to us? Will we have the ambiguity cleared up in terms 
of whether or not we can use these Canadian tankers? What will 
we have there?
    And I notice on the map we are not in the above-normal 
potential range except down on the Kenai Peninsula in south 
central, which is, of course, where our population center is. 
So I need to know that we will have the assets that are 
available.
    I am also concerned about the possibility for getting 
additional helicopters as well as local fire trucks down in the 
Kenai Peninsula area, so if you can speak to that, please.
    Mr. Rey. I had this discussion with Senator Stevens at the 
Appropriations Committee, and so I went back and checked to 
make sure that what I told Senator Stevens was correct.
    The allocation of resources in an incident is controlled by 
the incident commander. We do not tell him how many planes he 
needs. We do not tell him you need to hire this kind of 
equipment or that kind of equipment. That is what we train them 
for and what we rely on them for. None of the incident 
commanders in Alaska had unmet resource requests.
    So whether people, looking from the outside in to the 
firefighting effort, thought it was adequate or not is another 
question. But in the judgment of the incident commanders who 
were fighting those fires, they asked for and got what they 
thought they needed, and we thereafter do a review to see if 
that was the right firefighting strategy.
    There was some initial confusion, which was later remedied, 
about the use of non-federally certified tankers and the 
liability associated with that, having stood down the fleet of 
heavy tankers. That has been remedied and that will not be a 
problem this year, State of Alaska tankers.
    Senator Murkowski. You say it has been remedied and it will 
not be a problem. It is remedied in what way? Have we cleared 
up the jurisdictional issue or do we have more tankers?
    Mr. Rey. We have cleared up the safety issue. We are not 
concerned with the safety of the assets that are going to be 
used, either by the Federal Government or by the State.
    Senator Murkowski. So they will be available if needed.
    Mr. Rey. They were available if needed anyway under State 
control. The question is whether we wanted to put an asset, a 
plane that we could not verify could fly safely, into a 
federally-controlled firefighting effort. And that issue has 
now been remedied, because we believe the plane is safe to fly.
    Senator Murkowski. What about the Canadian tankers?
    Mr. Rey. Those are the ones we are referring to.
    Senator Murkowski. So if we need them, they will be 
available to us without any concern about either the safety 
component or the accessibility?
    Mr. Rey. That is correct. But to the point, last year we 
had extra tankers standing by at the time those incident 
commanders were fighting those fires. So if the incident 
commander had said I need a tanker here, the fact that----
    Senator Murkowski. Were not those tankers standing by down 
in California?
    Mr. Rey. Correct.
    Senator Murkowski. And the problem that we were facing was 
that the smoke was so thick we could not get anything into the 
air, whether it be a tanker or a helicopter or----
    Mr. Rey. That is a different problem.
    Senator Murkowski. Okay.
    Mr. Rey. There are times when aviation assets, even though 
they are available, are ineffective. We had that problem for a 
considerable period of time in Alaska last year. We had it for 
different reasons in California in 2003, where extreme winds 
made tanker, or any aviation flight, too hazardous and 
ineffective.
    Senator Murkowski. I have more questions, Mr. Chair, but I 
will wait until the next round.
    Senator Craig. We will have another round.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, for holding this 
hearing on wildfire preparedness and certainly to you and 
Senator Wyden for your continued focus on this issue. I think 
it is very important.
    Obviously, the charts and the map here show almost all 
three of our States.
    Senator Craig. Your State and Ron's State and my State are 
in the bull's-eye this year.
    Senator Cantwell. Yes. And I think it is not lost on our 
panel who are testifying today, the conditions of the Northwest 
with drought conditions. And I do not know yet that our 
Governor has declared an emergency related to drought, but may 
do so in the near future, which brings up one particular 
question that I have. Mr. Rey, I think you and I have talked 
about this before, which is the issue of preparedness and how 
we spend our money and particularly the training of 
firefighting individuals.
    Now I notice that Mr. Caswell, representing the Western 
Governors' Association, actually included in his testimony a 
statement about, ``Not knowing fully what wildfires cost--and 
why--retards credibility and accountability at all levels 
throughout the organization with the external stakeholders. And 
before cost management can come an integral of firefighting 
culture, similar to safety and stewardship . . . .'' He goes on 
to say that we have to have that information.
    So I guess, Mr. Rey, I am asking, when will this 
subcommittee get information on what costs are in the budget, 
specifically related to training of firefighter personnel and 
the safety in firefighter training budget, in particular, 
beyond just training? But what safety measures and what dollars 
are being spent on that? Now that is a request I have made 
previously, and I do not know if you have information you can 
provide us today about the actual costs associated with 
training and safety for preparedness as it relates to the 
workforce that is actually out there on the front line.
    Mr. Rey. One of the complications is that many of the 
training programs that we undertake are not specific to 
firefighters. We train other field personnel in some of the 
same techniques.
    So what we are trying to do, in response to your request, 
is to break out those training expenses to just those that are 
associated with training firefighters as opposed to other field 
workers. We should be able to get that to you within the next 
couple of weeks.
    Senator Cantwell. So I will--because we made a request----
    Mr. Rey. I think you made it at the budget hearing, earlier 
this spring, if I recall.
    Senator Cantwell. And I just want to point out that in 
2002, you also said that you would get us specific requests, 
which we did not see. So we are very anxious about this, and I 
will tell you why.
    You know, obviously everybody remembers Storm King, the 
fire where many individuals lost their lives. And then in 
Washington State, we had the Thirtymile Fire. But what was 
surprising about the Thirtymile Fire, in the investigation that 
was done by the Occupational Safety and Health Administration, 
is that in this Thirtymile case, all 10 of the agencies' 
standing fire orders--I mean the provisions about what the 
workforce should be doing--and 18 watch-out situations, which 
are again the basic rules, were violated or disregarded.
    Then along comes the Cramer Fire. Two more individuals lose 
their lives, and the Occupational Safety and Health 
Administration study found that there were, in the Cramer Fire, 
additional serious, willful and repeat violations.
    So we are hearing the same information over and over again, 
and it seems to be related to a workforce that is out there in 
a very dangerous situation. Everybody knows that and 
understands that, but may not be fully trained, fully aware or 
getting the right level of training as it relates to the 
dangerous level of the situation. And the fact that we keep 
seeing the same issues from the Occupational Safety and Health 
Administration being brought up, the same rules--and I do not 
want to get into a situation where we are blaming the 
individuals who may not have gotten enough training. In the 
situation with our own State and what happened at Thirtymile, 
they were a very young group of people. I mean there were 18-
year-olds out there being trained a short period of time.
    So I want to get to the bottom of what we are spending and 
actually agree, Mr. Caswell, with you making that statement--in 
a much broader fashion-- of the information. But to me, getting 
the culture corrected on following these rules is also about 
finding the money and how much we are spending on it and being 
detailed about it.
    Mr. Rey. We can get that to you. There is a common theme 
between all three of those fires, and that is that the 
catastrophe occurred when the fires were in transition. So it 
is not just a question of changing the agency's culture. It is 
not just a question of investing more in training. It is, in 
this case, a question of figuring out what happens at that 
moment when a fire transitions from a relatively benign 
incident to one that is one much more difficult. We need to 
identify that in order to train people to anticipate and avoid 
it.
    So there are, in these particular instances, some things we 
are focused on in trying to focus on that specific 
circumstance, because that is where the casualties seem to be 
occurring more commonly than, for example, when crews are 
combating a fire that has already become a large incident fire. 
So there is some complexity there as well.
    Senator Cantwell. I know my time is up, Mr. Chairman, but I 
think that there is something beyond just that these were very 
tricky situations in the sense that in the Thirtymile Fire 
situation, there was a lot of testimony, a lot of dispute, 
about whether that particular crew should have been at that 
particular point at that time.
    Now you are talking about communication and command, and as 
I mentioned them, the watch-out--the 18 watch-out situation 
commands that are supposedly passed on to these individuals, 
but are they following?
    And so we do end up getting people in very dangerous 
situations. But somehow these standing orders, and specifically 
the watch-out situations--hey, these are the things you should 
watch out for--are not being followed.
    Mr. Chairman, I will submit more questions, but we 
certainly will be looking for this information.
    Mr. Rey. One of the things about Thirtymile that has 
changed since then is that one of the causal factors was 
fatigue on the part of the crew leader, so we have changed our 
rest-rotation requirements. It was not an issue of training so 
much as it was that they were on shift too long and good 
decision-making was not made as quickly as it should have in 
the face of a rapidly changing fire environment.
    Senator Craig. Now let me turn to Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Mark Rey and all of you, thank you for your testimony and 
your contribution to this hearing. Mark, last week Senator 
Craig and I sent a letter to the Forest Service chief 
requesting that the Service provide real-time estimates of 
smoke and gas emissions from this year's wildfires. Do you 
believe the Forest Service will be able to provide this 
information to the public this year?
    Mr. Rey. Probably not this year, likely next year. We have 
been working on and have invested a considerable amount of time 
on a model that will use fuel conditions and weather data to 
tell us what will happen when a particular area burns, where 
the smoke will go, and what it will contain. The model is 
called Blue Sky Rains.
    What we will do this year is, as we get fires, locate 
monitors so that we are monitoring the smoke emissions and then 
compare what we get on a real-time basis to what the model has 
predicted in order to calibrate the model properly. If we are 
able to do that--and, frankly, there is part of me that hopes 
we will not be able to do that, because that means there will 
not be many fires. But I think probably we will get the fires. 
So if we are able to do that, then by next year, with the model 
properly calibrated, we should be able to tell you if this 
amount of southwestern Oregon burns, this is where the smoke 
will go and these will be what kinds of emissions you will get.
    The model is hinged on particulate emissions, which we 
think are a pretty fair indicator for the greenhouse gases and 
the toxins that we know are also emitted in an uncontrolled 
wildfire situation.
    Senator Smith. You mentioned in your testimony the total 
acreage treated on Forest Service lands. There are concerns 
that the bulk of this acreage was accomplished through 
prescribed fire rather than mechanical treatment. Could you 
provide me and the subcommittee with a breakdown of burn versus 
mechanical acreage treated, and also how many acres where 
condition class was actually changed?
    Mr. Rey. We have that information in our data bases and we 
can spit it out for you.
    One of the things that is important to remember is that, as 
we had a pretty benign fire season, a relatively benign fire 
season, in 2004, we had very large burn windows for prescribed 
fire, and that made the acres for prescribed burning able to be 
increased. And I do not begrudge our people the opportunity to 
do that, because it meant that fuels treatment work was getting 
done.
    Again, there was a discussion earlier about acres treated 
not being the best performance measure, and we agree with that, 
and that is why we are developing more refined performance 
measures, but it is one that everybody can understand.
    And last year was the first year, excluding Alaska, 
although I am reluctant to do that--but excluding Alaska, last 
year was the first year that we actually treated more acres 
than were burned in wildfires.
    Senator Smith. Mr. Chairman, I will submit some further 
questions and ask for written responses. They relate to the 
number of helicopter companies in Oregon that have expressed 
concerns over contract negotiations with the Forest Service for 
their facilities to be used in treating wildfires. Thank you.
    Senator Craig. Senator, thank you, and thank you for 
attending.
    Now let me turn to Senator Ron Wyden. Ron.
    Senator Wyden. Thank you, Mr. Chairman. I think my friend 
and colleague, Senator Smith, has been, as usual, diplomatic 
with respect to the frustrations at home about contracting, and 
I am not going to be----
    Senator Smith. I was going to have a follow-up question, 
but you proceed, because you will be less diplomatic.
    Senator Wyden. I am not going to be as diplomatic as my 
friend is, because I think there is tremendous frustration, Mr. 
Rey, on this point. And this goes to the question that we have 
been at summer after summer with respect to the readiness of 
aircraft, and these helicopters that Senator Smith and I are 
concerned about are more needed now than they were before.
    And what we have to do is get clarified how these contracts 
are going to proceed. And as far as I can tell, there is a lot 
of confusion with respect to the two kinds of potential 
contracts out there for the aircraft that we need. There is one 
kind of contract called an exclusive contract where, in effect, 
I gather, the aircraft is just sitting there and is available. 
And then there is another aircraft contract called call-when-
needed, and essentially these kinds of aircraft could be used 
for other sorts of matters. And what folks at home are 
concerned about--and I think this is really going to affect our 
readiness--is that the two kinds of contracts are sort of being 
used interchangeably by folks at home, so people cannot prepare 
and get a sense of what they are going to actually need out on 
the ground.
    And in particular there was a meeting on March 7 of this 
year that was held at Forest Service Headquarters with Larry 
Brosnan, the Assistant Director of Fire and Aviation, to 
discuss the contracting malpractice. A lot of the folks that 
Senator Smith and I represent were there. And I think they went 
home vastly more confused than they were when they got there.
    And what I would like to ask, Mr. Rey, is if you could get 
us a statement within the next 10 days that specifically 
clarifies how these contract practices will work, what kind of 
implementation is going to be needed. Because we need to 
provide our constituents with the basic contracting 101 
information with respect to these types of contracts if we are 
going to have the kind of readiness that I know you want to see 
and I want to see. So can we get that worked out so that within 
the next 10 days you will get us a clear statement with respect 
to how this contracting authority is to proceed and what the 
folks in Oregon are supposed to do to get it implemented?
    Mr. Rey. That will be easy to do. This has been a matter of 
ongoing negotiation between the Forest Service and the vendors 
from among the helicopter companies, and it has been a very 
good and vibrant negotiation.
    Now, last year at this time, when it was clear that we were 
going to depend on a larger amount of helicopters, some of the 
helicopter operators--certainly none of your constituents or 
Senator Craig's, but some of them from somewhere--thought they 
had us over the barrel, quite frankly, and the rates they 
quoted us were outrageous. We took a pretty firm line that we 
were not going to spend the taxpayers' money that way, and lo 
and behold, as it turned out, we were able to work something 
out with them.
    So we have, you know, some pretty aggressive contract 
people. They view themselves as the guardian of the public 
trust and sometimes that results in unhappiness, sometimes it 
results in confusion. There are two different kinds of 
contracts, and we can clarify for you how we use each.
    Senator Wyden. Good. Well, that strikes me as fair and if I 
could say, Mr. Chairman, I would like to work with you on this, 
because I think we want a win/win. We want to make sure that 
the region has the aircraft that we need, and we want to make 
sure that the taxpayers' interests are protected.
    What I am concerned about is we are on our way to a lose/
lose. We are going to have confusion with respect to the 
aircraft and we are not going to protect the taxpayer concerns. 
And I am sure that people other than those in Idaho, Oregon and 
Washington would probably try to exploit that. But I am glad 
you want to work with us, and we will expect that within 10 
days.
    The other point that I wanted to ask about goes to 
something that I have been interested in over the years and ask 
more in terms of a long-term kind of discussion. My question 
is, is there any way to track the costs of a fire while it is 
actually ongoing? The reason that I ask about this is that 
obviously our folks are in harm's way and people who are out in 
the field cannot do that. But I wonder what the process is in 
terms of folks away from the fire trying to figure out how to 
best allocate the costs.
    The reason I ask this is that there seems to still be wide 
variations in cost per acre of fires that even to an inexpert 
eye like my own look fairly similar. So how is that done? And, 
if so, are there any ways in which that might be improved? And 
I see one of your colleagues, Ms. Scarlett, nodding as well.
    I know my time is up, Mr. Chairman, but if both Mr. Rey and 
Ms. Scarlett could respond to that, that would be great.
    Mr. Rey. We actually have the capability to track costs on 
a daily basis, on a real-time basis. Not the cost of the burn 
in resource values, but our costs of suppression. So we can 
provide that information for any incident in a fairly short 
time period.
    There is a very wide variation of cost per acre, and you 
are right. Sometimes the reasons for that variation are 
obvious, given where and what kind of fire it is. Sometimes 
they are less obvious, and that is looking at the costs of 
large incidents. Fires that we do not extinguish on initial 
attack is where we know, as Mr. Caswell said, most of the 
savings can be achieved. So understanding those differences is 
a good part of our cost recovery effort.
    Ms. Scarlett. Senator, the only thing I would add to that 
is that it is precisely those variations that caused us to, in 
2003, do five analyses of some large fires and take a very 
close look at them to see if we could better understand what 
was driving the differences in costs from one to the other.
    In turn, that is also what led the Wildland Fire Leadership 
Council to convene the strategic issues panel that these two 
gentlemen co-chaired, again, to give us a better understanding. 
We think that that strategic issues panel has illuminated some 
issues and we are in the process of trying to implement some of 
those recommendations. It is not going to do away with the 
variation that is driven by terrain and other factors, but 
hopefully we can get more uniformly efficient by utilizing some 
of their recommendations.
    Senator Wyden. Can you provide Senator Craig and me that 
information? Because, on their face, these variations are 
simply too wide to gloss over, and the fires look relatively 
similar. The variations--the gap is very substantial, and I 
would like to have you supply us the information you gathered 
with respect to how you might go about addressing those 
differences.
    Ms. Scarlett. We would be happy to do that.
    Mr. Rey. One difference I would just point out at the 
outset is it depends on what the prevailing rate, if we use 
State or local help, is. It is more expensive to fight fires in 
southern California than it is eastern Oregon, if we are using 
State assets.
    Senator Wyden. I think that is a fair point. That is not 
the kind of concern I have. Obviously, there could be wage 
differentials and things that are apparent on the face. But 
what has been, I think, unusual to me, and certainly 
inexplicable on its face, is it looks like fairly similar kinds 
of fires in fairly similar parts of the rural West, and the 
variations are dramatic. So I would like that information then. 
I thank you for your thoughts on that.
    Thank you, Mr. Chairman.
    Senator Craig. Thank you, Ron.
    Now let me turn to Senator Salazar, noting that on the 
Rocky Mountain front, from top to bottom, you are at 100 to 150 
percent of normal moisture. So we would assume that both 
agencies would transfer a dominant amount of the resources that 
would otherwise play out in Colorado to the inland West this 
year. Other than that, let me recognize Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Craig. You 
know that in any part of the West, the arid West, there never 
is enough rainfall anyway. We are still in a drought situation 
in Colorado, notwithstanding the statistics, but thank you for 
the moisture, whoever has been creating it. We are doing much 
better in Colorado than we had for a very long time and 
conditions have, in fact, improved.
    Let me say to the chairman, Senator Craig, I really 
appreciate the fact that you have convened this hearing, 
because it is a very important subject for all of us across the 
West, certainly very important for us in Colorado. And I think 
when you have lived through the wildfires that we have seen 
across the West and you have seen, firsthand, the tragedies 
that sometimes occur because of wildfires, that this is exactly 
the kind of thing that we ought to be doing. So my commendation 
again to our chairman. I think I am doing that two or three 
times a day on different things these days, but he is doing a 
great job.
    In Colorado, in 1994, we lost 14 men and women near 
Glenwood Springs in the Storm King Fire. Back, I think it was 2 
years ago, I was involved in prosecuting the person who started 
the Hayman Fire, near the Denver area, where there were over 
138,000 acres of forest lands that were burned there, as well 
as a lot of private property that was burned in that particular 
burn. And then in 2002, up near Estes Park, we also saw a 
slurry bomber go down with three crew members that were also 
killed. So we know from the great drought of the last several 
years in our State how important this issue is for all of us 
and the importance of addressing it in a preventive way.
    My question to you, Mr. Rey and Ms. Scarlett, is relative 
to coordination with State and local governments. At the end of 
the day, you know, the national effort cannot do it alone, and 
there has to be a tremendous coordinated effort with State and 
local fire prevention and firefighting efforts. And I would 
like just an overview of how it is that the Department is 
coordinating with the State and local governments on this 
issue.
    Ms. Scarlett. I will tackle that first, if I might. There 
are a number of things that we have underway. Let me first 
thank you for the observation. We fully agree that it is 
critically important that we work better and better with the 
State and local entities.
    The Department of the Interior, recognizing that, has 
actually incorporated into its preparedness plan this year 
special training for local firefighting folks, so that we can 
both enhance their ability to fight wildland fires alongside of 
us and have the same kind of training that our Federal people 
have. So that is a priority for us.
    Second, we had reference to the interoperability issues and 
the technical issues. We have underway, working with State and 
local governments, efforts to have a common incident reporting 
system and then, secondly, working on better communications 
interoperability, which has been a very significant impediment 
identified by local governments in the past.
    So both on the training front and on the interoperability 
front, we have efforts underway to make that a more seamless 
collaborative effort.
    Senator Salazar. And are you comfortable then, Ms. 
Scarlett, with respect to that level of coordination that 
currently exists, as we look at the season ahead, that if I 
were to ask local governments how you are coordinating with 
them, that I would get back the response that they would say 
the Feds are doing everything right in the way that we like to 
see it done?
    Ms. Scarlett. I would always like to say that improvement 
is a journey, not a destination. I am sure there are more 
things that we can still do better.
    We have significantly enhanced training, and we did, for 
the first time 2 years ago, sign, with the International 
Association of Fire Chiefs, a memorandum of understanding. That 
was a first-time-ever agreement that we signed with them, 
again, with the idea of getting some common agreement on what 
kinds of training would be needed and to work with them. So I 
think if you were to ask them, what you would hear back is that 
progress has been made, but there certainly is more to do, and 
I would say especially on the technical interoperability side.
    Senator Salazar. Is the technical interoperability effort, 
which is, I think, a necessity for us to be able to have the 
right kind of communication--are there technical challenges 
there with respect to the funding of equipment to achieve 
interoperability, or is it more a question of training?
    Ms. Scarlett. The issue is not so much a funding issue as 
it is a matter of local governments and Federal agencies using 
different communications equipment, in some instances, 
different kinds of telecommunications.
    So we are working on a wildfire enterprise architecture. 
That is a fancy terminology meaning that we are trying to 
identify certain equipment standards and then try to achieve 
better alignment so that our communications technology can 
speak with their communications technology.
    So it is not so much a funding issue as it is getting 
common standards and common understanding of how our systems 
can work together.
    Senator Salazar. I know my time is up, but just a comment. 
I think that is a very important challenge for you to make sure 
that you prioritize, because I know from my experience in law 
enforcement, including the response that we had at the 
Columbine killings back on April 20, 1999 in Colorado, that the 
most significant problem we had in the response was that we 
could not have--the jurisdictions simply were not able to 
communicate with each other. And I am sure that was the 
challenge that we faced there. It is also a challenge that you 
face on the firefighting front. Thank you very much.
    Senator Craig. Ken, thank you.
    Mr. Rey. If I could just add something for the record.
    Senator Craig. Please.
    Mr. Rey. We do have agreements with all Western States and 
most Eastern States for integrated command systems and 
cooperative firefighting efforts. Within the last week, there 
has been an article from a fire in South Dakota, and one from 
California, where local firefighters are commenting on the 
increased level of cooperation between Federal, State and local 
firefighting organizations. So I will submit those for the 
record.*
---------------------------------------------------------------------------
    * The articles can be found in the appendix.
---------------------------------------------------------------------------
    Senator Craig. Thank you.
    Ms. Nazzaro, let me ask you a question, if I might, in 
relation to reading through the Government Accountability 
Offices report 05-147 on wildland fire management. It is my 
sense that the Government Accountability Office believes the 
agencies need to tell Congress how much money it will take to 
implement a cohesive strategy. I also believe they need to tell 
us how long it will realistically take to implement that plan, 
given various funding levels. Did your staff find any 
information during its investigation to suggest what those 
costs might be--that would be one question--or how long it will 
take to truly reduce the condition of class 3 fire risk areas 
to a lower condition class level?
    Ms. Nazzaro. Yes. And we agree with you. What we are 
advocating is that they develop a cohesive long-term strategy 
that would give you various options with the associated 
funding.
    But in the short term, we identified two different studies. 
One was an interagency study that the agencies did, where they 
made an estimate that for fuel reduction, they would have to 
triple their budget to $1.4 billion. They came up with eight 
different options and associated costs and that was their 
estimate. That report was done in 2002 and has not been 
officially released or adopted. It is our understanding it is 
with the Office of Management and Budget for review. You may 
want to ask the agencies for any more current update on that.
    The study said that basically they needed that increase for 
a period of a few years to start reducing the fuels through the 
fuel reduction program. Long term, they were estimating it 
would take, though, about 15 years to really see the risks 
reduced as far as fire management.
    The second study that we came across was one done by the 
National Association of State Foresters. That was done in June 
2002. Basically it was very similar. Their cost estimate was 
2\1/2\ times the current budget or a little over $1 billion.
    Senator Craig. Okay. Any response to Ms. Nazzaro's 
observation?
    Mr. Rey. Only to respond that those numbers are now fairly 
dated. Our budget this year was $867 million for this activity. 
So obviously we are substantially higher than we were when 
these numbers were developed.
    Ms. Scarlett. I would add that as we have done more and 
more of these fuel reduction projects, we are trying to move 
toward not simply counting acres, but looking at actual risks 
reduced. And our LANDFIRE program that I mentioned in my 
testimony, which is getting us vegetation information, is 
enabling us to better place our fuels reduction projects in a 
more strategic fashion. That obviously allows us, therefore, to 
have each dollar have a greater bang for the buck. So, again, I 
think that time and experience has perhaps transcended those 
numbers of several years ago.
    Senator Craig. Thank you.
    Jim, maybe you and Kirk, together, can respond to this. 
First of all, let me thank you for your continued public 
service and for lending your expertise and wisdom to the 
findings of the large fire cost containment report.
    The first recommendations were to allocate suppression 
funding on a regional basis. You have talked about that some, 
to allow regions to hold on to the savings to be used for other 
fire-related projects and to establish a special relief for a 
region for mega or extreme fires. Fascinating concept. You 
caught my attention with that one. How has it been received 
here in Washington by the planners at the Department of 
Agriculture and at the Department of the Interior?
    Mr. Caswell. Mr. Chairman, not with great glee, I have to 
say. I mean this is kind of a radical idea, and then there are 
a lot of complications.
    I mean we recognize, the panel recognizes, this would take 
some pretty heavy lifting, and it would probably take some 
legislation. And we did not look into all of those issues and 
how that might work. That really was not our charge.
    There have been some folks from both Ag and Interior who 
have, in fact, looked at this. They have thought through the 
complications, and we at Wildfire Leadership Council have 
adopted it with some caveats.
    The Forest Service is--and we will hear about this next 
month, as I indicated, but the Forest Service is going to do a 
paper test to see this year, if this had been in place, with 
some assumptions included, what would have been the result. 
Maybe that will give us some insight into the pros and cons of 
moving forward.
    Interior has been, at least at the agency level, more 
reluctant to take it on. They think that--I think they believe, 
quite frankly, they are already there in a lot of cases, 
particularly the Bureau of Land Management. Now that is my 
feeling about this in talking to some of the Bureau of Land 
Management people. I don't know if Kirk wants to add anything.
    Mr. Rowdabaugh. Certainly it was clear during the 
investigation of the panel that the field of incentives and 
disincentives for the line officers who make the cost decisions 
for any particular fire is certainly skewed right now for them 
to minimize the risks of them personally and to the local 
conditions on the ground at the expense of the overall 
suppression. For the line officer on the ground that makes the 
day-to-day decisions about how much money any particular fire 
is going to be allocated, there are no opportunity costs to 
that line officer.
    It costs them nothing, personally, to expend these funds, 
and yet if they do not, they run great risks, personally, if 
they fail. And we had hoped through this recommendation to 
begin to change that dynamic so that the individual Federal 
line officer who makes these important decisions actually has a 
stake in the outcome.
    Senator Craig. Well, thank you for thinking outside the 
box. It rarely happens in this community, and, Jim, you are to 
be a credit. You used to be one of us and now you are outside, 
thinking outside the box, and we greatly appreciate it.
    I do not know that any of us have considered incentivizing 
firefighting costs or firefighting. Incentivizing in almost 
every other area has a result. Usually it tends to achieve what 
it is directed toward.
    Mark and Lynn, have you given this any thought, and were 
you part of that not so well received group?
    Mr. Rey. No, I do not think so, but Jim correctly 
identified this as the showstopper among their recommendations.
    One of the things Senator Bingaman mentioned is that he was 
dissatisfied that he had not heard more about the disposition 
of these recommendations. And what I want to do is to submit 
for the record a one-page summary of where they all stand, 
because I think, as Jim indicated, we are moving forward on 
many of them, and this is one that we do think prudence 
suggests that we ought to model retrospectively to see how it 
would have worked.
    But consider the conversation you just had with Kirk, and 
reel back the conversation I had with Senator Cantwell and put 
the two together, because the concern over safety is one of the 
things that affects fire attack strategies.
    Sure we could be more aggressive. We could put firefighters 
out on the line in more hazardous circumstances and cut costs 
dramatically if we succeed. But at the same time, if we lost a 
crew, I am quite certain the conversation we would have 
afterward would be much different.
    So, yes, the system does not incentivize risk-taking, nor 
should it. And that is one of the places we are probably not 
going to see significant costs reduction progress being made.
    But it is one of the cost drivers, because if we were 
willing to take a significant amount of risk, a substantial 
amount of risk, almost a fool-hardy risk, we probably had one 
chance in three of stopping the Hayman Fire at about 50 acres. 
But the other two chances in three would have probably meant 
losing two fire crews that we put in an untenable situation. 
But if we had succeeded, we would have been heroes. We would 
have saved tens of millions of dollars.
    Senator Craig. Well, I can appreciate all of those 
concerns. If you had succeeded, no one would have been able to 
observe the savings made, because it would have been 
incalculable. Those are some of the realities of what we face. 
There is a reality, and the reality was discovered by the blue 
ribbon panel.
    Firefighting costs go up at or near or slightly above the 
rate of the growth of government. If that level continues, and 
we look out there 10 or 12 years longer at these kinds of 
increased fire scenarios, I am not quite sure we can sustain 
that and do so in a realistic way.
    I do not believe that action or aggressiveness necessarily 
jeopardizes individuals if the training is done effectively and 
appropriately in advance. And you just mentioned, as it related 
to the one fire, the situation of timing or someone too long on 
the line and, therefore, substantially fatigued. Those are not 
cost factors. Those are personnel factors that are realities 
that I think we all have to look at.
    But, anyway, I appreciate the thought and/or all of the 
thoughts that have come forward. And if you would for us, track 
these recommendations and the results of them. I think that 
would be tremendously valuable.
    I am going to have to run. I am going to turn the balance 
of the questioning over to Senator Murkowski. I would conclude, 
though, in an observation made by both the Senators from 
Oregon, that I understand all of these contractual problems 
that we are into. I would suggest that while we appreciate 
tough contract negotiators, my guess is that you probably ought 
to send a few of them to charm school. They have done little 
more than infuriate some of the private contractors who feel 
that they are professionals and not somebody to be browbeaten 
by a tough negotiator. I think those are circumstances that we 
all have to deal with. And, of course, the reality is there are 
two Senators from Washington and I know there are two from 
Idaho who hear about it on a regular basis.
    Mr. Rey. It is the contractors that have come to talk to me 
as well. So we are working our way through that.
    Senator Craig. I am sure they have.
    Senator Murkowski.
    Senator Murkowski [presiding]. Thank you, Mr. Chairman. I 
do not intend to keep the panel much longer. I do want to thank 
you, ladies and gentlemen, for the information you have give us 
all today. It has been very interesting as we have gone through 
some of these.
    I want to just go back to the question that we left, and I 
think we started going down one track and I got sidetracked 
with my initial point which was if the State of Alaska 
contracts with the Canadian tankers, do we have jurisdictional 
problems when we are fighting fires over Federal protection 
areas? It is at State and Federal and you are up in the air and 
whose land are we over? Has that ambiguity been cleared up?
    Mr. Rey. It has been, and I have a few more details that I 
did not have when we were trying to close on it the first time.
    Last year the State contracted with some DC-4s that we were 
not satisfied could be flown safely and are still not satisfied 
could be flown safely. And when a State has assets that we do 
not believe are safe, if we are going to be responsive to the 
National Transportation Safety Board, the typical approach is 
fly them on State fires, fly them in any circumstance where 
they are not under our control, such that we accept liability 
for their operation.
    This year, the Canadian tankers are tankers that meet the 
standards that the National Transportation Safety Board 
indicated we should have, so that issue will never emerge.
    Senator Murkowski. Okay. Good. And then very quickly, I 
alluded to the heightened fire threat on the Kenai Peninsula 
that you have outlined on the map there. As I understand, there 
is concern about what is available to fight any fires down in 
that region this summer, whether or not there would be 
availability of additional helicopters. I understand if they 
need additional fire trucks, we have to bring them up from 
outside from the lower 48.
    My question is, what are we doing to prepare for this 
year's fire season down on the Kenai Peninsula, recognizing 
that this is the area where we have the greatest spruce bark 
beetle damage anywhere in the State? It is that tinder lying to 
be lit. So what are we doing in anticipation of the fire season 
down in that area?
    Mr. Rey. What I would like to do is get the pre-positioning 
assets identified so I can show you what we are going to put in 
the Kenai when we hit fire season there. That is a combination 
of both Forest Service and Fish and Wildlife Service, as well 
as Kenai Borough land. So whatever is there will probably be 
integrated assets from the three entities.
    Senator Murkowski. Ms. Scarlett.
    Ms. Scarlett. Senator, I would like to add another 
dimension that we have not discussed and it relates also to 
your questions about the smoke challenges last year.
    The Alaska Wildland Fire Coordinating Group has actually 
been very actively reevaluating operations and procedures in 
light of some of the concerns that were raised last year, and 
held some 13 public sessions with the local communities to hear 
those concerns. As a consequence of that, we will be coming out 
with new guidance as it pertains to when we can go in with 
additional assets to mitigate smoke, for example, even if it 
was not in the original fire plan.
    As part of that Wildland Fire Coordinating Group look, we 
are also reexamining asset deployment, and when the details are 
finalized for the pre-positioning, we will get back to you on 
that. But I wanted to mention----
    Senator Murkowski. When do you expect that guidance is 
going to be ready?
    Ms. Scarlett. It should be soon.
    Senator Murkowski. You mean before the fire season?
    Ms. Scarlett. Yes.
    Mr. Rey. It will.
    Ms. Scarlett. Yes.
    Mr. Rey. Yes, by necessity.
    Ms. Scarlett. Before the fire season.
    Mr. Rey. Before the fire season.
    Senator Murkowski. Thank you.
    Ms. Scarlett. And the new guidance, and the new guidance on 
smoke management also, should be available before the new fire 
season.
    Senator Murkowski. Good. That is of critical importance and 
being very keenly followed up north.
    One last question then, and this relates to a prescribed 
burn that was set in the Glennallen area in mid-August. We had 
been dealing with all this smoke up north all summer long and 
then you wake up one morning in Anchorage, and you can't see 
across the street. We learned that a prescribed burn had been 
set. There is still some discussion about whether or not what 
we were experiencing in Anchorage was smoke from the Glennallen 
prescribed burn or whether it was smoke that had traveled down 
from the interior.
    My question to you is what kind of communication goes out 
from your agencies to the local communities that might be in 
the path of any smoke that is coming their way so that folks 
know that this is going to happen, because it took the entire 
south central region by surprise?
    Ms. Scarlett. I am not familiar with the particular 
incidence of the prescribed burn that you mentioned. However, 
it is normal procedure when we are doing a prescribed burn that 
our agencies work very closely with the local communities and 
the local authorities to alert them both to the fact that a 
prescribed burn would be occurring.
    Also, as Mark Rey mentioned earlier, typically before we do 
a prescribed burn, we would be looking at wind conditions and 
so forth. But I can look into the particular----
    Senator Murkowski. And as soon as we are smarter than the 
wind and Mother Nature, you let me know.
    Ms. Scarlett. But I will look into this particular instance 
and see whether proper communications did not occur.
    Senator Murkowski. I know that that was an issue that was 
presented to us, and as they were going through the after 
review of the fires, that was something that certainly my 
constituents had hoped would be contained as part of that 
review.
    If you are going to do a prescribed burn while we have all 
of these wildfires going on, let people know, A, and B, make 
sure that if the winds do shift, which is what happened in this 
case, you do not get that cumulative effect to the communities 
that really is pretty devastating.
    With that I thank all of the panelists for joining us this 
afternoon, and thank you for your good work. We are adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

    Responses to the following questions were not received at 
the time the hearing went to press.

         Committee on Energy and Natural Resources,
                  Subcommittee on Public Lands and Forests,
                       U.S. Senate, Washington, DC, April 29, 2005.
Hon. Mike Johanns,
Secretary, Department of Agriculture.
    Dear Mr. Secretary: I would like to take this opportunity to thank 
you for sending Mr. Mark Rey to appear before the Subcommittee on 
Public Lands & Forests of the Senate Committee on Energy and Natural 
Resources on April 26, 2005, to give testimony regarding the upcoming 
fire season.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by May 18, 2005.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                            Larry E. Craig,
                                             Subcommittee Chairman.
[Enclosure.]
                      Questions From Senator Craig

                       AIRCRAFT RELATED QUESTIONS

    We spent an additional $60 million last year to settle the multi-
engine heavy retardant aircraft contracts that were terminated by the 
government and to pay for the additional helicopters and SEATs aircraft 
needed to cover for the loss of those aircraft.
    Question 1. Compared to 2003, how much additional funding is it 
likely to be needed this year to maintain the coverage that will be 
needed to make up for the loss of the 34 heavy bombers that agencies 
refused to contract with?

                               FIRE COSTS

    According to the end of year statistics on acres burned and costs 
of the suppression efforts, most of the acres are burned on private 
land yet the Forest Service was responsible for 72% of the total cost 
of fire suppression.

                                              2004 FIRE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                               Acres
                          Agency                               Burned     Percent   Suppression Costs   Percent
----------------------------------------------------------------------------------------------------------------
BIA.......................................................       71,292      1%           $63,452,000      7%
BLM.......................................................    1,305,707     16%          $147,165,000     17%
FWS.......................................................    2,099,403     26%            $7,979,000      1%
NPS.......................................................       42,352      1%           $34,052,000      4%
State/Other...............................................    4,026,811     49%
FS........................................................      551,966      7%          $637,585,000     72%
----------------------------------------------------------------------------------------------------------------

    Question 2. In terms of federal land fire fighters that are red-
card certified, what percent come from each agency? Are 72% of the 
federal fire fighters Forest Service employees?
    Question 3. Could you provide us with the following data: what 
percent of the total employees in each agency are red-card certified 
for this year?
    Question 4. How does that compare with the state agencies that 
provide land management and fire fighting services?
    Question 5. We are seeing changes in Forest Service contracting for 
aerial and ground equipment. At times it appears from afar that the 
contracting officers may be driving policy, rather than the policy 
makers driving policy.
    I have been told that the national contract for fire engines has 
been eliminated and that regions are using either the national contract 
template or the Emergency Equipment Rental Agreement. What steps are 
being taken to ensure that contract engines are properly equipped, 
their crews are adequately trained, and the agency is getting the best 
value?
    Question 6. Can you assure us that from region to region we will 
get a uniform application of the contracts?
    Question 7. Does the agency plan on ordering called-when-needed 
aircraft through exclusive-use contracts? I see a statement in your 
Fire and Aviation Management Bridge Plan talking points (dated April 7 
2003) that said: ``Six Type I helicopters have been contracted. 
Converting to Call When Needed (CWN) contracts to exclusive use is an 
option and will result in significant cost savings if these ships are 
needed. ``(emphasis added). What is agency policy regarding call-when-
needed aircraft?
    Question 8. It is becoming more common to see private fire 
suppression crews on federal land fires.
    How do you see contract fire suppression forces fitting into 
overall agency fire preparedness? What are your plans for utilization 
of contract crews and engines?
    Question 9. There has been considerable speculation about the 
availability of qualified incident commanders following investigations 
of the Cramer and Thirtymile fires and the passage of Public Law 107-
203, requiring Agriculture Inspector General's investigations of Forest 
Service firefighter fatalities. In your opinion, have these events had 
any impact on the willingness of firefighters to achieve and maintain 
their Type III Incident Commander qualifications?
    Question 10. Can you have your staffs provide our Committee with a 
year to year analysis from 1990 until 2004 of the number of people from 
the federal agencies and state agencies that were red card qualified as 
Type I, Type II or Type III incident commanders?
    Please help us understand how many people on average retire or drop 
their red card in each year. Has the rate of attrition increased since 
2000?
    Question 11. I need you to help us better understand where we are 
on aerial assets and contracts of both helicopters and fixed-winged 
aircraft.
    Last year in response to the decision to cancel the fixed-winged 
heavy retardant contracts you asked a number of companies to add 
helicopters to their exclusive use contracts. In the past these extra 
helicopters would have been obtained through called-as-needed 
contracts.
    How many and what types of heavy retardant aircraft do you have 
under contract for this season?
    Question 12. Do you have all the available and certified heavy 
aircraft under contract?
    Question 13. The rumor is that the folks that are doing the service 
life analysis on the P-2V Neptunes need 700 more hours of flight data 
from the two P-2V's, that flew last year and are under restricted 
contracts this year, before they can complete their work. Is there any 
truth to that rumor? When will the service life analysis on the P-2V 
aircraft be completed?
    Question 13a. How about the Douglas DC-6 and 7 aircraft, when will 
that service life contract be completed?
    Question 14. How many and what types of helicopters do you have 
under contract? How many are under exclusive use contracts and how many 
are under called-as-needed contracts?
    Question 15. How many Single Engine SEATs aircraft do you have 
under contract? What percent are under exclusive use contracts and how 
many are under called-as-needed contracts?
    Question 16. How do the numbers of called-as-needed contracts this 
year compare to the numbers you had for the Heavy Retardant multi-
engine planes, helicopters (heavy-lift, medium and light), and single-
engine SEATs aircraft contracted in 2000?
    Question 17. What is the annual cost of staffing and maintaining 
USFS Air Tanker Bases?
    Question 18. What is the annual cost of staffing and operating 
heliports and spotters for Helicopter bucket drops on the federal land 
fires?
    Question 19. What is the cost of training, maintaining, and 
operating the Lead Plane program for large Air Tankers?
    Question 20. If lead planes are required for fixed wing retardant 
aircraft, are they also required for Type I helicopters that are 
dropping retardant, if not why not?
    Question 21. When combined (operational cost of USFS Air Tanker 
Bases and the Lead Plane program) what is the cost of the Air Tanker 
program per Gallon of product delivered?
    Question 22. When combined (operational cost of heliports and 
spotters and lead planes if used with helicopters) what is the cost of 
the helicopter program per gallon of product delivered?
    Question 23. Where are the hidden cost of the Air Tanker program, 
Air Tanker Base maintenance, Lead Plane program cost, Retardant Cost, 
and aircraft flight time, accounted for and reported?
    Question 24. Where are the hidden cost of the helicopter program, 
heliports, helicopter inspection, contract costs, administration of 
contract costs, heliport construction and operation, spotters or other 
federal employees needed to ensure the safe operation of helicopters on 
federal fires, accounted for and reported?
    Please provide these costs and answers to these questions for Type 
I, Type II and Type III helicopters and the SEATs and heavy retardant 
aircraft.

                    Question From Senator Murkowski

    Question 1. Following the 2004 season, Mayor Jim Whittaker and the 
Fairbanks North Star Borough Assembly appointed a commission of three 
outstanding citizens to conduct their own independent review of the 
wildfire response. Many of the recommendations contained in the report 
are directed to the federal government as well as the State. There are 
22 recommendations in the report of the Fairbanks North Star Borough 
Wildfire Commission. I would ask the Department of the Interior and the 
Forest Service to respond to each of the recommendations for the 
record.

                      Questions From Senator Burns

    Question 1. How far along is the Department of Agriculture in 
implementing the cost management reports, especially those related to 
local and tribal governments for initial attack closest forces?
    Question 2. National Fire Plan Funding. What is the expected 
Maximum Efficient Level (MEL) funding we can expect for the 2005 fire 
season?
    Question 3. I realize prescribed fire may be cheaper to do and you 
can treat more acres. I believe we still need to treat some acres 
mechanically due to the fuel location in the wildland-urban interface 
and to provide some wood to our small mill operators. What efforts are 
being made to balance prescribed burning and mechanical treatment of 
hazardous fuels?
    Question 4. What are the alternatives to meeting our federal 
partner commitments to Tribal, state, and local agencies for fire 
suppression assistance with the proposed funding reductions?
    Question 5. Not only are you reducing funding for noxious weeds in 
the restoration funding, but also in your resource budgets? How do you 
expect to maintain the gains we've made in noxious weed control if we 
stop funding it?
    Question 6. Are we still on track for a June completion date for 
the P-2V aircraft?

                      Questions From Senator Smith

    Question 1. I understand that the USFS has indicated its desire to 
test the 747 Supertanker. I also understand that the agency has been 
presented with a proposal requesting their contracting department to 
commence discussions with the contractor so the testing process can 
move forward as soon as possible. Please comment on the current state 
of testing for the 747 Supertanker.
    Question 2. Given that the USFS has formulated both an Exclusive 
Use contract and a Call-When-Needed contract, what, precisely, is the 
USFS position regarding the appropriate use of each type of contract?
    What does the USFS consider ``sufficient notice'' to industry of 
Exclusive Use contracts for Type 1 helicopters for the coming fire 
season?
    Question 3. In 2003 and 2004, how many acres in Region 6 were 
mechanically treated for hazardous fuels, versus through controlled 
burn. On how many acres was the Condition Class of the stand actually 
changed?
    Question 4. Will Type I helicopters again be contracted by 
``Emergency Authority'' and not by standard federal acquisition 
procurement processes?
    Question 5. The USFS currently has six Type I helicopters on 
Exclusive Use Contract. Are these aircraft enough to support the 
agency's needs without relying on ``Call When Needed'' aircraft?
    Question 6. Why does the USFS not contract and manage Type I 
helicopters in the same manner as large airtankers?
    Question 7. Taxpayer funds are being used to install Traffic 
Collision Avoidance Systems on exclusive use airtankers. Why are Type I 
helicopters being required to install Automated Flight Following 
equipment, with no financial assistance and with no guarantee that the 
aircraft will actually be used?

                    Questions From Senator Bingaman

    Question 1. For each unit of the National Forest System and each 
Department of the Interior management unit where fire is a major 
component of the natural forested ecosystem, please provide the number 
of burnable acres within the unit, whether Wildland Fire Use currently 
is permitted on that unit, and the maximum number of acres for which 
Wildland Fire Use currently is permitted.
    Question 2. Please provide the committee with a detailed status 
report on and plan for the implementation of each of the seven key 
recommendations made in the Large Fire Suppression Cost Report.
    Question 3. In which months will the agencies provide to Congress 
(1) a joint tactical plan and (2) a cohesive strategy that identifies 
long-term options and needed funding for reducing and maintaining 
fuels, as described in the GAO's recent Wildland Fire Management 
report?
    Question 4. Please provide a description of the agencies' long-term 
strategy for the aerial fire suppression fleet.
    Question 5. What was the average cost per acre of mechanical fuel 
treatments, prescribed burns, emergency wildfire suppression, and 
Wildland Fire Use on National Forests in FY 2004.
    Question 6. The Large Fire Suppression Cost report refers to the 
important role of sample ordinances and examples of wildland fire 
policies and planning documents in minimum levels of WUI protection 
(see p. 28). Is there a clearinghouse that provides local governments, 
homeowner associations and the like with examples of or models for 
guidance or requirements for protecting structures from wildfire?

                    Questions From Senator Feinstein

    According to Mr. Caswell, the Strategic Panel on Fire Suppression 
Costs found that, and I quote, ``a paradigm shift in thinking about 
hazardous fuel reduction effectiveness is required and can be started 
by ceasing to use acres treated as a `results' measurement for program 
accomplishments.''
    I share his concern that fixating on ``acres treated'' can lead the 
agencies to focus simply on the cheapest acres, regardless of how 
effective the treatments are.
    Question 1. Can you respond to and address these concerns?
    I would like to emphasize the importance to California of the 
absolute need to have a large and diverse fleet of firefighting 
aircraft. We know we're going to have a bad fire year sooner or later, 
and we need a fleet that can respond quickly on the initial attack when 
that year comes.
    Question 2. You say in your testimony that the Forest Service and 
Interior, and I quote, ``have initiated a long-term plan for aviation 
resources.'' What steps have you taken? When will the plan be submitted 
for Congressional review? Does Congress need to start budgeting 
additional money for this need now?
    You relied extensively on helitankers and other helicopters for 
fighting fires last year.
    Question 3. Do you agree with me that it would be better to have a 
more diverse fleet of aircraft? In particular, aren't the large 
airtankers better at responding to numerous and distant fires on the 
initial attack?
    It's now been one and a half years since the disastrous Southern 
California fires of October 2003. The Forest Service has made a lot of 
progress, but I understand that we still have work to do to remove 
hazardous fuels and protect communities, particularly in the bark-
beetle killed areas.
    Question 4. Can you give me a status report, and tell me where we 
need more funding to get needed work done?
    I understand that the Western Governors' strategic panel 
recommended that the federal agencies, and I quote, ``Engage 
communities and property owners in creating defensible space around 
structures.''
    Question 5. Do you believe that California's Fire Safe program is 
an effective way to engage communities in hazardous fuels reduction? Is 
this a cost-effective strategy for the federal government, given the 
significant local matching grants?

                    Questions From Senator Cantwell

    Question 1. Mr. Rey, the Northwest Forest Pass, created under the 
Fee Demo program, currently brings in more than one million dollars 
each year to trails in Washington state. Local forests, which have seen 
their recreation budgets decline dramatically over the past decade, 
have come to depend upon these funds to take care of basic maintenance 
and operations needs.
    How will the new fee regime, created under the Federal Lands 
Recreation Enhancement Act, ensure that this important source of trail 
funding is preserved?
    Or, if the Northwest Forest Plan does not continue in its current 
form, how will the agency cover the cost of maintaining its trail 
system?
    Question 2. Mr. Rey, as you know, funds shifted within the Forest 
Service at the national level magnify exponentially as they filter down 
through the regions to local forests, especially as the agency covers 
its various overhead and management expenses.
    Given the President's proposed flat budget for Forest Service 
recreation funding, what do you anticipate to be the actual impact to 
recreation budgets at the forest level?
    Likewise, the President has proposed a 16 percent cut to the 
agency's Capital Improvement and Maintenance/Trails (CIMT) account. 
After adjusting for agency and overhead costs, for every dollar 
delivered to a Washington forest in 2005, how many cents will they see 
in 2006?
    Question 3. Mr. Rey, I understand that the individual regional 
Forest Service requests for LWCF funding to acquire in-fill parcels for 
the Pacific Crest National Scenic Trail total $5 million. All of these 
acquisitions are from willing sellers and will allow trail relocation 
off the roadway for safety reasons and to protect the trail from 
intense development pressures.
    Please explain why the President's budget request does not follow 
the recommendations of the regional Forest Service offices.
    Question 4. Mr. Rey, as you know the Forest Service is currently 
considering comments to its proposed changes to the landmark 2001 
Roadless Area Conservation Rule.
    Please provide me with an update on this process and when you think 
it will be completed.
    What is the total number of comments received on this draft 
rulemaking? How many of those comments were from Washington state? Can 
you provide a preliminary analysis of those comments?
    Question 5. Mr. Rey, the proposed changes to the Roadless Rule 
would provide governors with an unprecedented roll in determining the 
use of federally owned lands.
    Is there any historic or regulatory precedence for state officials 
deciding how federal lands should be managed?
    Is the Department of Interior concerned about how this dynamic 
could alter the use of other federally owned public lands?
    Do you envision providing state agencies with federal resources to 
take on these tasks?
    Mr. Rey, I understand that under the draft rule the Forest Service 
still retains all the final decision-making authority. Is it true that 
the Forest Service can still turn down any or all Governors' requests 
for roadless area protections?
    Question 6. Mr. Rey, I am concerned about the fiscal implications 
of the proposed changes to the Roadless Rule.
    What does the Forest Service estimate it will cost to begin a new 
state-by-state rulemaking process?
    How will the proposed rule change affect the existing multi-
billion-dollar road maintenance backlog?
    Please update me on the state of the road maintenance backlog, 
including an estimation of its overall cost and an explanation of how 
these figures were derived.
    How does the President's FY 2006 budget request propose to deal 
with this vital issue?
    Question 7. Mr. Rey, as you know, the issue of USFS firefighter 
safety has been an issue that I have paid very close attention because 
of a horrible tragedy. On July 10, 2001, near Winthrop in Okanogan 
County, in the midst of the second worst drought in the history of our 
state, the Thirtymile fire burned out of control.
    Four courageous young firefighters were killed. Their names:

          1. Tom Craven, 30 years old;
          2. Karen FitzPatrick, 18;
          3. Jessica Johnson, 19;
          4. and Devin Weaver, 21.

    Sadly, as subsequent investigations revealed, these young men and 
women did not have to die. In the words of the Forest Service's own 
report on the Thirtymile fire, the tragedy ``could have been 
prevented.'' At that time, I said that I believe we in Congress and 
management within the firefighting agencies have a responsibility to 
ensure that no preventable tragedy like Thirtymile fire ever happened 
again.
    Yet, I'm deeply saddened by the fact that it's clear we haven't 
done enough.
    In July 2003--two years after Thirtymile--two more firefighters 
perished, this time at the Cramer Fire within Idaho's Salmon-Challis 
National Forest. Jeff Allen and Shane Heath were killed when the fire 
burned over an area where they were attempting to construct a landing 
spot for firefighting helicopters.
    After the Thirtymile Fire, the Occupational Safety and Health 
Administration (OSHA) conducted an investigation and levied against the 
Forest Service five citations for Serious and Willful violations of 
safety rules. It was eerie, when OSHA concluded its investigation of 
Cramer. The result: another five OSHA citations, for Serious, Willful 
and Repeat violations. Reading through the list of causal and 
contributing factors for Cramer and putting them next to those 
associated with the Thirtymile fire, I was struck by the many 
disturbing similarities. Even more haunting are the parallels between 
these lists and the factors cited in the investigation of 1994's South 
Canyon Fire on Storm King Mountain in Colorado. It's been ten years 
since those 14 firefighters lost their lives on Storm King Mountain--
and yet, the same mistakes are being made over and over again.
    These facts have also been documented by an audit and memorandum 
issued by the Department of Agriculture's Inspector General. The IG 
found that ``while there were many factors common to all three fires, 
the most important was a failure by [Forest Service] fire suppression 
personnel to establish fire safety rules and guidelines and to exercise 
acceptable supervision and judgment.'' The audit also stated 
``accidents on the South Canyon, Thirtymile, and Cramer Fires, all of 
which involved fatalities, could have been avoided if certain 
individuals had followed standard safety practices and procedures in 
place at the time.'' Lastly, the IG noted that the Forest Service ``has 
not timely implemented actions to improve its safety programs.''
    Despite these critical issues, how do you explain reductions in the 
USFS-preparedness budget?
    What specific steps are you taking to ensure that our wildland 
firefighters and those that manage them during firefighting, are 
getting the training and equipment they need as we head to another 
challenging fire season in my state and throughout the West?
    Can you clearly identify how much many will be spent on 
preparedness within each region of the Forest Service--including within 
my State of Washington?
    Question 8. Mr. Rey, the USFS conducted an internal investigation 
following the Thirtymile fire. Unfortunately, much of that information 
was redacted when the report was released in May 2002. I believed then, 
and continue to believe, that the Forest Service over-reached--claiming 
``deliberative process privilege'' as the reason it won't release any 
more. Deliberative process privilege is what agencies claim when they 
want to reject FOIA requests. It is clear that it is within the 
agency's discretion to release a less redacted version of the report 
itself.
    Can you please explain your reasoning that this material, so 
important to the families of the four victims, has been redacted and is 
considered ``deliberative process privilege''?
    Question 9. In the context of homeland security, communications 
interoperability is defined as the ability of public safety agencies to 
talk across disciplines and jurisdictions via radio communications 
systems, exchanging voice and/or data with one another on demand, in 
real time, when needed and as authorized. Local, state, and federal 
employees as well as contractors fighting forest fires face many of the 
same communications challenges confronting first responders. 
Additionally, many forest fires occur in remote locations where there 
is limited or no communications infrastructure in place to connect to.
    How does the Forest Service and the Department of the Interior 
ensure that those fighting forest fires can communicate with each other 
in all locales and under all conditions?
    Is lack of interoperability between government owned and contractor 
owned communications equipment a concern? If so, how is this being 
addressed?
    A percentage of contractors fighting any given fire may not be 
native English speakers and have an extremely limited understanding of 
English. How does the Forest Service and the Department of the Interior 
ensure that these individuals can receive vital communications?
    Question 10. A number of my constituents have voiced a concern 
about the lack of fairness in the spending of funds authorized by the 
Healthy Forests Restoration Act in the State of Washington.
    Please provide me with a detailed list of projects that have 
started in my State since the passage of the Healthy Forests 
Restoration Act. Within that inventory, please note which projects are 
taking place within the Wildland Urban Interface and what communities 
are being protected.
    Has your Forest Service recreation site maintenance back log grown 
over new funding needs mandated by the Healthy Forests Restoration Act?
                                 ______
                                 
         Committee on Energy and Natural Resources,
                  Subcommittee on Public Lands and Forests,
                       U.S. Senate, Washington, DC, April 29, 2005.
Hon. Gale Norton,
Secretary, Department of the Interior.
    Dear Madam Secretary: I would like to take this opportunity to 
thank you for sending Ms. Lynn Scarlett to appear before the 
Subcommittee on Public Lands & Forests of the Senate Committee on 
Energy and Natural Resources on April 26, 2005, to give testimony 
regarding the upcoming fire season.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by May 18, 2005.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                            Larry E. Craig,
                                             Subcommittee Chairman.
[Enclosure.]

                      Questions From Senator Craig

    It is becoming increasingly clear that the fires that we are 
experiencing are getting more costly; and fire preparedness, 
suppression, and emergency rehabilitation is going to consume more and 
more of the land management agencies' budgets. I believe we will be 
impacting all land management agencies' ability to carry out the other 
land management they are tasked with.
    We hear from some states that half of their employees are called 
away on federal fires each summer, while they perceive that only 15 to 
20% of the federal land management agencies' employees are 
participating in fire fighting. Further, they believe that the federal 
land fire fighters do not spend as much time on state and private land 
fires as their employees spend on federal fires. I have a couple of 
questions.
    Question 1. Looking at last year's data it looks to me like the 
Department of the Interior spent about $70 per acre on fires on lands 
they are expected to manage, while the Forest Service expended about 
$1,155 per acre. Can you help me understand what your agencies are 
doing differently from the Forest Service?
    Question 2. If we are asking the states to send as many people as 
they do to federal land fires, and spend as much time as they do, what 
kind of assistance should the federal land management agencies provide 
the states to ensure the state agencies do not fall behind on their 
normal work?
    Question 3. I want you to understand how important the state timber 
sale programs have become in states like Oregon, Washington, Idaho and 
Montana. They have taken up the slack for the complete breakdown of the 
federal timber sale programs. Do you think it is fair for the federal 
government to walk away from its timber sale program and demand the 
states to send more people, to spend more time on federal fires, at the 
expense of other important programs on those state lands?
    Question 4. What are you going to do to ensure a larger percent of 
federal land management agencies' employees help fight these fires?
    Question 5. Over time you are going to be asking the contractors to 
improve the technology in their aircraft. Better seatbelts, digital 
radios, and instrumentation to measure stress and metal fatigue have 
all come up in the recent past. Can you assure us that the people in 
fire and aviation will be developing the policy, not your contracting 
officers?
    Question 6. Also I am concerned that the agencies have paid for 
some upgrade for the fixed winged aircraft, but not always for the 
helicopter companies. Can you help us understand how those decisions 
are made?

                       AIRCRAFT RELATED QUESTIONS

    We spent an additional $60 million last year to settle the multi-
engine heavy retardant aircraft contracts that were terminated by the 
government and to pay for the additional helicopters and SEATs aircraft 
needed to cover for the loss of those aircraft.
    Question 7. Compared to 2003, how much additional funding is it 
likely to be needed this year to maintain the coverage that will be 
needed to make up for the loss of the 34 heavy bombers that agencies 
refused to contract with?

                               FIRE COSTS

    According to the end of year statistics on acres burned and costs 
of the suppression efforts, most of the acres are burned on private 
land yet the Forest Service was responsible for 72% of the total cost 
of fire suppression.

                                              2004 FIRE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                               Acres
                          Agency                               Burned     Percent   Suppression Costs   Percent
----------------------------------------------------------------------------------------------------------------
BIA.......................................................       71,292      1%           $63,452,000      7%
BLM.......................................................    1,305,707     16%          $147,165,000     17%
FWS.......................................................    2,099,403     26%            $7,979,000      1%
NPS.......................................................       42,352      1%           $34,052,000      4%
State/Other...............................................    4,026,811     49%
FS........................................................      551,966      7%          $637,585,000     72%
----------------------------------------------------------------------------------------------------------------

    Question 8. In terms of federal land fire fighters that are red-
card certified, what percent come from each agency? Are 72% of the 
federal fire fighters Forest Service employees?
    Question 9. Could you provide us with the following data: what 
percent of the total employees in each agency are red-card certified 
for this year?
    Question 10. How does that compare with the state agencies that 
provide land management and fire fighting services?

                    Question From Senator Murkowski

    Question 1. Following the 2004 season, Mayor Jim Whittaker and the 
Fairbanks North Star Borough Assembly appointed a commission of three 
outstanding citizens to conduct their own independent review of the 
wildfire response. Many of the recommendations contained in the report 
are directed to the federal government as well as the State. There are 
22 recommendations in the report of the Fairbanks North Star Borough 
Wildfire Commission. I would ask the Department of the Interior and the 
Forest Service to respond to each of the recommendations for the 
record.

                      Questions From Senator Burns

    Question 1. How far along is the Department of the Interior in 
implementing the cost management reports, especially those related to 
local and tribal governments for initial attack closest forces?
    Question 2. National Fire Plan Funding. What is the expected 
Maximum Efficient Level (MEL) funding we can expect for the 2005 fire 
season?
    Question 3. I realize prescribed fire may be cheaper to do and you 
can treat more acres. I believe we still need to treat some acres 
mechanically due to the fuel location in the wildland-urban interface 
and to provide some wood to our small mill operators. What efforts are 
being made to balance prescribed burning and mechanical treatment of 
hazardous fuels?
    Question 4. What are the alternatives to meeting our federal 
partner commitments to Tribal, state, and local agencies for fire 
suppression assistance with the proposed funding reductions?
    Question 5. Not only are you reducing funding for noxious weeds in 
the restoration funding, but also in your resource budgets? How do you 
expect to maintain the gains we've made in noxious weed control if we 
stop funding it?
    Question 6. Are we still on track for a June completion date for 
the P-2V aircraft?

                    Questions From Senator Bingaman

    Question 1. For each unit of the National Forest System and each 
Department of the Interior management unit where fire is a major 
component of the natural forested ecosystem, please provide the number 
of burnable acres within the unit, whether Wildland Fire Use currently 
is permitted on that unit, and the maximum number of acres for which 
Wildland Fire Use currently is permitted.
    Question 2. Please provide the committee with a detailed status 
report on and plan for the implementation of each of the seven key 
recommendations made in the Large Fire Suppression Cost Report.
    Question 3. In which months will the agencies provide to Congress 
(1) a joint tactical plan and (2) a cohesive strategy that identifies 
long-term options and needed funding for reducing and maintaining 
fuels, as described in the GAO's recent Wildland Fire Management 
report?
    Question 4. Please provide a description of the agencies' long-term 
strategy for the aerial fire suppression fleet.
    Question 5. The Large Fire Suppression Cost report refers to the 
important role of sample ordinances and examples of wildland fire 
policies and planning documents in minimum levels of WIJI protection 
(see p. 28). Is there a clearinghouse that provides local governments, 
homeowner associations and the like with examples of or models for 
guidance or requirements for protecting structures from wildfire?

                    Question From Senator Feinstein

    Question 1. Both Mr. Caswell's Strategic Costs Panel and the GAO 
have emphasized we need better focus on treating the most cost-
effective acres. The GAO and the federal agencies also seem to agree 
that completing the LANDFIRE mapping system is an excellent way to 
guide our fuel reduction efforts.
    I understand from your testimony that LANDFIRE is scheduled for 
implementation in the West by 2006. Can you assure me that the West 
will be fully mapped by the end of next year?
                                 ______
                                 
         Committee on Energy and Natural Resources,
                  Subcommittee on Public Lands and Forests,
                       U.S. Senate, Washington, DC, April 29, 2005.
Mr. Jim Caswell,
Office of Species Conservation, Boise, ID.
    Dear Mr. Caswell: I would like to take this opportunity to thank 
you for appearing before the Subcommittee on Public Lands & Forests of 
the Senate Committee on Energy and Natural Resources on April 26, 2005, 
to give testimony regarding the findings of the Blue Ribbon Committee 
on Fire Cost Management.
    Enclosed herewith please find a list of questions which have been 
submitted for the record. If possible, I would like to have your 
response to these questions by May 18, 2005.
    Thank you in advance for your prompt consideration.
            Sincerely,
                                            Larry E. Craig,
                                             Subcommittee Chairman.
[Enclosure.]

                    Questions From Senator Feinstein

    Mr. Caswell, in your testimony you say that your Strategic Panel on 
Fire Suppression Costs found that, and I quote,
    ``a paradigm shift in thinking about hazardous fuel reduction 
effectiveness is required and can be started by ceasing to use acres 
treated as a ``results'' measurement for program accomplishments.''
    I share your concern that fixating on ``acres treated'' can lead 
the agencies to focus simply on the cheapest acres, regardless of how 
effective the treatments are.
    Question 1. Can you elaborate further on the Panel's thinking here?
    I understand that the Western Governors' strategic panel 
recommended that the federal agencies, and I quote, ``Engage 
communities and property owners in creating defensible space around 
structures.''
    Question 2. Do you believe that California's Fire Safe program is 
an effective way to engage communities in hazardous fuels reduction? Is 
this a cost-effective strategy for the federal government, given the 
significant local matching grants?

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              '

                       Firefighters are `in sync'
                `ready': a wet winter means more fuel, 
             but agencies say they're now working together.
   [By Ben Goad, the Press-Enterprise, Riverside, CA, April 25, 2005]
    California's top fire chiefs anticipate a busy season characterized 
by fast-moving and dangerous grassfires.
    But they, along with elected leaders and local fire bosses, are 
encouraged by the state's progress in tackling problems encountered 
during the recommendations devastating 2003 firestorms.
    Twenty-two of 48 recommended changes laid out a year ago by the 
Governor's Blue Ribbon Fire Commission are in place or are being 
addressed, according to a draft of a report being prepared for Gov. 
Schwarzenegger.
    An additional 18 of the panel's recommended actions are expected to 
be complete by July. The remaining eight are to be implemented by 
various dates ranging from next January to the year 2010, according to 
the report.
    ``Are we ready for fire season? Yes, we're ready,'' California 
Department of Forestry Director Dale Geldert said Monday. ``This is the 
first time I know of when all the fire agencies have worked together 
for a common set of goals for the entire state of California. We're in 
sync.''
Training, Resources Cited
    More training and resources are cited by the report as areas where 
progress has been made.
    New regulations extend the daily operating time for firefighting 
aircraft, and agencies from local, state and federal levels have begun 
holding regular teleconferences to compare notes and share information 
on days when conditions are ripe for a large wildfire, Geldert said.
    Other recommendations, including calls for new laws and training 
standards, have been addressed but will take years to implement, 
according to the report.
Report Being Compiled
    Geldert, one of 13 commission members on a working group that is 
compiling the report, said he expects to brief state Resources 
Secretary Michael Chrisman on the progress in the coming weeks, and 
Schwarzenegger soon after.
    The report comes just months after several elected officials, 
firefighters and commission members expressed frustration that agencies 
had not implemented more recommendations. As of mid-October, only nine 
had been addressed.
    Agriculture Undersecretary Mark Rey, who oversees the U.S. Forest 
Service, said late last week that the region could get a respite from 
major forest fires this year.
    Winter rains lessened the effects of enduring drought, and fires 
that move through treetops, in Southern California's four national 
forests, Rey said.
    ``Generally speaking, we think fire season will be more benign in 
Southern California and more difficult in the Northern Rockies,'' he 
said.
Rain a Mixed Blessing
    But state and local officials, while agreeing that moisture levels 
deep in area forests are far higher than in previous seasons, fear that 
the heavy precipitation is a mixed blessing.
    The bumper crop of grass and new brush brought by the past winter's 
near-record rainfall already has begun its annual transition from lush 
green to brittle amber. The drying vegetation will become fuel for 
fires.
    ``There is a tremendous grass crop that has left me extremely 
worried,'' said Jim Wright, CDF's chief of fire protection.
    Several significant wildfires, some as large as 30 to 40 acres, 
have already occurred in the region, particularly in the Lake Matthews 
area, Corona Fire Chief Mike Warren said.
    But Warren said he already sees a difference in the way fire 
agencies respond to fires in the post-blue ribbon commission era. 
Improved communication, which was among the chief priorities set out by 
the panel, is evident, he said.
    ``What I'm seeing is a rapid move toward mutual aid,'' Warren said. 
``There isn't the kind of hesitation that there has been in the past to 
call on a neighbor for help.''
Governor Credited
    Warren, who is also a commission member, attributed much of the 
commission's progress to support from the Schwarzenegger 
administration.
    Schwarzenegger came under fire in October after vetoing four fire-
related bills amid the height of fire season. Several officials 
questioned the state's resolve to implement the commission's 
recommendations. Even retired Sen. William Campbell, who served as 
chairman of the panel, expressed frustration.
    In a December meeting, Schwarzenegger vowed ``100 percent support'' 
of the commission's plans, Warren said. In subsequent meetings in 
January, February and March, commission members spent hundreds of hours 
further prioritizing the recommendations and setting them into motion, 
he said.
    Schwarzenegger and then-outgoing Gov. Gray Davis created the 
commission in the aftermath of the 2003 fires, which torched three 
quarters of a million acres across Southern California, destroying 
thousands of homes and killing 22 people.
                                 ______
                                 
 An end to turf battles: New fire-fighting style tested at Camp 5 blaze
  [By Bill Harlan, Rapid City Journal, Rapid City, SD, April 25, 2005]
    U.S. Forest Service District Ranger Pam Brown and Joe Lowe, the 
state of South Dakota's top fighter of wildfires, were almost giddy 
Wednesday over what happened last Sunday during the Camp 5 forest fire 
near Deadwood.
    ``We came together as firefighters rather than as agencies,'' Lowe, 
who directs the state Division of Wildland Fire Suppression, said.
    ``From my perspective, this was huge,'' Brown, who runs the 
Northern Hills District of the Black Hills National Forest, said.
    The fire ignited late Sunday afternoon about a mile south of U.S. 
Highway 14A, which runs through Boulder Canyon. It ran hot and fast 
into the night, burning 775 acres before firefighters had it 60 percent 
contained Monday and fully contained by Tuesday night.
    Cool, wet weather Monday night helped administer the coup de grace, 
but Lowe and Brown were both emphatic that a crucial ``burn-out'' and 
fire lines built on the east side of the fire helped save homes in the 
Boulder Park subdivision.
    What they were excited about was a fire management structure called 
a ``unified command''--a concept that only a policy wonk could get 
giddy about.
    Brown and Lowe, however, insisted that the ``unified command'' 
system could have profound results in the fire-prone Black Hills.
    ``They've used it for years in California,'' Lowe said. He spent 
most of his firefighting career there.
    Unified command is a management structure that allows various 
firefighting agencies to come together quickly to coordinate 
firefighting efforts.
    Sunday night, for example, Lowe and Forest Service firefighter 
Terry Tompkins were among the first on the scene. The fire was on 
Forest Service land, so, under the traditional system, Tompkins would 
have been in charge. However, Lowe had already discussed trying the 
unified command system with Dean Berger, fire management officer for 
the Black Hills National Forest.
    Lowe and Tompkins, talking on cell phones on their way to the fire, 
decided to give unified command a try.
    Brown, who manages the ranger district where the fire started, also 
approved. ``We had to get after it fast,'' she said.
    Lowe and Tompkins met in person at the fire to discuss a strategy. 
Among their objectives:

  <bullet> Fight the fire aggressively all night.
  <bullet> Focus on the east flank of the fire.
  <bullet> Set an east flank burn-out that, though risky, could help 
        save homes.

    They also agreed on a system for ordering people, equipment and 
supplies. They even roughed out a cost-sharing agreement.
    Lowe said the most important objective, aside from safety, was to 
``build a box'' on a map. ``Once the box is defined, you look for ways 
to keep the fire in it,'' he said.
    While Lowe and Tompkins were building the box, the initial 
responders, including volunteer departments, continued to work the 
fire, which was already crowning--moving fast through tree tops.
    The fire plan, however, was in place, in writing, within minutes. 
Then Lowe and Tompkins picked an ``operations officer'' to run the 
effort. For the night-shift Sunday, that turned out to be Randy 
Skelton, a battalion chief with the Rapid City Fire Department.
    Brown said that from Sunday night on, firefighters from about a 
dozen organizations worked as though they had trained together all 
year. They came from the Forest Service, the state of South Dakota, the 
National Park Service, the Bureau of Indian Affairs, volunteer fire 
departments and county agencies. They also included specially trained 
state prisoners from the Rapid City Trusty Unit.
    ``It's great when it's so effortless,'' Brown said, because multi 
jurisdictional firefighting can be difficult.
    Elements of the unified command system have been used here before, 
but Lowe said this was the first time the formal structure had been 
used on a big wildfire in the Black Hills.
    Lowe is eager to use the system again. The Black Hills National 
Forest is honeycombed with private land holdings, he pointed out, which 
makes it ripe for turf battles--or at least jurisdictional confusion.
    ``When would unified command not make sense in the Black Hills?'' 
Brown asked.
                                 ______
                                 
                                 Department of Agriculture,
                                Department of the Interior,
                                     Washington, DC, April 5, 2005.
Hon. Ellen Engleman Conners,
Chairwoman, National Transportation Safety Board, Washington, DC.
    Dear Madam Chairman: On April 23, 2004, the National Transportation 
Safety Board (NTSB) issued a letter to the Secretary of the Department 
of Agriculture (USDA), the Secretary of the Department of the Interior 
(DOI), and the Administrator of the Federal Aviation Administration 
(FAA) containing safety recommendations based on the NTSB's review of 
three large airtanker crashes caused by in-flight structural failures. 
This joint response from USDA and DOI addresses NTSB Safety 
Recommendations A-04-29 through A-04-31.
    A-04-29. Develop maintenance and inspection programs for aircraft 
that are used in firefighting operations that take into account and are 
based on:

    1. The airplane's original design requirements and its intended 
mission and operational life;
    2. The amount of operational life that has been used before 
entering firefighting service;
    3. The magnitude of maneuver loading and the level of turbulence in 
the firefighting environment and the effect of these factors on 
remaining operational life;
    4. The impact of all previous flight hours (both public and civil) 
on the airplane's remaining operational life; and
    5. A detailed engineering evaluation and analysis to predict and 
prevent fatigue separations.

    On behalf of their respective Departments, USDA's Forest Service 
and DOI's Bureau of Land Management have engaged in a process to 
immediately mitigate the safety risk and provide for continuing safe 
operation of public firefighting aircraft to comply with Recommendation 
A-04-29. This process is outlined as follows:

    1. On May 10, 2004, the agencies terminated 33 large airtanker 
contracts.
    2. With FAA participation, an enhanced inspection process was 
established and a request was issued to airtanker companies for 
documentation that could be used to evaluate historical data and the 
maintenance and inspection programs and practices of the airtanker 
industry.
    3. On June 10, 2004, the Forest Service contracted with DynCorp 
Technical Services to provide evaluations of aircraft and vendors for 
compliance with A-04-29.
    4. With regard to items 1, 2, and 4 of the above recommendation, 
the issue of determining the ``remaining operational life'' of some 
existing airtaker models was problematic, but the Departments agree 
with the NTSB that determination of an operational life was critical to 
preventing separations that might result from widespread fatigue 
damage.
    5. To this end, vendors and the Departments are working together to 
determine an operational service life while simultaneously collecting 
load spectrum data to refine it for the firefighting environment. 
DynCorp was tasked to determine if an operational service life existed 
or could be determined for each aircraft type--and if individual 
aircraft remain within this service life. To determine operational 
service life and ``fatigue life expended'' for each airframe, DynCorp 
is actively seeking fatigue life histories and applicable information 
from airtanker companies, Sandia National Laboratories, original 
aircraft manufacturers, and the military.
    6. Data recorders have been installed on several airframe models to 
collect load data on the low-level fire environment in order to more 
accurately define the load spectrum and to determine fatigue life 
limits and maintenance and inspection procedures and intervals. This 
information will be critical in the evaluation of current and future 
firefighting aircraft.

    A-04-30. Require that aircraft used in firefighting operations be 
maintained in accordance with the maintenance and inspection programs 
developed in response to Safety Recommendation A-04-29.
    The Forest Service has contracted with the former Executive 
Director of the Transportation Safety Board of Canada to develop a 
Special Purpose Operations and Airworthiness Manual. This manual will 
clearly articulate roles, responsibilities, processes, and procedures 
for operational, maintenance, and inspection standards for public-use 
firefighting aircraft.
    In the interim, the Forest Service has established conservative 
maintenance and inspection requirements for airtankers that have been 
returned to operational service and has included these expanded 
requirements in all airtanker contracts. The requirements will continue 
to be refined as additional load data are collected and appropriate 
engineering analyses are conducted.
    The Bureau of Land Management has established a Continuing 
Airworthiness Program (CAP) Manager position with responsibility.for 
implementing a CAP for all of the types of firefighting aircraft it 
uses. This CAP is based on assessments of aircraft mission profiles, 
make/model safety information, aircraft inspections, aircraft records 
research, and maintenance and inspection program evaluation. The end 
result of these assessments will be the development of a Structural 
Health Monitoring plan for each make/model of aircraft used in 
firefighting operations. All steps in the process are to be coordinated 
with the Original Equipment Manufacturer.
                                 ______
                                 
    Statement of the U.S. Department of Agriculture, Forest Service
              fire and aviation management briefing paper
    Topic: Fiscal Year 2005 Forest Service Firefighter Training Cost 
Estimates
    Issue: Projected training costs for 2005 based on anticipated 
personnel employed in Fire Positions
    Background: The cost of training fluctuates from year to year and 
from region to region. In addition, the Forest Service does not 
consider training cost an effective means of determining a 
firefighter's ability to perform safely and does not specifically track 
these costs. However, any estimate of training cost must be based on 
the number of firefighters and required courses. Firefighter is 
qualified for a variety of positions that require successful completion 
of training, observed performance, and approval from a board of 
experts. Firefighters carry a position qualifications document (Red 
Card) that show they have met all training, experience and physical 
fitness requirements to perform specific jobs. No firefighter is 
assigned to the fireline until they have met all standards and this has 
been certified.
    Key Points:

  <bullet> The Forest Service maintains training standards for most 
        fire positions that are above the minimum training requirements 
        set by the National Wildfire Coordination Group. The increased 
        qualifications are outlined in the Forest Service's Fire and 
        Aviation Management Qualifications Handbook FSH 5109.17.
  <bullet> Standard government-wide accounting uses Budget Object codes 
        to classify costs, such as salary, travel, and training. 
        However, travel expenses in budget object codes are typically 
        limited to training tuition costs, which is a small portion of 
        total training costs. The majority of the costs are associated 
        with the time and expense of employees attending training.
  <bullet> Each region is required to use money included in their 
        preparedness funding to pay for training related expenses. The 
        cost for regional and local fire training in FY05 was $22.4 
        Million.
  <bullet> The Forest Service also provides funds for National or 
        advanced levels of training which are hosted by the National 
        Wildfire Apprentice Training Academy, National Advanced Fire 
        and Resource Institute, Fire Use Training Academy, and National 
        Prescribed Fire Training Center. The amount provided in FY 2005 
        for these training programs was $7.1 Million.
  <bullet> On October 1, 2004 Interagency Fire Program Management 
        (IFPM) was initiated in response to recommendations from the 
        Interagency Management Review Team. IFPM is intended to 
        professionalize the fire and aviation organization with 
        standard position competencies and higher education standards. 
        This program will increase the training requirements for a 
        significant portion of the workforce. The first significant 
        signs of an increase in training needs will occur in FY 2006.

    Conclusion: The cost of training fluctuates from year to year and 
from region to region. These fluctuations are due to the variation of 
individuals hired and the amount of specialized or advanced training 
determined to be necessary to meet current individual, unit, regional 
and National needs. The combined estimate cost of local, regional and 
National fire training for FY05 is $29.5 Million.

                                    

      

</pre></body></html>
